<html>
<title> - H.R. 5744, CATASTROPHIC WILDFIRE PREVENTION ACT OF 2012; H.R. 5960, DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 2012; AND H.R. 6089, HEALTHY FOREST MANAGEMENT ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 5744, CATASTROPHIC WILDFIRE PREVENTION ACT OF 2012; H.R. 5960, 
DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC 
FIRE ACT OF 2012; AND H.R. 6089, HEALTHY FOREST MANAGEMENT ACT OF 2012

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         Friday, July 20, 2012

                               __________

                           Serial No. 112-121

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-278 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                













                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, July 20, 2012............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Coffman, Hon. Mike, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    68
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement on H.R. 5744..........................     5
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................    45
        Prepared statement on H.R. 5960..........................    47
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Commonwealth of the Northern Mariana Islands......     3
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado, Oral statement on H.R. 6089.............     6

Statement of Witnesses:
    Cook, David, Pulbic Land Rancher and NCBA Federal Lands Vice 
      Chair, National Cattlemen's Beef Association, Public Lands 
      Council & Cattle Growers Association.......................    50
        Prepared statement on H.R. 5744..........................    52
    Gibbs, Hon. Dan, Commissioner, Summit County, Colorado.......    19
        Prepared statement on H.R. 5744, H.R. 5960 and H.R. 6089.    21
    Jankovsky, Hon. Tom, Commissioner, Garfield County, Colorado.    31
        Prepared statement on H.R. 6089..........................    32
    Kashdan, Hank, Legislative Director, National Association of 
      Forest Service Retirees....................................    33
        Prepared statement on H.R. 6089..........................    35
    Roberson, Ed, Assistant Director, Renewable Resources and 
      Planning, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    14
        Prepared statement on H.R. 5744, H.R. 5960 and H.R. 6089.    15
    Romm, Joseph, Ph.D., Senior Fellow, Center For American 
      Progress Action Fund.......................................    24
        Prepared statement on H.R. 5744, H.R. 5960 and H.R. 6089.    25
    Shamley, John Doyel, Natural Resource Coordinator, Apache 
      County, Arizona, and CEO, Veritas Research Consulting......    48
        Prepared statement on H.R. 5744..........................    50
    Wagner, Mary, Associate Chief, Forest Service, U.S. 
      Department of Agriculture..................................     8
        Prepared statement on H.R. 5744, H.R. 5960 and H.R. 6089.    10


LEGISLATIVE HEARING ON H.R. 5744, TO ADDRESS THE FOREST 
HEALTH, PUBLIC SAFETY, AND WILDLIFE HABITAT THREAT PRESENTED BY 
THE RISK OF WILDFIRE, INCLUDING CATASTROPHIC WILDFIRE, ON 
NATIONAL FOREST SYSTEM LANDS AND PUBLIC LANDS MANAGED BY THE 
BUREAU OF LAND MANAGEMENT BY REQUIRING THE SECRETARY OF 
AGRICULTURE AND THE SECRETARY OF THE INTERIOR TO EXPEDITE 
FOREST MANAGEMENT PROJECTS RELATING TO HAZARDOUS FUELS 
REDUCTION, FOREST HEALTH, AND ECONOMIC DEVELOPMENT, AND FOR 
OTHER PURPOSES. ``CATASTROPHIC WILDFIRE PREVENTION ACT OF 
2012''; H.R. 5960, TO AMEND THE HEALTHY FORESTS RESTORATION ACT 
OF 2003 TO IMPROVE THE RESPONSE TO INSECT INFESTATIONS AND 
RELATED DISEASES AND TO CHANGE THE FUNDING SOURCE FOR THE 
HEALTHY FORESTS RESERVE PROGRAM, TO CODIFY THE STEWARDSHIP END 
RESULT CONTRACTING AND GOOD NEIGHBOR AUTHORITIES, AND TO AMEND 
THE EMERGENCY WATERSHED PROTECTION PROGRAM TO IMPROVE POST FIRE 
REHABILITATION, AND FOR OTHER PURPOSES. ``DEPLETING RISK FROM 
INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 
2012''; AND H.R. 6089, TO ADDRESS THE BARK BEETLE EPIDEMIC, 
DROUGHT, DETERIORATING FOREST HEALTH CONDITIONS, AND HIGH RISK 
OF WILDFIRES ON NATIONAL FOREST SYSTEM LAND AND LAND UNDER THE 
JURISDICTION OF THE BUREAU OF LAND MANAGEMENT IN THE UNITED 
STATES BY EXPANDING AUTHORITIES ESTABLISHED IN THE HEALTHY 
FOREST RESTORATION ACT OF 2003 TO PROVIDE EMERGENCY MEASURES 
FOR HIGH-RISK AREAS IDENTIFIED BY SUCH STATES, TO MAKE 
PERMANENT FOREST SERVICE AND BUREAU OF LAND MANAGEMENT 
AUTHORITY TO CONDUCT GOOD-NEIGHBOR COOPERATION WITH STATES TO 
REDUCE WILDFIRE RISKS, AND FOR OTHER PURPOSES. ``HEALTHY FOREST 
MANAGEMENT ACT OF 2012.''
                              ----------                              


                         Friday, July 20, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:10 a.m., in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lamborn, Tipton, Noem, 
Holt and Markey.
    Also present: Representatives Sablan, Gosar, and Gardner.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. This hearing will come to order. The Chairman 
notes the presence of a quorum that is here on the Subcommittee 
on National Parks, Forests and Public Lands meeting here today 
to hear testimony on three bills that are within our 
jurisdiction and deal with the significant issue of our 
national forests and public lands on how to prevent 
catastrophic wildfires from happening in the future since we 
are not doing a very good job with our present methods of 
stopping them in the present time.
    Under the rules of this Committee, the remarks are limited 
to the Ranking Member and the Chairman. I ask unanimous consent 
to include any other Members' opening statement in the record 
if they are submitted to the clerk by the end of today. And 
hearing no objections.
    I also ask unanimous consent for any Member who wishes to 
join us on the dais to participate in our meeting today. And 
once again, without hearing any dissent, that will be the case.
    I realize that we are in a cramped situation as far as time 
is concerned, that some of you have flights that you need to 
make this morning. I also recognize that we have brought people 
in from across the country, so I appreciate them coming to the 
hearing. So therefore, my opening statement I am just going to 
submit for the record. We can move forward.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today we are hearing three bills that aim to bring much-needed 
solutions to a slow-moving train wreck that has overtaken our public 
lands.
    Decades of failed polices and hands-off management of our forests 
have left the majority of these lands in an unnatural, and unhealthy 
state. What was once a valuable asset that provided raw material for a 
growing and prosperous nation, clean water, recreation and numerous 
other benefits has deteriorated into an extreme liability to western 
communities and the environment.
    It is time for a paradigm shift in restoring our landscape so that 
national forests can once again meet the purposes for which they were 
established. For decades we've witnessed the problem and have known the 
solution. While some try to convolute and distract from the debate for 
their radical agendas, the solution is simple--we need to remove the 
volume of fuels that these forests are adding to themselves at a rate 
of 30% each year. The Native Americans used fire, modern man used 
forest management; the federal government removed both and now nature 
is in the process of replacing them with its own scorched earth policy.
    This is the fourth hearing this subcommittee has held on this issue 
within the last year, and the response has been the same--we need to 
get back to the business of managing our lands.
    Some like to argue that the problem is funding. Obviously the 
hardworking and dedicated land managers on the ground are not going to 
implement forest management for free. Yet funding does nothing to undo 
the Gordian knot of regulation, conflicting mandates, and obstruction 
that former Forest Service Chief Dale Bosworth self-diagnosed as 
``analysis paralysis.''
    Again, this is not a new issue, and not a new solution. We need to 
thin the trees. We do not need more ``experiments'' or more ``pilots'' 
to tell us what the problem is. We simply need to provide land managers 
the direction, flexibility, and encouragement to work with affected 
communities and stakeholders and get back into the forest.
    I'm encouraged that two of our colleagues from areas that have been 
tragic victims of these conditions have worked on legislation to do 
just that, and restore management to the landscape. I thank Mr. Tipton 
and Mr. Gosar for their hard work, as well as Ranking Member Markey for 
his recognition of the need for a more active approach to our forest 
resources than has occurred under current mismanagement of the federal 
estate. I thank our witnesses for joining us and look forward to their 
testimony.
                                 ______
                                 
    Mr. Bishop. Does Ranking Member Sablan have an opening 
comment?

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
     DELEGATE IN CONGRESS FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Well, I just wanted to say good morning and 
thank everyone for joining us today, and welcome our witnesses 
also, especially those who have been wildland firefighters. We 
respect and thank you for your dedication.
    Mr. Chairman, to be brief, I yield back my time.
    Mr. Bishop. Thank you.
    All right. We will start with our first group of witnesses 
who will talk. And we will talk about the first three bills 
that are here, and it will be the sponsors of that. So, 
Representative Gosar, I notice that you are here. We recognize 
you first to talk about H.R. 5744. Mr. Markey, if he appears, 
would then talk about H.R. 5960. And then, Mr. Tipton, if you 
would go through H.R. 6089. Once again, you have 5 minutes.
    Representative Gosar, go for it.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Well, first thank you, Chairman Bishop, for 
holding today's hearing and for cosponsoring the bill, the 
Catastrophic Wildfire Prevention Act of 2012, or H.R. 5744.
    First, my thoughts and prayers continue to go out to our 
constituents who have suffered from catastrophic wildfires. I 
would also like to express my appreciation to all the men and 
women working to protect the lives and property of our 
neighbors.
    I have a slideshow on the screen now to show some of the 
devastating impacts of these fires. The district I represent, 
Arizona's First Congressional District, is one of the largest 
congressional districts in the country, encompassing 8 of 
Arizona's 13 rural counties. It contains over 37 million acres 
of land administered by the Federal Government, including over 
9 million acres of the United States Forest Service. That 
acreage includes most of the Coconino, Apache-Sitgreaves, the 
Prescott, Tonto and Kaibab National Forests.
    Last year our communities were victims to some of the 
largest forest fires in recorded history. The Wallow Fire grew 
to over 800 square miles over just a few weeks, charring in its 
wake some of the most treasured parts of our Ponderosa pine 
country. The Horseshoe fire, the Murphy Complex, the Stanley 
fire and the Monument fire blackened another 200,000 acres. 
This year's fire season has not been much better. Over 900 
fires have charred nearly 6,000 square miles in Arizona, 
California, Colorado, Nevada, New Mexico, Oregon and Utah, and 
over 50,000 of those acres are in Arizona alone.
    It is clear that the process of planning, studying, 
consulting, litigating, appealing and collaborating are failing 
us in our forests. The frequency of fires and the magnitude of 
the acreage burned have increased markedly since 1990. The five 
largest wildfires in my State's history, the Rodeo in 2002, the 
Cave Creek in 2005, the Willow in 2004, and the Aspen in 2003, 
and now the Wallow Fire, have all occurred in the last 10 
years. Prior to 1990, the largest fire was the Carrizo fire in 
1970, which burned just 57,000 acres.
    Our ecosystems are suffocating. Where we once had 10 to 25 
trees per acre, we now have hundreds. Roughly 80 million acres 
of forests across the West are overgrown and ripe for 
catastrophic wildfire, according to the Landfire multiagency 
database. Our forests have been mismanaged for a long time, and 
it is way past due to change our strategy. The current Federal 
system continues to prioritize fighting fires. Although we need 
to suppress fires, it is never going to go away, but we must 
shift priority toward a proactive management. We simply cannot 
afford to do otherwise.
    Catastrophic wildfires are difficult to control and cost 
the Federal Government millions of dollars in immediate fire 
response and many millions more in restoration and 
rehabilitation. The Western Forestry Leadership Coalition, a 
State and Federal Government partnership, estimates the costs 
are 2 to 30 times the reported suppression costs. Last year the 
Forest Service spent a record total of $48 million on burned 
area recovery work; $25 million has already been spent to 
prepare for the immediate aftermath of this year's wildfires, 
putting the U.S. Forest Service on track for another possible 
record year of spending on burned area recovery efforts.
    So what is standing in the way of the proactive and 
fiscally sustainable forest management? Bureaucratic red tape 
is preventing us from participating in the stewardship of our 
public lands, and the extortion tactics of some of the 
environmental groups which have devastated the timber industry 
and placed local ranchers' economic livelihood at risk.
    That is why I introduced the Catastrophic Wildfire 
Prevention Act of 2012. My bill authorizes the Forest Service 
and the Department of the Interior to implement wildfire 
prevention projects, including timber harvest and livestock 
grazing in at-risk forests, along with threatened and 
endangered species habitat, to focus on surface, ladder and 
canopy fuels reduction activities. In other words, it 
streamlines a review process, improves local coordination, 
eliminates duplication, and sets firm timeframes to bring more 
accountability to the process.
    Forest thinning works. In eastern Arizona the areas that 
were treated as part of the White Mountain Stewardship Project, 
a contract designed to thin Apache-Sitgreaves National Forest 
and White Mountain Apache tribal lands, the areas managed 
locally by the Apache Tribe in the State of Arizona were 
properly cleared. Today there are still healthy trees with 
burned underbrush. On lands that were untouched by thinning 
practices, the majority of the U.S. Forest Service-administered 
land in the State, fires left only scorched earth behind.
    We simply need to make ecological restoration easier. This 
commonsense approach has garnered strong bipartisan support. 
This legislation has 32 cosponsors from 23 different States. 
Additionally, Utah Senator Mike Lee has introduced companion 
legislation in the Senate. Many of these supporters represent 
States or congressional districts with large swaths of National 
Forest land or Bureau of Land Management-administrated land; 
not Massachusetts. In short, they are people directly in harm's 
way, not safely tucked in a concrete jungle.
    Thank you, Chairman Bishop, for your leadership on this 
issue. And I look forward to the further Committee action on my 
bill and other proposals that will restore the environment, 
improve public safety, and save the taxpayers' dollars, and put 
the people back to work.
    I yield back.
    Mr. Bishop. Thank you, Representative Gosar.
    [The prepared statement of Dr. Gosar follows:]

      Statement of The Honorable Paul A. Gosar, a Representative 
                 in Congress from the State of Arizona

    I thank Chairman Bishop for holding today's hearing and for 
cosponsoring my bill, the Catastrophic Wildfire Prevention Act of 2012 
(H.R. 5744).
    First, my thoughts and prayers continue to go out to our 
constituents who have suffered from catastrophic wildfire. I would also 
like to express my appreciation to all of the men and women working to 
protect the lives and property of our neighbors. I have a slideshow, on 
the screen now, to show some of the devastating impacts these fires.
    The district I represent--Arizona's First Congressional District--
is one of the largest Congressional districts in the county, 
encompassing eight of Arizona's thirteen rural counties. It contains 
over thirty-seven million acres of land administered by the federal 
government, including over nine million acres of United States Forest 
Service lands. That acreage includes much of Coconino, Apache-
Sitgreaves, Prescott, Tonto and Kaibab National Forests
    Last year, our communities were victims to some of the largest 
forest fires in recorded history. The Wallow Fire grew to over 800 
square miles, over just a few short weeks, charring in its wake some of 
the most treasured parts of our Ponderosa Pine country. The Horseshoe 
Fire, the Murphy Complex, the Stanley Fire and the Monument Fire 
blackened another 200,000+ acres. This year's fire season has not been 
any better. Over 900 fires have charred nearly 6,000 square miles in 
Arizona, California, Colorado, Nevada, New Mexico, Oregon, and Utah. 
Over 50,000 of those acres are in Arizona alone.
    It is clear that the process of planning, studying, consulting, 
litigating, appealing, and collaborating are failing us and our 
forests. The frequency of fires, and the magnitude of the acreage 
burned, has increased markedly since 1990. The five largest wildfires 
in my state's history, Rodeo in 2002, Cave Creek in 2005, Willow in 
2004, Aspen in 2003, and now the Wallow Fire have all occurred in the 
last ten years. Prior to 1990, the largest fire was the Carrizo fire in 
1970 which burned just 57,000 acres.
    Our ecosystems are suffocating. Where we once had 10 to 25 trees 
per acre, we now have hundreds. Roughly 80 million acres of forests 
across the West are overgrown and ripe for catastrophic wildfire, 
according to the Landfire multiagency database. Our forests have been 
mismanaged for a long time and it is way past due to change our 
strategy.
    The current federal system continues to prioritize fighting fires. 
Although the need to suppress fires is never going to go away, we must 
shift priority towards pro-active management.
    We simply cannot afford to do otherwise. Catastrophic wildfires are 
difficult to control and cost the federal government millions of 
dollars in immediate fire response and many millions more in 
restoration and rehabilitation. The Western Forestry Leadership 
Coalition, a state and federal government partnership, estimates the 
costs are 2 to 30 times the reported suppression costs. Last year, the 
Forest Service spent a record total of $48 million on burned-area 
recovery work. $25 million has already been spent to prepare for the 
immediate aftermath of this year's wildfires, putting the U.S. Forest 
Service on track for another possible record year of spending on 
burned-area recovery efforts.
    So what is standing in the way of pro-active and fiscally 
sustainable forest management? Bureaucratic red tape, preventing us 
from participating in the stewardship of our public lands and the 
extortion tactics of some environmental groups, which have devastated 
the timber industry and placed local ranchers' economic livelihood at 
risk.
    That is why I introduced the Catastrophic Wildfire Prevention Act 
of 2012. My bill authorizes the Forest Service and Department of the 
Interior to implement wildfire prevention projects, including timber 
harvests and livestock grazing, in at-risk forests and threatened and 
endangered species habitat that focus on surface, ladder and canopy 
fuels reduction activities. In other words: it streamlines the review 
process, improves local coordination eliminates duplication, and sets 
firm time frames to bring more accountability to the process.
    Forest thinning works! In Eastern Arizona, the areas that were 
treated as part of the White Mountain Stewardship Project, a contract 
designed to thin Apache-Sitgreaves National Forest and White Mountain 
Apache Tribal lands, and the areas managed locally by the Apache Tribe 
and the State of Arizona were properly cleared. Today there are still 
healthy trees with burned underbrush. In the lands that were untouched 
by thinning practices, the majority of the U.S. Forest Service 
administered land in the state, fire has left only scorched earth 
behind. We simply need to make ecological restoration easier.
    This common sense approach has garnered strong bipartisan support. 
This legislation has thirty-two cosponsors from twenty-three different 
states. Additionally, Utah Senator Mike Lee has introduced companion 
legislation in the Senate. Many of these supporters represent states or 
Congressional Districts with large swaths of National Forest System or 
Bureau of Land Management administered land--not Massachusetts. In 
short, they are the people directly in harm's way, not safely tucked in 
a concrete jungle.
    Thank you Chairman Bishop for your leadership on this issue. I look 
forward to further committee action on my bill and others proposals 
that will restore the environment, improve public safety, save the 
taxpayer dollars, and put people back to work.
                                 ______
                                 
    Mr. Bishop. We will let Ranking Member Markey speak on his 
particular bill.
    Mr. Tipton, if I can turn to you now for H.R. 6089.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairman Bishop, for including my 
legislation, H.R. 6089, the Healthy Forest Management Act of 
2012, in today's hearing, and for your support of this bill.
    I would also like to thank my fellow members of the 
Colorado delegation, Congressman Coffman, Congressman Lamborn 
and Congressman Gardner, as well as Congressman Greg Walden and 
Congressman Gosar, for the valuable contribution to this 
effort.
    The bark beetle epidemic, rampant drought and deteriorating 
forest conditions have increased the propensity for devastating 
wildfires of the kind already seen in Colorado and throughout 
the Western United States this season. While the outbreak has 
affected State and private lands, the damage is oftentimes more 
heavily concentrated in Federal lands where a lack of active 
forest management has allowed the epidemic to spread to 
catastrophic levels. Of the 6.6 million acres infested in 
Colorado, almost 4 million are on Federal lands.
    Federal efforts to responsibly manage our forests and 
prevent conditions for fires that have ravaged Colorado and 
other Western States have been hampered by an unwieldy 
regulatory framework that systemically prevents progress toward 
healthy forests. H.R. 6089, the Healthy Forest Management Act 
of 2012, gives greater control to those States and communities 
most directly affected by these conditions, and provides a 
pathway for comprehensive landscape-level planning and a local 
emphasis.
    This legislation builds on the bipartisan Healthy Forest 
Restoration Act of 2003, empowering States, counties and tribes 
to be more active in addressing these emergency circumstances. 
We can proactively manage our forests; reduce further 
destruction from wildfires; safeguard water supplies, species, 
habitat; and provide a healthy natural environment. Utilizing 
the tools in the Healthy Forest Restoration Act, which have 
proven to be effective, the Healthy Forest Management Act can 
help reduce the cost imposed on taxpayers due to litigation, 
expedite emergency mitigation procedures, and restore our 
forests before they go up in flames when the costs are far 
greater.
    H.R. 6089 prioritizes conservation and will help reduce the 
investment required of taxpayers by making public-private 
partnerships more feasible. This bill is a result of more than 
a year of Committee work; meetings with the Forest Service, 
Bureau of Land Management and other agencies; meeting with 
county and State officials and with constituents; as well as 
congressional hearings on forest management. Everyone that we 
talked to agreed that more needs to be done to be able to 
manage our Federal forests, and this legislation is the 
outgrowth of that stakeholder engagement. This is further borne 
out by the groundswell of support that we have received for 
this legislation from Coloradans; local, State and national 
groups; and from organizations on both sides of the political 
spectrum since the bill was introduced this last week.
    The Healthy Forest Management Act empowers Governors to be 
able to work with county commissioners and tribes to be able to 
identify the most problematic areas, the spots that pose the 
most imminent risk of fueling a wildlife, and then take action 
to be able to manage the risk by removing hazardous fuels like 
beetle-killed timber. This bill allows those who are most 
directly impacted by wildfires to take proactive measures to be 
able to address the problems and mitigate the root causes of 
catastrophic wildfire.
    This bill isn't a talker, it is a doer. For this reason the 
Healthy Forest Management Act has received the support of the 
Colorado Timber Association, CLUB 20, the Colorado Association 
of Conservation Districts. Commissioners from Routt, Montrose, 
Gunnison, Archuleta, Moffat, Dolores, Jefferson and Larimer 
Counties have also given their endorsements. So have the Boone 
and Crockett Club, and the Farm Bureau Federal Forest Resource 
Coalition, National Cattlemen's Beef Association, National 
Association of Counties, National Association of Forest Service 
Retirees, National Shooting Sports Foundation, National 
Association of Conservation Districts, Public Lands Council, 
Safari Club International and the Society for Range Management.
    I would like to urge my colleagues to join us in the strong 
coalition of support for a commonsense bill that takes action 
to be able to fix the problem and seriously address the 
critical state of the Western forests.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bishop. Thank you, Representative Tipton.
    Now, Bryson, I am going to call an audible here. We have 
several witnesses who traveled great distances, and I am aware 
of your travel plans going back home, so I am going to get you 
finished in time. Some of the witnesses are addressing all 
three bills, and some only one bill. So I am going to make sure 
that we get to those who want to address all three bills at the 
same time.
    So let me invite up Mary Wagner, who is from the Forest 
Service; Ed Roberson, who is from BLM and the Department of the 
Interior, who will be addressing all three bills.
    Can I also invite--and this is where I am going to make the 
change here--Commissioner Gibbs from Summit County in Colorado, 
Joseph Romm from the Center for American Progress. You are all 
speaking on all three bills, so if I can invite you up.
    Then also let me invite Hank Kashdan from the National 
Association of Forest Service Retirees, and Tom Jankovsky, the 
Commissioner from Garfield County in Colorado.
    Actually, if you guys could come up here and be the first 
panel, I would appreciate that. I was excited for a while when 
I saw Garfield and Summit Counties, and then I realized this is 
Garfield and Summit County in Colorado, not in Utah. 
Disappointment reigned again.
    All right. If I could ask you--am I missing anyone there? 
If I could ask you once again if you would address, the first 
four witnesses, all three bills, and then the last two 
witnesses, the Commissioner and Mr. Kashdan from the Retirees, 
if you would then talk about H.R. 6089. And once again, since 
we are on a short time limit to try and make sure that everyone 
gets their available time, you have 5 minutes. You know the 
drill. Most of you have been here before. We have your written 
testimony. It will appear as written in the record. This is an 
oral testimony, so only hit the highlights. Make sure it comes 
within the 5 minutes.
    When the green light is on in front of you, that means you 
are free to go. When the yellow light hits, you have less than 
that a minute to sum up. And I will apologize to you now that 
when it hits 5 minutes, I am going to cut you off even if it is 
in mid-sentence. I want to get all the testimony in so that it 
can be heard and we can get through these issues and so people 
can meet their deadlines. So I appreciate that.
    OK. I think everyone is now situated and settled. We 
realize you are happy to be here, and you are going to thank 
us. Don't do that. Just go right to your message. You got 5 
minutes.
    Ms. Wagner, we will start with you, please.

  STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, FOREST SERVICE, 
            UNITED STATES DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Mr. Chairman, members of the Committee, I am 
going to offer just a few remarks this morning and note that 
more detail is in the written testimony that has been 
submitted.
    Drought, invasive species, loss of open space, severe 
wildfires, devastating outbreaks of insects and disease, all 
these stresses and disturbances are affecting America's forests 
on an unprecedented scale: 65 to 82 million acres are in need 
of restoration on national forests alone; 65 million acres are 
at high or a very high risk of large wildfires. Increasing the 
pace of restoration of the Nation's forest is critically needed 
to address the health of our forest ecosystems, watersheds and 
communities.
    In Fiscal Year 2011, we accomplished 3.7 million acres of 
restoration. In Fiscal Year 2012, we are on track to accomplish 
about 4 million acres. We have made strides in our efforts to 
increase the pace of restoration, working with community 
organizations, environmental groups, forest industry, local 
government and communities, States, tribes and other Federal 
agencies. We have demonstrated that forest thinning and 
hazardous fuels treatments reduce the impact of fire. But 
clearly we have more to do.
    I want to offer my appreciation to members of this 
Subcommittee and other Members of Congress for your interest 
and action on this issue. And I also want to express my 
condolences to families in communities impacted by wildfires to 
date. This is the reason this work needs our very best.
    Before I address the three bills, I want to tell you about 
some of the work we are implementing to increase restoration. 
In many cases new authorities and tools from Congress has made 
this work possible. We have invested in restoration projects 
with partners through the Collaborative Forest Landscape 
Restoration Program. These projects have demonstrated that 
collaboration among stakeholders can facilitate large 
landscape-scale restoration. The landscape strategies developed 
by these collaborative efforts alone exceed 16 million acres in 
their footprint, and the strategic placement of fuels and 
mechanical treatments will help build more resilient 
landscapes.
    States are featured partners in many of these CFLR 
projects. Under the 2008 farm bill, State forest action plans 
were required, and they delineate priority areas for forest 
restoration. We have partnered with the States and coordinated 
across boundaries for many of these State action plans and are 
in the process of implementing them.
    We have implemented the bark beetle strategy, focusing 
priority treatment areas to ensure human health and safety and 
to reduce hazardous fuels conditions. We have used tools 
available to the agency, such as stewardship contracts and Good 
Neighbor authority, to develop more holistic treatments that 
accomplish multiple research objectives, many times working 
across jurisdictional boundaries.
    With the passage of the 2012 Interior appropriations bill, 
Congress provided resources and authorization to implement 
integrated resource restoration for three pilot regions in the 
interior West of the United States. IRR is going to bring 
resources necessary for maintaining and restoring ecosystems 
under one budget line item, giving us a lot of flexibility to 
do the necessary work on the land.
    We have worked hard on improving NEPA efficiency for 
restoration. A couple of examples; we are close to issuing two 
new categorical exclusions for soil and water restoration 
activities, and we are increasing the use of landscape-scale 
NEPA, larger acreage covered in one analysis. Two examples of 
that are Arizona's Four Forest Initiative, where the NEPA 
document that is covering the restoration plan for that acreage 
is 750,000 acres. Recently in the Black Hills, they have issued 
an adaptive environmental impact statement covering over 
250,000 acres of mountain pine beetle at-risk or impacted 
landscape.
    And last, we are working as a partner on the all lands 
cohesive strategy. Congress, through the Flame Act, asked the 
agencies to put together a strategy that would focus on 
restoring and maintaining fire-adapted landscapes, including 
communities, and optimizing coordinated response to wildfire. 
And we are working with a host of local municipal, State, other 
Federal agency players to respond to that strategy.
    A critical part of all these efforts is building public 
support for forest restoration and management activities. While 
the Department opposes H.R. 5744 and H.R. 6089 as drafted, 
there are elements of the bills that we support, and we would 
like to work with the Subcommittee and sponsors in developing 
bill language that meets forest restoration objectives. And 
while we support H.R. 5960, we would like to have further 
discussion on some of the elements. We do support expanding 
Good Neighbor authority and reauthorizing stewardship 
contracting authority.
    As wildland fires have impacted lands across the West, we 
recognize the interest, the urgency and the willingness of many 
Members of Congress to provide tools for the Forest Service and 
other Federal agencies to apply restoration principles. We look 
forward to working with you on this issue. Thanks.
    Mr. Bishop. Thank you, Ms. Wagner, and thank you for 
watching the clock so diligently. I appreciate that. I saw you 
speed up.
    [The prepared statement of Ms. Wagner follows:]

      Statement of Mary Wagner, Associate Chief, Forest Service, 
 United States Department of Agriculture, on H.R. 5744, H.R. 5960, and 
                               H.R. 6089

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
regarding these bills. This is a difficult time for all of us. Wildland 
fires have disrupted lives and impacted lands across the West, and 
there is great interest, urgency and willingness to help provide tools 
for the Forest Service to apply restoration principles. We appreciate 
this interest and want to work with you to provide the best possible 
approaches to address these issues. Unfortunately, because of the short 
notice for this hearing, we have not had an opportunity to thoroughly 
analyze the bills before us, and thus, our testimony today will be 
general in nature. We will continue to work with Congress and others 
that have advanced proposals, such as in the bills we are discussing 
today as well as the House and Senate versions of the Farm Bill.
    We recognize our collective ability to sustain the nation's forests 
and provide ecosystem services is increasingly at risk. Drought, 
invasive species, loss of open space, uncharacteristically severe 
wildfires, uncharacteristically severe outbreaks of insects and 
disease--all these stresses and disturbances are affecting America's 
forests on an unprecedented scale, with 60-80 million acres at risk.
    Before I address the three bills, let me tell you about some of the 
initiatives we are implementing to increase restoration.
    The Forest Service has initiated an Accelerated Restoration program 
to restore the functions and processes characteristic of healthy, 
resilient ecosystems on as many acres as possible. Our goal is to 
sustain and restore ecosystems that can deliver all the benefits that 
Americans want and need. The Forest Service recognizes that increasing 
the pace and scale of restoration and active management of the National 
Forests is critically needed to address threats to the resiliency of 
our forests and watersheds and the health and safety of America's 
forest-dependent communities.
    The Forest Service also recognizes the need for a strong forest 
industry to help accomplish forest restoration work. A vibrant industry 
can provide both the resources and the know-how to undertake mechanical 
treatments and other restoration activities. Forest industry also 
lowers the cost of restoration to the taxpayer by providing markets for 
forest products.
    The Forest Service is committed to increasing the current total of 
acres being mechanically treated by 20% over the next three years. This 
increase would allow the Forest Service to increase the number of acres 
and watersheds restored across the system, while supporting jobs and 
increasing the amount of forest products sold. A critical part of this 
effort is building public support for forest restoration and management 
activities. To this end, the Forest Service continues to emphasize the 
importance of collaboration among diverse stakeholders in developing 
restoration projects on national forest lands. Such collaboration not 
only results in better projects, but it also reduces the risks of 
litigation.
    An additional benefit of this restoration work is job creation. For 
example, through implementation of the Collaborative Forest Landscape 
Restoration Program (including the use of stewardship contracts), the 
proponents of projects on national forest lands anticipate creating or 
maintaining 1,550 jobs. The benefits of maintaining a robust forest 
industry flows not only to local communities but also to the Forest 
Service itself as the agency relies on local forest contractors and 
mills to provide the work force to undertake a variety of restoration 
activities. A study by Cassandra Moseley and Max Nielson-Pincus, 
Institute for Sustainable Development, has shown that every one million 
dollars spent on activities such as stream restoration or road 
decommissioning generates from 12 to 28 jobs. In addition, restoring 
the health and resilience of our forests generates important amenity 
values. Healthy, resilient forests and grasslands are magnets for 
outdoor recreation, with more than 170 million visits per year to the 
National Forest System. That in turn leads to jobs and economic 
opportunity.
    The Forest Service continues to work toward restoring more land to 
accomplish restoration objectives, maintain a robust forest industry, 
and in turn create jobs. We are striving to efficiently implement 
existing programs and policies, as well as pursuing a number of new 
policies and initiatives to increase the pace of forest restoration and 
conservation through collaboration and management of the national 
forests. The aim of these efforts is to move beyond the conflicts which 
have characterized forest policy in the past and toward a shared vision 
that allows forest industry, environmentalists, local communities, and 
other stakeholders to work collaboratively toward healthier forests and 
watersheds, safer communities and more vibrant local economies.
    Within the framework of the overall restoration program, the Forest 
Service is focused on the role of active forest management--including 
hazardous fuels reduction, reforestation, stream restoration, road 
decommissioning, forest thinning and harvesting, prescribed fire, and a 
range of other practices--as important tools to accomplish needed 
restoration work. The following are a series of actions that will allow 
the Agency to further restoration and management on the national 
forests:
Investing in restoration projects with partners through the 
        Collaborative Forest Landscape Restoration Program (CFLRP).
    In fiscal year 2012, the Forest Service received the full $40 
million authorized by the CFLR Act. The Secretary funded 10 new 
projects, in addition to the continued funding for 10 projects selected 
in 2010. Three additional high priority collaborative projects were 
also funded from other appropriated FS funding. These 23 projects have 
demonstrated that collaboration among stakeholders can facilitate 
large, landscape scale restoration, thereby improving forest health, 
reducing wildfire risk, restoring fire-adapted ecosystems, and 
increasing timber and biomass production from our national forests.
    The U.S. Forest Service reduced fire threats on more than 123,000 
acres of land under the Collaborative Forest Landscape Restoration 
Program nationwide in fiscal year 2011 as part of a larger effort to 
improve the health and resiliency of national forests.
    In its second year of funding, the Collaborative Forest Landscape 
Restoration Program also contributed $21 million to local economies 
through treatments that included prescribed burns and fuels thinning, 
producing 121 million board feet of lumber and 267,000 tons of woody 
biomass for bio-energy production on ten projects around the country.
    On three National Forests throughout Colorado, CFLR projects have 
reduced fire threats over 14,000 acres using mechanical thinning and 
prescribed fire. The Deschutes has reduced 29,000 tons of woody biomass 
and made available 8 million board feet of lumber.
    The CFLR project in California on the Sierra National Forest has 
reduced hazardous fuels on 8,000 acres of Wildland Urban Interface 
lands while at the same time yielding nearly 8 million board feet of 
lumber. The Four Forest Restoration Project in Arizona has improved 
forest vegetation, restored habitat on 111,000 acres and begun major 
rehabilitation work on areas affected by the Wallow and Schultz fires.
National Cohesive Wildland Fire Management Strategy (Cohesive Strategy)
    The Federal Land Assistance, Management, and Enhancement (FLAME) 
Act of 2009 charged the Secretaries of Agriculture and Interior to 
create a cohesive wildfire management strategy. Federal Land Managers 
responded by working through the Wildland Fire Leadership Council to 
direct the development of the Cohesive Strategy. The nation's wildland 
fire problems do not stop at administrative boundaries; the Cohesive 
Strategy is a collaborative process with active involvement of all 
levels of government and non-governmental organizations, as well as the 
public, to seek national, all-lands solutions to wildland fire 
management issues. It is being built both from the top down and from 
the bottom up, and is science based. The Cohesive Strategy addresses 
the nation's wildfire problems by focusing on three key areas: 1) 
Restore and Maintain Landscapes, 2) Fire Adapted Communities, and 3) 
Response to Fire.
    The Cohesive Strategy is now moving into Phase III, which includes 
a trade-off analysis of national risk. We expect to garner a better 
understanding of how the Forest Service can play a larger role in 
restoring and maintaining fire-adapted ecosystems and landscapes within 
an all-lands context. This understanding should help focus and support 
efforts I've already described under the umbrella of Accelerated 
Restoration and the Collaborative Forest Landscape Restoration 
Programs.
The Forest Service Bark Beetle Strategy.
    Bark beetles have impacted nearly 18 million acres of NFS lands. 
The Bark Beetle Strategy, developed in 2011, focuses management efforts 
on priority treatment areas to ensure human health and safety and to 
reduce hazardous fuel conditions. In FY 2011, a total of approximately 
16,822 acres were treated to reduce safety hazards to forest visitors, 
50,145 were reforested, and 236,962 acres were thinned to improve 
resilience producing approximately 303.3 million board feet of timber 
sold, 153,801 green tons of biomass, and resulting in removal of hazard 
trees along 978 miles of road.
Use of Stewardship Contracting.
    This tool allows the Forest Service to acquire needed restoration 
services. Reauthorizing this authority and expanding the use of this 
tool is crucial to our ability to collaboratively restore landscapes at 
a reduced cost to the government by offsetting the value of the 
services received with the value of forest products removed pursuant to 
a single contract or agreement. In Fiscal Year 2011, 19% of all timber 
volume sold was under a stewardship contract and funded activities such 
as watershed and wildlife habitat improvement projects, trails 
projects, road decommissioning, and hazardous fuels reduction. 208 
contracts were awarded in 2011, treating 189,000 acres of hazardous 
fuels.
Improved efficiency of the National Environmental Policy Act (NEPA) 
        process for restoration.
    A robust, comprehensive and efficient Forest Planning/NEPA program 
is needed to accomplish the hundreds of thousands of acres of natural 
resource projects we do across the country each year. We continuously 
strive to save time and money in this program while meeting our 
statutory and regulatory obligations. In addition to the recently 
promulgated Forest Planning rule, the Agency has also initiated a NEPA 
learning networks project to learn from and share the lessons of 
successful implementation of efficient NEPA analyses. The goal of this 
effort is to ensure that the Agency's NEPA compliance is as efficient, 
cost-effective, and up-to-date as possible. Specifically we are looking 
at expanding the use of focused environmental assessment (EAs), 
iterative environmental impact statement (EISs) documentation, 
expanding categories of actions that may be excluded from documentation 
in an EA or an EIS, and applying an adaptive management framework to 
NEPA. Our landscape-scale NEPA projects will also increase 
efficiencies. For example, our Mountain Pine Beetle Response Project on 
the Black Hills National Forest in South Dakota is implementing a 
landscape-scale adaptive approach for treating future pine beetle 
outbreaks. We are also implementing the Four Forest Restoration 
Initiative project in the Southwest which is a very large, four forest 
landscape-scale restoration project.
The Good Neighbor Authority
    The Good Neighbor Authority was first authorized in 2000, 
responding to increased concern regarding densely stocked stands at 
risk from insect and wildland fires. The law authorized the U.S. Forest 
Service to permit the Colorado State Forest Service to conduct certain 
watershed restoration activities on National Forest Service land when 
conducting similar activities on adjacent state or private land. In 
2004 Utah and BLM received Good Neighbor authority. Federal and state 
officials who have used Good Neighbor authority cited project 
efficiencies and enhanced federal-state cooperation as its key 
benefits. The Department would like to see this authority expanded and 
reauthorized.
The Bills
    Our preliminary review of the three bills today before the 
Committee will be discussed next.
    While the Department opposes H.R. 5744 and H.R. 6089 as drafted, 
there are elements that we support and we would like to continue to 
work with the Subcommittee in developing bill language that will meet 
our forest restoration objectives. The Administration can support H.R. 
5960 but would like to have further discussion on some of its elements. 
We support the reauthorization of Good Neighbor and Stewardship 
Contracting Authority.
    H.R. 5744, the Catastrophic Wildfire Prevention Act of 2012, was 
introduced to address the forest health, public safety, and wildlife 
habitat threat presented by the risk of wildfire, including 
catastrophic wildfire, on National Forest System lands and public lands 
managed by the Bureau of Land Management by requiring the Secretary of 
Agriculture and the Secretary of the Interior to expedite forest 
management projects relating to hazardous fuels reduction, forest 
health, forest and watershed restoration, and threatened and endangered 
species habitat protection. The Administration agrees with the intent 
of the bill. However, we have significant concerns with some of the 
provisions and would like to further analyze and discuss several 
aspects, including provisions that modify the public comment and 
environmental analysis under National Forest Policy Act (NEPA), grazing 
utilization standard waivers, and timeframes for public petitions. In 
particular, we oppose the NEPA provisions in the bill because we do not 
believe 30 days will allow for adequate environmental review of most 
projects. It is also important to apply utilization standards for 
livestock grazing to wildfire prevention projects so that soil and 
vegetative cover is maintained.
    H.R. 5960, the Depleting Risk from Insect Infestation, Soil 
Erosion, and Catastrophic Fire Act of 2012, was introduced to amend the 
Healthy Forests Restoration Act of 2003 (HFRA) to improve the response 
to insect infestations and related diseases and to make the Stewardship 
Contracting authority permanent and to extend Good Neighbor authority 
to western states. The bill authorizes the Secretary, in consultation 
with the Governor, to designate in each State one or more sub-
watersheds that are experiencing an insect or disease epidemic, and to 
carry out priority projects to reduce the risk or extent of, or 
increase the resilience to, insect or disease infestation. The projects 
may be carried out under the HFRA provisions, including those providing 
for expedited environmental analysis, pre-decisional review, and 
judicial review. We agree that it would be helpful to make tree 
mortality due to insect or disease eligible treatment using the HFRA 
provisions, but would like to further analyze and discuss several 
aspects including timeframes for eligible projects, proactive 
approaches, and large and old-growth tree retention. We support the 
extension of stewardship contracting. However, we would like to see 
stewardship contracting authority made permanent. The Department 
supports extending Good Neighbor Authority, but would like to further 
analyze differences between H.R. 5960 and current authority in 
Colorado, where we have had significant success.
    H.R. 6089, the Healthy Forest Management Act of 2012, was 
introduced to address the bark beetle epidemic, drought, deteriorating 
forest health conditions, and high risk of wildfire on National Forest 
System land and land under the jurisdiction of the Bureau of Land 
Management by expanding authorities established in the Healthy Forest 
Restoration Act of 2003, to make permanent Forest Service and Bureau of 
Land Management authority to carry out Good Neighbor authority with 
States, and to extend the Stewardship Contracting Authority. The Forest 
Service supports reauthorization of the Stewardship Contracting 
Authority and Good Neighbor authority. We do not support provisions in 
the bill that authorize the Governors to designate high risk areas on 
National Forest System lands and to provide for development of 
emergency fuels reduction projects in the areas. We would like to 
discuss further several topics, including projects in inventoried 
roadless areas, timeframes, and the criteria for projects.
    In summary, the Forest Service would like to thank you for the 
opportunity to testify on these pieces of legislation. We continue an 
increased pace of restoration and job creation on our National Forest 
System lands. As wildland fires have impacted lands across the West, we 
recognize the interest, urgency and willingness of many Members of 
Congress to provide tools for the Forest Service to apply restoration 
principles. Be assured that our resources are directed at the 
suppression of these fires as well as efforts to provide emergency 
stabilization of burned lands, and fuels reduction projects.
                                 ______
                                 
    Mr. Bishop. Mr. Roberson from the Department of the 
Interior, same drill.

    STATEMENT OF ED ROBERSON, ASSISTANT DIRECTOR, RENEWABLE 
    RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Roberson. Thank you, Mr. Chairman and Ranking Member, 
for inviting me and the Bureau of Land Management to testify 
this morning. The Department of the Interior and our cohesive 
wildland fire strategy, management strategy, is working toward 
maintaining resistant landscapes, creating fire-adapted 
communities, and managing wildfire response in a complex 
environment.
    An agency of the Department of the Interior, the Bureau of 
Land Management, is committed to sustaining the health, 
diversity and productivity of the forest and woodlands, which 
together comprise 58 million acres of the public lands which we 
manage for the American people.
    The mounting effects of insect infestation, disease 
outbreaks, prolonged drought, climate change, invasions of 
harmful nonnative species, and the accumulation of fuels 
generate increased risk of catastrophic losses, including risk 
to life and property that may result from wildfire.
    The BLM works with its partners across landownership to 
protect lives and property, wildfire habitat and other 
resources from wildfire. Toward this goal the BLM last year 
treated 400,000 acres for hazardous fuel.
    Guiding all of the BLM's management actions, including 
forestry and fuels management, is the agency's land-use 
planning process. The BLM uses an open public land-use planning 
process to include public input and to analyze the effects of 
proposed actions. We value this process and the information it 
provides for us.
    Two of the tools that we have used effectively in our fuels 
management program are stewardship contracting and the Good 
Neighbor authority. To date the BLM has successfully used 
stewardship contracting in over 100,000 acres, reducing 
hazardous fuels, restoring habitat, protecting communities from 
wildland fire. The BLM has used the Good Neighbor authority in 
Colorado to partner with the State and gain some efficiencies 
in achieving restoration goals there.
    With regard to Congressman Gosar's bill, H.R. 5744, it 
requires the BLM to implement authorized wildfire prevention 
projects, which are defined to include timber harvest and 
livestock grazing, under a reduced level of public comment and 
environmental analysis. The bill would allow timber harvesting 
in wilderness study areas and would impose strict timelines for 
public review and analysis. It deems a project as NEPA 
compliant if timelines are not met.
    The bill also requires fire and fuel research prior to 
Endangered Species Act listings, critical habitat 
determinations and recovery plans. The Department is committed 
to using hazardous fuels reduction treatments to maintain 
resilient landscapes and protect life and property from 
wildfire. However, we do not believe that H.R. 5744 will help 
achieve the goal of mitigating the risk of wildfire damage.
    The bill will curtail the use of some of BLM's most 
valuable assessments and analysis. The bill's strict timelines 
for public review and environmental analysis, coupled with the 
fact that the legislation deems the project NEPA compliant if 
we don't meet the timeline, would not enable sufficient 
analysis. Therefore, the Department opposes the bill's 
wilderness study area provision and the provisions that change 
ESA.
    With regard to H.R. 5960, Congressman Markey's bill, it 
amends the Healthy Forest Restoration Act to provide for 
enhanced restoration work and research, and it authorizes 
stewardship contracting and Good Neighbor authority. BLM 
supports the authorization stewardship contracting and the 
expansion of Good Neighbor authority in this legislation. These 
authorities will enable BLM to better achieve land and forest 
health goals in cooperation with our partners. The Department 
supports H.R. 5960 and would appreciate the opportunity to work 
with the sponsor and the Committee on certain technical 
improvements. We defer to the Forest Service on those portions 
of the bill that relate solely to the national forests.
    With regard to H.R. 6089, Congressman Tipton's bill, it 
authorizes a State Governor or a secretary to designate areas 
of public lands as high risk of current and future damage. For 
areas designated as high risk, the bill requires BLM to 
implement projects in those areas under a reduced environmental 
analysis. The bill also extends stewardship contracting in Good 
Neighbor authority.
    The Department opposes H.R. 6089, the definition of high-
risk areas outside of the normal planning process, particularly 
by Governors without consultation with other Federal land 
managers; prevents public involvement, environmental analysis 
and making those designations. And further, the timeframes for 
designating these areas and implementing proposed projects is 
not sufficient for our analysis of those decisions.
    Under the bill the Secretary----
    Mr. Bishop. Mr. Roberson, please. Thank you.
    [The prepared statement of Mr. Roberson follows:]

 Statement of Ed Roberson, Assistant Director, Renewable Resources and 
 Planning, Bureau of Land Management, U.S. Department of the Interior, 
    on H.R. 5744, Catastrophic Wildfire Prevention Act; H.R. 5960, 
Depleting Risk from Insect Infestation, Soil Erosion, and Catastrophic 
        Fire Act; and H.R. 6089, Healthy Forests Management Act

Introduction
    Thank you for the opportunity to testify on H.R. 5744, the 
Catastrophic Wildfire Prevention Act; H.R. 5960, the Depleting Risk 
from Insect Infestation, Soil Erosion, and Catastrophic Fire Act; and 
H.R. 6089, the Healthy Forests Management Act. All of these bills 
attempt to reduce the risk of catastrophic damages resulting from 
wildland fire by defining new forest and fuels treatments policies on 
public lands managed by the Bureau of Land Management (BLM) and on 
National Forest System lands managed by the U.S. Forest Service. The 
Department of the Interior supports the goals of enhancing restoration 
for public forests and rangelands and mitigating the risks of wildland 
fire by working more effectively with our partners, and therefore 
supports H.R. 5960. However, the BLM cannot support measures that 
expedite restoration treatments, as well as commercial grazing and 
timber harvest, at the expense of the environmental review and public 
involvement in federal actions. As such, the Department opposes H.R. 
5744 and H.R. 6089.
Background
    The BLM is committed to sustaining the health, diversity, and 
productivity of forests and woodlands, which together comprise 58 
million acres of public lands managed by the BLM. The mounting effects 
of insect infestations, disease outbreaks, prolonged drought, climate 
change, invasions of harmful non-native species, and the accumulation 
of fuels generate increased risks of catastrophic losses, including 
risks to life and property that may result from wildfire. These 
increasing pressures, coupled with increasing demands for uses of the 
public lands, may also result in the loss of natural and cultural 
resources, loss of wildlife habitat, and loss of recreational 
opportunities on the public lands.
    Guiding all of the BLM's management actions--including forestry and 
fuels management--is the agency's land use planning process. This is an 
open, public process in which the agency's proposals for managing 
particular resources are made known to the public in advance of taking 
action. The BLM's plans are reviewed and analyzed by members of the 
public and stakeholders, including state, tribal, and local agencies, 
and the BLM must address all comments on agency proposals and make its 
responses available to the public.
    Similarly, the BLM is committed to providing the full environmental 
review, including analysis of alternatives, and public involvement 
opportunities required by the National Environmental Policy Act (NEPA) 
for all agency proposals for BLM-managed lands. NEPA emphasizes public 
involvement to give all Americans a role in protecting our environment. 
America's economic health and prosperity are inexorably linked to the 
productive and sustainable use of our natural resources. The NEPA 
process remains a vital tool as we work to protect our Nation's 
environment and revitalize our economy.
Fire
    The Department, through the Office of Wildland Fire, coordinates 
fire prevention, mitigation, and response both within the Department 
and with external federal and non-federal partners. The National 
Cohesive Wildland Fire Management Strategy is an unprecedented 
collaborative planning and risk analysis that builds on successes of 
the past while incorporating a new collaborative approach to restoring 
and maintaining resilient landscapes, creating fire adapted 
communities, and managing wildfire response in a complex environment. 
The Department's approach to hazardous fuels reduction is integrated 
and coordinated across vegetation types, types of insect infestation 
and disease, and land ownership. The Department employs an integrated, 
multi-agency approach to wildland fire management, and looks forward to 
working with the Committee to ensure the objectives of legislation are 
achieved in an integrated manner.
Forest Restoration
    The Healthy Forests Restoration Act of 2003 (HFRA) provides an 
authority for hazardous fuels treatments and other forest and rangeland 
restoration treatments. In 2011, the BLM conducted over 400,000 acres 
of restoration and hazardous fuels reduction treatments, including 
thinning, salvage, and prescribed burns. The mountain pine beetle 
epidemic is estimated by the BLM to affect forests on up to 1.3 million 
acres of BLM-managed public lands, changing the character and 
increasing the complexity of the restoration treatments that the BLM 
applies. The BLM takes seriously its responsibilities for protecting 
people, property, and resources from wildland fire, and uses a 
proactive approach to treat hazardous fuels.
    Because the factors that cause increasing hazardous fuel loads 
cross jurisdictional boundaries, the BLM has increasingly adopted a 
landscape approach to resource conservation and hazardous fuel 
treatment. The BLM routinely works with partner agencies, 
organizations, and landowners to engage in land and watershed 
restoration and hazardous fuels reduction activities on federal, state, 
and private lands.
Stewardship Contracting
    Stewardship contracting authority, established for the BLM in the 
FY 2003 Omnibus Appropriations Act, allows the BLM to award contracts 
for fuels treatment and removal, for a period of up to ten years, and 
to use the value of timber or other forest products removed as an 
offset against the cost of services received. The BLM has enjoyed many 
successes in using stewardship contracting authority, accomplishing 
goals for hazardous fuels reduction, habitat restoration, jobs and 
revenue growth for local communities, and protection of local 
communities from wildland fire. From 2005 through 2011, the BLM offered 
411 stewardship contracts on 101,238 acres of BLM-managed lands. The 
BLM's future strategy for stewardship projects includes increasing the 
size and duration of these projects.
Good Neighbor Authority
    Currently, the BLM is authorized through a pilot authority to enter 
into Good Neighbor agreements and contracts with the Colorado State 
Forestry Division to perform watershed restoration and protection 
services on BLM lands in the State of Colorado when similar and 
complementary work is being performed on adjacent state lands. This 
authority has been extended until September 30, 2013. All Good Neighbor 
projects must comply with applicable environmental laws and 
regulations, including the appropriate level of environmental review 
under NEPA, and must be consistent with the applicable land use plans. 
BLM field units are encouraged to use the Good Neighbor Authority as a 
tool to achieve resource work identified through the regular land use 
planning processes.
H.R. 5744
    H.R. 5744 requires the implementation of authorized wildfire 
prevention projects in forests and in threatened and endangered species 
habitat, and defines livestock grazing and timber harvesting and 
thinning as appropriate project tools to reduce fuel loads. The bill 
provides for a reduced period of public comment and environmental 
analysis for such projects, and establishes expedited administrative 
and judicial review. In addition, the bill requires research on the 
effects of a potential Endangered Species Act (ESA) listing on fuel 
loads, forage and timber. The Department of the Interior opposes H.R. 
5744, because it limits public involvement in the land use planning and 
environmental analysis processes and because of the modifications it 
makes to the ESA.
Analysis
    The goal of H.R. 5744 is to mitigate the risk of catastrophic 
damages from wildfire. However, the Department does not believe that 
H.R. 5744 will help achieve the mitigation efforts as the bill does not 
reflect BLM's most current methods for conducting assessments and 
determining management practices. It curtails the BLM's ability to use 
its public land use planning process to inform decision-making. The BLM 
uses science-based tools for assessing conditions, establishing 
utilization standards, and analyzing alternatives, and values both its 
ability to conduct science-based analyses and the input it receives 
from the public on the agency's proposed actions for managing 
particular resources. Further, the scope of the bill is unclear--
language throughout is limited to forest systems, although the bill 
appears intended to apply to woodlands and rangelands as well.
    H.R. 5744 allows fuels reduction projects, including timber 
harvest, in Wilderness Study Areas (WSAs). The BLM opposes this 
provision. The BLM has developed a non-impairment criterion to meet the 
requirements in the Federal Land Policy and Management Act (FLPMA) that 
WSAs not have their suitability for wilderness designation impaired. 
H.R. 5744, if enacted, could result in the loss of suitability for 
wilderness designation in WSAs that the BLM has managed for non-
impairment since FLPMA was enacted.
    The bill imposes strict deadlines for public review and 
environmental analysis and ``deems'' a project NEPA compliant if the 
agency does not meet the deadlines. The bill restricts environmental 
analysis for projects including livestock grazing and timber harvest 
that are authorized under the bill to Environmental Assessments, 
limiting the BLM's ability to perform analyses and use them to inform 
its decisions. The 30-day deadline for public comment, 60-day deadline 
for response to public petitions for designation, and 60-day deadline 
for project decisions is insufficient for full public participation, 
complete environmental analysis, and would not permit the examination 
of and response to all comments received during the public comment 
period.
    For authorized wildfire prevention projects the bill deems an 
Environmental Assessment (EA) for a livestock grazing project to be 
sufficient for at least 10 years, while an EA for a timber harvest 
project is deemed sufficient for at least 20 years. These time frames 
limit the BLM's ability to determine the appropriate scope of their 
NEPA analyses and would undermine the integrity of those analyses. 
These time frames also may be interpreted to restrict the BLM's ability 
to be responsive to changes in resource conditions and significant new 
circumstances and information, as required by FLPMA and NEPA. The bill 
also eliminates the alternatives analysis, which lies at the heart of 
NEPA and is beneficial in informing agency decisions. The BLM gains 
important information about public and stakeholder perspectives and 
performs important analyses during its NEPA process. The BLM opposes 
provisions limiting public participation through the land use planning 
and NEPA analysis processes.
    The Department strongly believes that forest health and related 
management practices are consistent with threatened and endangered 
species conservation. The Department is committed to working with land 
managers to ensure robust forest health management practices are in 
place. The Department has a longstanding position of acknowledging the 
importance of forest health management practices on species 
conservation, such as actions that limit forest fuel loads. However, 
the requirements in H.R. 5744 (Sec. 7) for additional research and 
assessments for ESA listings, critical habitat determinations, and 
recovery plans are unnecessary and would create an undue burden, and 
therefore the Department opposes this provision.
H.R. 5960
    H.R. 5960 amends the Healthy Forests Restoration Act (HFRA) to 
provide for enhanced restoration work in priority watersheds and 
enhanced authority to perform cooperative restoration projects on 
public lands managed by the BLM and on National Forest System lands 
managed by the U.S. Forest Service. The bill adds mountain pine beetle 
infestations as areas eligible for applied silvicultural assessments 
under HFRA; directs the Secretary of Agriculture to designate insect 
and disease treatment and research pilot areas; and changes the funding 
source for the Healthy Forests Reserve Program. The bill authorizes 
stewardship contracting; establishes the Good Neighbor Authority; and 
modifies the Emergency Watershed Rehabilitation Program.
    The majority of the bill's provisions apply to lands and programs 
managed by the U.S. Forest Service; the Department of the Interior 
defers to the U.S. Department of Agriculture on provisions that apply 
exclusively to lands and programs under its management. As to 
provisions that impact public lands under its management, the 
Department of the Interior supports H.R. 5960 as outlined below. The 
BLM would also appreciate the opportunity to work with the sponsor and 
the committee on certain technical improvements to the bill.
Analysis
    H.R. 5960 amends HFRA to add the mountain pine beetle to HFRA's 
list of insect infestations eligible for treatments and to add a new 
section (Sec. 405) authorizing the designation of insect and disease 
treatment and research pilot program areas. This beetle is one of 
several insect species of concern to BLM's forest management program; 
however, this section of the legislation is currently written to apply 
only to National Forests. The BLM would welcome the opportunity to work 
with the sponsor on technical changes that would include BLM-managed 
lands in the identification of pilot priority treatment areas.
    H.R. 5960 permanently authorizes stewardship contracting to achieve 
land management goals. The BLM supports stewardship contracting 
authority, as it provides the BLM with needed flexibility to work with 
contractors to achieve the agency's land and forest health goals, and 
saves taxpayer resources because the value of forest products removed 
are used to offset the cost of the management action. However, the BLM 
would like to work with the sponsor on clarifying language to ensure 
the BLM is included in the intended authorities, that the Secretary of 
the Interior, as well as the Secretary of Agriculture is authorized to 
enter into contracts, and to address the full breadth of work included 
in the treatment types listed.
    Finally, H.R. 5960 expands the Good Neighbor Authority, enabling 
the use of contracts and agreements between the Secretary of the 
Interior or Secretary of Agriculture and state Governors to perform 
authorized restoration work on federal land where similar work is being 
performed on adjacent state land. Building on successful implementation 
in Colorado, where the BLM's pilot authority enabled managers to 
achieve efficiencies, savings, and enhanced treatment effectiveness, 
H.R. 5960 authorizes the BLM to use this cross-boundary management tool 
on BLM-managed lands throughout the west. The authority provided by the 
bill is discretionary; each BLM office could determine on a case-by-
case basis whether or not the Good Neighbor authority is a desirable 
option. All Good Neighbor projects would be undertaken in conformance 
with land use plans and comply with NEPA, if applicable. The BLM 
supports this authority and would like to work with the sponsor and the 
committee on technical improvements to restoration language.
H.R. 6089
    H.R. 6089 declares the bark beetle epidemic, drought, and 
deteriorating forest health conditions on National Forest System lands 
and public lands to be an ``imminent threat'' and empowers the 
Governors of states, in addition to the Secretaries of Agriculture and 
of the Interior, to designate ``high-risk'' areas on these federal 
lands, and to propose and require the appropriate Secretary to 
implement emergency hazardous fuels reduction projects (defined to 
include non-clearcut timber harvests) within designated ``high-risk'' 
areas. The bill applies several HFRA authorities--reduced environmental 
analysis, special administrative review, and reduced judicial review--
to the emergency hazardous fuels reduction projects as defined in H.R. 
5960. The bill expands Good Neighbor Authority and Stewardship 
Contracting Authority. The Department of the Interior supports Good 
Neighbor Authority and Stewardship Contracting, and is committed to 
protecting lives, public land resources, and property from wildland 
fire. However, the Department opposes H.R. 6089 because it restricts 
opportunities for public review and environmental analysis, and because 
it enables state Governors to direct federal resource management 
actions on federal lands.
Analysis
    The bill's definition and designation of ``high-risk'' areas is 
exceedingly broad. With no limitations on the size, location, or 
present condition of such designations, the bill provides nearly 
unlimited authority for state Governors or the Secretary to establish a 
new designation without review, analysis, or public input. The bill 
requires Governors to consult with county governments and affected 
Indian tribes, but does not require consultation with the land-managing 
agency. Additionally, the inclusion of a future risk of insect 
infestation or disease (in addition to deteriorating forest health 
conditions) as a criteria for ``high-risk'' area designation makes the 
designation meaningless, as virtually all public lands with forests or 
vegetation are potentially at future risk of insect infestation or 
disease. The BLM opposes allowing state Governors (or the Secretaries) 
to designate management treatments outside of the land use planning 
process--which provides for public notification, public involvement, 
the input of stakeholders, consideration of sound science, and the 
analysis of alternative management options to inform federal agency 
land and resource management decisions.
    The bill requires that initial ``high-risk'' areas be designated 
within 60 days of enactment of the Act. This short time frame would not 
provide the BLM sufficient time to analyze the effects of designations 
or consider input from the public, including ranchers, recreationists, 
and property owners. All of these uses would potentially be affected by 
the designation of an area as ``high-risk,'' yet the bill's strict 
deadlines limit opportunities for those who use public lands to make 
their concerns known. The bill provides that ``high-risk'' areas will 
be designated for 20 years. This long time period fails to provide 
opportunities to adjust course during the 20 year period to respond to 
new circumstances or information, emerging threats, or to unanticipated 
impacts or changes in resource conditions. For example, the current 
mountain pine beetle outbreak had not even been detected 20 years ago.
    Of serious concern, the bill requires the Secretaries to implement 
within 60 days projects proposed by a state Governor (or Secretary) for 
``high-risk'' public lands. Requiring immediate implementation of 
projects, without consideration or analysis of impacts or public input, 
prevents an open, public process and precludes environmental analysis. 
The authority provided to Governors in this provision presents 
additional concerns, essentially shifting the authority for resource 
management decisions and activities on federal lands to individual 
state Governors. By merely designating an area of the public lands as 
``high-risk'', under H.R. 6089, an individual state Governor can 
require BLM to manage federal lands and resources to meet the 
Governor's objectives, without regard to national objectives, 
interests, or a fair return to the American people. Under the bill, 
such required projects would place a serious burden on available agency 
funding and resources, impacting the BLM's ability to implement other 
BLM priorities, which include conventional and renewable energy 
development, leasing and permitting activities, and existing priority 
restoration work.
    Finally, the bill excludes designated Wilderness and National 
Monuments from designation as ``high-risk'' areas. However, many other 
BLM lands include resources protected by federal law, including 
National Conservation Areas, National Scenic and Historic Trails, 
National Wild and Scenic Rivers, and Wilderness Study Areas. State 
Governors choosing to designate such areas as high risk areas would 
limit the BLM's ability to comply with its obligations to protect such 
resources under federal law. For example, under federal law (P.L. 105-
83), the BLM has particular obligations to preserve and protect forest 
in the Headwaters Forest Reserve in California. State designation of 
this area as a ``high-risk'' area would decrease the BLM's ability to 
manage for resources protected by federal law.
Conclusion
    Thank you for the opportunity to testify about H.R. 5744, H.R. 
5960, and H.R. 6089. I would be glad to answer any questions.
                                 ______
                                 
    Mr. Bishop. Commissioner Gibbs, 5 minutes. And I am going 
to impose that deadline very strictly. Let's go.

        STATEMENT OF THE HON. DAN GIBBS, COMMISSIONER, 
                    SUMMIT COUNTY, COLORADO

    Mr. Gibbs. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and all the members of the Committee. My name is Dan 
Gibbs. I am a county commissioner from Summit County, Colorado, 
former State senator, as well as a wildland firefighter.
    Summit County is experiencing major forest health concerns. 
Over the last 10 years, I have witnessed the transformation of 
our forests in the county resulting in 146,000 acres of dead 
trees, which were killed by the mountain pine beetle epidemic. 
As a result we now have a major challenge to respond to these 
conditions.
    I appreciate that Congress enacted the Healthy Forest 
Restoration Act, known as HFRA, which has helped expedite the 
Forest Restoration Act; however, there is much more that can be 
done. As can be seen from the Hayman fire that destroyed 133 
homes and cost $40 million in suppression costs in 2002 and 
many like it, the cost of suppressed fires vastly exceeds the 
cost to treat forests.
    In Summit County, over 80 percent of which is national 
forestland, 146,000 acres of dead trees that are near 
communities need to be thinned. The challenge is finding the 
resources for projects and work within existing legal and 
regulatory systems. In Summit County we have treated 3,800 
acres in the wildland-urban interface. Currently under HFRA an 
additional 13,200 acres of treatment projects have been 
approved for future work; however, we still have tens of 
thousands of acres that need urgent treatment within the 
wildland-urban interface. As a result Summit County has had to 
find additional resources.
    In 2008, Summit County voters passed a measure which 
authorizes a property tax levy for wildfire protection and the 
removal of bark beetle-killed trees, which could generate up to 
500,000 per year. In 2012, the county was able to apply 
$300,000 from this funding source for 12 projects on 140 acres 
on private land within the wildland-urban interface.
    In addition, the Colorado Forest Restoration Act, a bill 
which I passed, established a grant program that made available 
$1 million annually from State revenue for local fire 
mitigation and watershed protection. These funds are available 
for needs statewide, and grant applications far exceed the 
needs. The town of Dillon located within Summit County was a 
recipient of some of these grants that were used to treat 
forested areas along Straight Creek, a major drinking water 
supply for the town. The town was rightly concerned that a fire 
in this area would greatly impact its watershed. These grant 
funds were used to treat just 64 acres.
    So along with HFRA, the county's tax levy and a statewide 
grant program, we have been able to get needed projects done. 
But again, we still have thousands of acres to address in areas 
like Straight Creek and near homes. That is why we are 
interested in what additional assistance Congress can provide, 
and the bills that are before this Committee today have 
provisions that would help in this regard.
    Generally speaking, the projects I have mentioned would be 
enhanced by these provisions. Let me highlight these concepts. 
First, we need more funding, plain and simple. The task of 
removing hazard and fire-prone trees is daunting, and State and 
local communities can only make a dent in this effort. I 
understand that the bills you are considering in this Committee 
are not primarily about funding, but urge you to make this a 
priority.
    Second, designating the areas in our national forests that 
are impacted by insect and disease would allow the Forest 
Service to focus attention on resources in this area. We would 
welcome designated areas as emergency or critical needs in 
applying the streamlined HFRA provisions to these areas, and 
appreciate being consulted in the designation process.
    Third, we strongly support the Good Neighbor authority, 
which allows State foresters to perform essential treatment 
work on Federal lands, and urge Congress to reauthorize this 
program, and make it permanent and extend it to all States.
    Fourth, we support permanently authorizing stewardship 
contracting. The stewardship contracting mechanism helps make 
the projects more economical for entities to bid on them, 
especially in partnerships with private contractors. These 
provisions would provide tangible and important assistance to 
reduce the emergency threat of large-scale wildfires and help 
promote a healthier, more sustainable forest. We need the 
assistance of these policies to augment our State and local 
efforts.
    In conclusion, we have undertaken vigorous efforts to 
mitigate the threat with limited resources through a number of 
unique collaborations between State and local government, 
private industry and landowners. Still we are not able to 
address the infestation accurately without further assistance. 
We urge the bill sponsors to come up with a single bill that 
includes these concepts through negotiated compromise, 
resulting in a bill that could garner wide support and get 
passed and signed into law. The dire condition of our forests, 
the threat to our communities and resources, especially water, 
and the extreme drain on the Federal Treasury due to 
suppressing ever-increasing wildfires demands that Congress 
come together for our Nation's well-being.
    Thank you.
    Mr. Bishop. Thank you, Commissioner. I appreciate that.
    [The prepared statement of Mr. Gibbs follows:]

          Statement of The Honorable Dan Gibbs, Commissioner, 
                        Summit County, Colorado

    Thank you Chairman Bishop, Ranking Member Grijalva, members of the 
committee. It is a great honor to come before you today. My name is Dan 
Gibbs, I'm a County Commissioner from Summit County Colorado.
    This Committee has had the benefit of hearing from the U.S. Forest 
Service and the U.S. Bureau of Land Management to paint the larger 
picture regarding the condition of our forests and the corresponding 
fire threats arising from those conditions.
    As a former Colorado state legislator who sponsored many state 
forest health and fire response legislation--many of which were adopted 
into law--and as a current Summit County Commissioner--a county that is 
experiencing major forest health concerns--as well as a certified 
wildland fire fighter, I wanted to focus my remarks on the local and 
state concerns related to forest health and how Congress can help.
    Over the last ten years, I've witnessed a transformation of our 
forest in the county that I live in and represent as well as the 
counties that I represented while serving as a Colorado State Senator. 
In Grand County, which is just north of Summit County and which gives 
rise to the headwaters of the Colorado River--a source of water and 
life for major cities and many western states--most of the lodgepole 
pine trees are dead. In Summit County alone, we have 146,000 acres of 
dead trees and about half of all of the pine trees are dead. These 
trees were killed by the mountain pine beetle epidemic that has been 
raging through Colorado and Wyoming forests.
    As a result, we now have a major challenge to respond to these 
conditions and help the communities in places like Summit County and 
throughout the west address forest health and increased fire threats.
    I appreciate that Congress has provided some assistance--primarily 
through the passage of the Healthy Forest Restoration Act (HFRA) in 
2003. This law, which came as a response to major fires that occurred 
throughout the west in 2002 including the Hayman Fire in Colorado, 
which burned 138,000 acres, destroyed 133 homes, and resulted in $40 
million in suppression costs, has helped expedite forest restoration 
efforts. However, there is much more that can be done.
    As can be seen from the Hayman Fire example--and many like it--the 
costs to suppress fires vastly outpaces the costs to treat forests to 
make them less prone to major fires. Although the Healthy Forest 
Restoration Act has been helpful in this regard, we need to expand upon 
it so that we can perform more treatment work and thus reduce the costs 
associated with suppression.
    That is why I appreciate the legislation that is the subject of 
today's hearing. Before I turn to these bills, I want to take this 
opportunity to provide the local perspective on addressing these forest 
health issues and the challenges and obligations we face in light of 
limited federal resources and authorities.
    In Summit County, which is composed of over 80% national forest 
land, the portions of 146,000 acres of dead trees that are near 
communities need to be thinned or removed, or they will continue to 
present fire risks and threats to people when they eventually fall 
down. Some of this threat exists near homes and other important assets, 
such as watersheds and power lines. The challenge is in finding the 
resources to develop projects to thin and remove these trees, and to 
work within the existing legal and regulatory systems before we can go 
in and do the work.
    As I mentioned, Summit County has benefitted from HFRA. In working 
with the U.S. Forest Service, we have treated 3,800 acres of dead trees 
in the wildland/urban interface. These projects did not occur until 
2007, four years after its passage, but we were pleased that they were 
conducted. Currently, under HFRA, we have an additional 13,200 acres of 
treatment projects approved for future work under HFRA. However, we 
still have tens of thousands of acres that need urgent treatment in the 
wildland/urban interface. In short, although HFRA has helped a great 
deal, our needs in Summit County alone vastly outpace the assistance 
that this law provides.
    As a result, Summit County has had to take matters into its own 
hands and find ways to secure additional assistance.
    As an example, in 2008, Summit County voters passed a measure, 
called 1-A, which authorizes a property tax levy for wildfire 
protection and the removal of bark beetle-killed trees, among other 
purposes, which could generate up to $500,000 per year. In 2010, the 
County was able to apply $300,000 from this funding source for 12 
forest treatment projects on about 140 acres of private land in the 
wildland/urban interface. And to be able to treat these acres, we 
collected nearly 50% of private contributions. As you tell by these 
dollar amounts required to treat just 140 acres, the costs to do this 
needed work are significant.
    In addition, as state legislator, I sponsored and passed the 
Colorado Forest Restoration Act that established grant program that 
made available $1 million annually from state revenue for local forest 
treatment projects, wildfire mitigation and watershed protection. These 
grants required a local match of 40% with state funding at 60%. These 
funds are available for needs statewide, and grant applications far 
exceed the needs.
    Summit County, and individual communities in the County, was the 
recipient of some of these grants. One of these grants, for the Town of 
Dillon, was used to treat the forested area along Straight Creek, a 
major drinking water supply for the town. The town was rightly 
concerned that a fire in this area would greatly impact its watershed, 
much like the Hayman Fire impacted a watershed for Denver water users. 
These grant funds were used to treat 64 acres.
    To make this project a success, there were many partners that 
played an important role including Denver Water, Xcel Energy, The 
Greenlands Reserve, Colorado the Town of Dillon, the U.S. Forest 
Service, the Department of Transportation and much of the ground work 
was contracted using the Rocky Mountain Youth Corps, an organization 
whose mission is to engage youth in the outdoors, inspiring them to use 
their strengths and potential to lead healthy, productive lives.
    So, along with HFRA, the County's tax levy, and the statewide grant 
program, we have been able to get needed projects done. But, again, we 
still have tens of thousands of acres to address in areas like Straight 
Creek and near homes.
    That is why we in Summit County and forested regions throughout 
Colorado are interested in what more assistance Congress can provide--
not only in terms of funding for the development of treatment projects, 
but also to improve of the process to approve projects. And the bills 
that are before the Committee today have provisions that would help in 
this regard and in fact some of the concepts within them we have been 
promoting for many years here in Colorado.
    Generally speaking, the projects that I have mentioned would be 
enhanced by these concepts, and in fact would help focus attention on 
the areas of the forest that are our highest priorities for treatment 
work and would help stretch scarce resources.
    Let me highlight these concepts, again, concepts that appear in 
various forms in the separate bills that you are considering today.
    First, we need more funding. Plain and simple. The task for 
removing hazardous and fire-prone trees is daunting and the state and 
local communities can only make a dent in this effort given the funding 
limitations they have to operate within. I understand that the bills 
you are considering in the Committee are not primarily about funding, 
but urge you to make this a priority. The more funding we can provide 
to the agencies to perform and implement treatments, the less we have 
to spend at the backend when the trees go up in flames or blow down on 
to trails, campgrounds and power lines.
    Second, although we have benefitted by the HFRA provisions here in 
Summit County and especially applying HFRA to areas in our County that 
are within the wildland/urban interface, designating areas on our 
national forests that are impacted by insects, disease and poor forest 
health conditions would allow the Forest Service to focus attention and 
resources in these areas. In other words, we would welcome the concept 
of designating areas as ``emergency'' or ``critical needs'' and 
applying the streamlined HFRA provisions to these areas would help be 
of great benefit and help authorize projects where they are most needed 
and effective. We appreciate being consulted on the designation of 
these areas, but they are essentially the areas that are hardest hit 
and are where if treatments are not performed in an expedited manner, 
we run the risk of serious damage from wildfire.
    Third, although we in Summit County have not had the benefit of a 
program called the ``Good Neighbor Authority,'' which allows state 
foresters to perform essential treatment work on federal lands when 
similar work is being performed on non-federal lands, we believe that 
this program has a lot of merit and can help make the treatments on no-
federal land be that much more effective. We are aware that some of the 
counties that surround Summit County have done some projects under the 
Good Neighbor program and they have been worthwhile. So, we urge 
Congress to reauthorize this program, make it permanent and extend it 
to all states.
    Fourth, we would support permanently reauthorizing ``stewardship 
contracting.'' As the trees and other woody biomass that needs to be 
removed to reduce fire threats and improve the health of our forests 
typically are not valuable for other economic uses, the stewardship 
contracting mechanism has allowed many projects so go forward on a 
good-for-services basis. This means the projects are economical and 
make sense for entities to bid on them, especially in partnership with 
the private contractors. In essence, these are good example of public/
private partnerships, and thereby can stretch limited resources and get 
more projects underway and completed.
    These provisions would provide tangible and important assistance to 
reduce the emergency threat of large-scale wildfires and help promote a 
healthier, more sustainable forest. We in Colorado, like many other 
western states, are doing our part at the state and local level to 
help. But we need the assistance of this bill to augment these efforts 
and make them effective.
CONCLUSION
    Colorado has been doing our part in this crisis, and we stand ready 
to do more. We have undertaken vigorous efforts to mitigate the threat 
with limited resources through a number of unique collaborations 
between state and local government and private industry. Still, we are 
not able to address the infestation adequately without further help 
that we are hoping Congress can provide. We recognize that some of the 
provisions in the various bills before you today may draw opposition 
from various interests. We would hope that you work through these and 
eventually pass a package that will garner wide support and will be in 
keeping with the general concepts that I have highlighted.
    NOTE: Photographs submitted for the record have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Bishop. Mr. Romm, you are recognized for 5 minutes.

        STATEMENT OF JOSEPH ROMM, PH.D., SENIOR FELLOW, 
            CENTER FOR AMERICAN PROGRESS ACTION FUND

    Dr. Romm. Mr. Chairman, members of the Committee, thank you 
for inviting me to testify. I am a physicist, former Acting 
Assistant Secretary of Energy, and climate expert who runs the 
blog Climate Progress.
    Four score and 7 years ago, our grandfathers and 
grandmothers were enjoying life in the ``Roaring '20s.'' Now, 
imagine that you are in Congress back then, and imagine that 
the Nation's leading scientists are warning that human activity 
and years of bad land management practices have left our 
topsoil vulnerable to the forces of the wind, and that the next 
time a major drought hits, much of our farmland will turn to 
dust, dust in the wind. You would take action.
    Over the past two decades, the Nation's leading scientists 
have issued stronger and stronger warnings that human activity, 
burning fossil fuels and deforestation will lead to longer and 
stronger droughts that dry out topsoil and timber, creating the 
conditions ripe for multiple multi-decade Dust Bowls and 
wildfires. In fact, we are already topping Dust Bowl 
temperatures in many places, and the Earth has warmed only 
about 1 degree Fahrenheit since the 1930s Dust Bowl. Yet we are 
poised to warm some 10 degrees Fahrenheit this century alone if 
we stay on our current path of unrestricted carbon pollution 
emissions. I repeat, several studies now project the world may 
warm 10 degrees Fahrenheit this century if we don't act, and 
that is the average warming of the globe. Much of our country 
would see far higher temperatures. The recent heat wave would 
be considered a pleasantly cool summer.
    Another study looked at mid-century warming of just 2 
degrees Fahrenheit. It found that wildfire damage in many of 
your home States--Utah, Colorado, Idaho, South Dakota, Nevada 
and Washington--would double, triple, even quadruple from 
current levels. Imagine how big the government would have to be 
to deal with the rampant wildfires and with the Dust Bowl 
choking the breadbasket of the world; a lot bigger government 
than today for sure.
    So, of course, this great deliberative body is debating 
various bills to avoid this catastrophe by slashing carbon 
pollution, except it isn't. We are here discussing bills aimed 
at fuels treatment, a euphemism for cutting down trees and 
controlled burns. Ignoring carbon pollution and focusing solely 
on fuels treatment to address the epidemic of bark beetles, the 
epidemic of drought, the epidemic of wildfires is like 
rearranging deck chairs on the Titanic, or, more precisely, it 
is like burning some of the deck chairs and removing some of 
the umbrellas on the Titanic; same outcome, more time wasted.
    As I explained in the journal Nature last year, what we are 
discussing here today is the single most important question 
facing the Nation: Can we prevent the extreme drought and 
wildfires ravaging the country today from becoming the new 
normal? But the real question, and I am addressing myself to 
the members of the majority now, is how you want to be 
remembered. Do you want to be remembered as a Herbert Hoover, 
who sat by and did nothing in the face of obvious calamity, or 
as an Abraham Lincoln, who took every measure to save the 
Union?
    Lincoln said at Gettysburg, the world will little note nor 
long remember what we say here, but it can never forget what 
they did here. That, of course, wasn't true of his speech. But 
after testifying to Congress nearly a dozen times since 1995, 
when I was Principal Deputy Assistant Secretary of Energy, I am 
quite convinced that nobody remembers what we say here, and, in 
the case of these bills, everyone will forget what you did 
here.
    Are you Neville Chamberlain, or would you be Winston 
Churchill, who worked tirelessly to warn and prepare Britain 
for what was coming, and told the House of Commons in 1936 the 
era of procrastination, of half measures, of soothing, and 
baffling expedience, of delays is coming to its close. In its 
place, we are entering a period of consequences.
    The consequences are here now, just as climate scientists 
predicted. If we fail to take action, many scientists predict 
ruin for large parts of this country, ruin for large parts of 
your districts, ruin that lasts 50 generations. Americans have 
fought for generations to defend government of the people, by 
the people and for the people. In the hour of crisis, we need 
that government to do its job. Now is that hour.
    Thank you very much.
    Mr. Bishop. Thank you.
    [The prepared statement of Dr. Romm follows:]

  Statement of Joseph Romm, Ph.D., Senior Fellow, Center For American 
     Progress Action Fund, on H.R. 5744, H.R. 5960, and H.R. 6089.

    Thank you Chairman Bishop, Ranking Member Grijalva, and members of 
the Committee. I am delighted to appear before you today to discuss the 
single most important issue facing the nation--whether or not we can we 
prevent the extreme drought and wildfires ravaging the country today 
from becoming the normal weather for the nation.
    My name is Dr. Joseph Romm. I am a Senior Fellow at the Center for 
American Progress Action Fund, a tax exempt organization dedicated to 
improving the lives of Americans by transforming progressive values and 
ideas into policy. I am also the Founder and Editor of Climate 
Progress, CAPAF's acclaimed climate and energy blog. I earned a Ph.D. 
in physics from the Massachusetts Institute of Technology.
    From 1993 to 1995, I was special assistant for policy and planning 
to the Deputy Secretary of Energy. I served as Principal Deputy 
Assistant Secretary and then Acting Assistant Secretary at DOE's Office 
of Energy Efficiency and Renewable Energy from 1995 to 1998. I have 
written 7 books and dozens of articles on global warming and climate 
solutions, including Hell and High Water and ``The Next Dust Bowl,'' 
published in the journal Nature in October 2011, from which some of 
this testimony is derived and where references may be found. I first 
testified in front of the House of Representatives on energy issues in 
1995.
    My testimony will provide analysis and data and analysis to support 
3 key points:
        1.  Climate scientists have long predicted that drought and 
        wildfires would become more frequent and more intense because 
        of human-generated carbon pollution that leads to climate 
        change.
        2.  The current droughts and wildfires we are now seeing--and 
        the bark beetle infestation that may have exacerbated some of 
        the fires--have clearly been made far more likely and far worse 
        by climate change according to many climatologists.
        3.  If we stay anywhere near our current carbon pollution path, 
        much of the Midwest and Great Plains will be subject to near-
        permanent and irreversible conditions worse than the 1930s Dust 
        Bowl by shortly after midcentury. Large parts of the south 
        would be uninhabitable by 2100.
    Wildfires are most frequent and most intense during extended 
droughts and heat waves, which creates kindling in the form of very dry 
trees and grasses. A basic prediction of climate science is that many 
parts of the world will experience longer and deeper droughts and heat 
waves, thanks to the synergistic effects of drying earth, warming 
atmosphere and melting glaciers. Precipitation patterns are expected to 
shift, expanding the size of the dry subtropics, which would make much 
of the southwest more arid.
    Warming causes more evaporation of surface and subsurface moisture. 
Where it is dry, the sun's energy goes into baking soils. That's why 
the United States set so many temperature records during the 1930s Dust 
Bowl. And it's why, in the summer of 2011, drought-stricken Texas and 
Oklahoma experienced the hottest summer temperatures ever recorded for 
a state, beating the previous record holder, 1934 Oklahoma, by more 
than 1+ Fahrenheit.
    Also, many regions were predicted to see experience earlier 
snowmelt, so less water is stored on mountaintops for the summer dry 
season. These factors increasingly add to natural variability, such as 
the El Nino-La Nina cycle, greatly intensifying seasonal or decade-long 
droughts.
    Some refer to the confluence of these processes as desertification, 
but these areas will not have the high biodiversity that characterizes 
many deserts. ``Dust-Bowlification'' is perhaps a more accurate and 
vivid term, particularly since many Americans still believe climate 
change will only affect far-away places in far-distant times. Prolonged 
drought will have dramatic international impacts, but it is surprising 
to many to see it hitting the American heartland so hard so soon.
    The coming droughts ought to be a major driver--if not the major 
driver--of federal policy. Yet few policymakers and journalists are 
focusing on the looming Dust-Bowlification and its potentially 
devastating impact on food security and our economy. That's partly 
understandable, since much of the key research post-dates the 2007 
Fourth Assessment by Nobel Laureate Intergovernmental Panel on Climate 
Change (IPCC). Raising public awareness of, and scientific focus on, 
the likelihood of severe impacts is the first step in prompting action.
    This concern isn't new. As far back as 1990, scientists at NASA's 
Goddard Institute of Space Studies warned that severe to extreme 
drought in the United States, then happening every 20 years, could 
become an every-other-year phenomenon by mid-century. Climatologist 
Jonathan Overpeck detailed the risks in a 2005 talk, pointing to the 
emerging evidence that temperature and annual precipitation were headed 
in opposite directions over many regions. He and raised the question of 
whether we are at the ``dawn of the super-interglacial drought.
    Events have begun to bear these worries out. More than two decades 
ago scientists forecasted snowpack reduction, earlier snowmelt, and 
reduction of dry season river flow in the American. Now there is 
measurable data demonstrating their occurrence. In much of the northern 
Rocky, Sierra Nevada, and Cascade Mountain ranges, the peak of the 
annual stream runoff is as much as 3 or 4 weeks earlier than it was a 
half century ago. Heat and drought have also made these areas more 
hospitable to invasive, such as the bark beetle, increase tree/forest/
fauna/vegetation die-offs and wildfire risk. Climatologists studying a 
huge 3-million-acre die-off of vegetation in the Southwest in 2002-2003 
warned that it ``may be a harbinger'' of things to come.
    The wildfire season is now a month longer. As the New York Times 
reported, U.S. Forest Service Chief Tom Tidwell testified before the 
U.S. Senate last year that:
        ``Throughout the country, we're seeing longer fire seasons, and 
        we're seeing snowpacks that, on average, are disappearing a 
        little earlier every spring,'' he said, as well as devastating 
        droughts. As a result, fire seasons have lengthened by more 
        than 30 days, on average. ``Our scientists believe this is due 
        to a change in climate,'' said Tidwell.
    The paleoclimate record dating back to the medieval period reveals 
droughts lasting many decades. But the extreme droughts the United 
States faces this century will be far hotter than the worst of those: 
The driest decade of the worst drought in the past 1,200 years wasn't 
as warm as recent decades.
    Projections call for far warmer conditions ahead. Warming over mid-
latitude land masses, like the United States, is projected to be 
considerably higher than the forecasted average global warming. Much of 
the inland United States faces warming of 9+F to 15+F based on our 
current carbon pollution path (i.e. `business as usual') by century's 
end, with much of that warming occurring by midcentury.
    A 2007 article in the journal Science that examined 19 climate 
projections estimated that levels of aridity comparable to the 1930s 
Dust Bowl could stretch from Kansas to California by mid-century. To 
make matters worse, the areas in threat of reduced water supplies have 
also seen a massive population boom. The top 10 fastest-growing states 
include Nevada, Colorado, Texas, Arizona, and Utah. Also, water over-
use in such areas has long been rife, depleting groundwater supplies.
    It is not just our country that faces these issues. Since 1950, the 
global percentage of dry areas has increased by about 1.74 percent of 
global land area per decade. Recent climate studies have projected 
`extreme drought' conditions by midcentury over some of the most 
populated areas on Earth--southern Europe, Southeast Asia, Brazil, the 
U.S. Southwest, and large parts of Australia and Africa. This can be 
seen in the following map by Aiguo Dai of the National Center for 
Atmospheric Research, from his 2010 study.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In the Great Plains during the Dust Bowl, the Palmer Drought 
Severity (PDSI) spiked very briefly to -6, but otherwise rarely 
exceeded -3 for the decade. Dai found that:
        ``By the end of the century, many populated areas, including 
        parts of the United States and much of the Mediterranean and 
        Africa, could face readings in the range of -4 to -10. Such 
        decadal averages would be almost unprecedented.''
    These Dust Bowl-like drought conditions are projected to worsen for 
many decades and be ``largely irreversible for 1000 years after 
emissions stopped,'' according to a major 2009 study led by researchers 
at the The National Oceanic and Atmospheric Administration (NOAA).
    The most pressing question is what will happen to our food security 
if Dust Bowl conditions become the norm for both food-importing poorer 
countries and food-exporting richer countries, including the United 
States? Extreme, widespread droughts will occur at the same time as sea 
level rise brings salt-water deep into some of the world's richest 
agricultural deltas, such as the Nile and Ganges. Meanwhile, ocean 
acidification, warming and overfishing may severely deplete the 
availability of seafood.
    What are the implications for the global carbon cycle? Increased 
wildfires release carbon stored in forests and soils, creating an 
amplifying feedback that further warms the planet--a vicious circle 
that leads to yet more wildfires.
    Adaptation to offset or minimize the worst impacts of prolonged, 
extreme drought conditions is difficult or impossible. Historically, 
the primary `adaptation' for Dust-Bowlification is human abandonment of 
afflicted areas. The very word ``desert'' comes from the Latin desertum 
for ``an abandoned place''. This occurred eighty years ago when 
hundreds of thousands of families fled during the relatively short-
lived U.S. Dust Bowl of the 1930s. Experts predict huge mass migration 
due to drought and famine from global warming, particularly in Africa. 
This could initiate a humanitarian aid crisis of epic proportions, a 
scenario many retired generals and admirals fear because our military 
would be part of the responses, and such instability would threaten our 
national security.
    We must plan for how the nation and the world will deal with 
steadily growing regions of non-arable land right in the heart of 
populated countries and global bread-baskets. We must plan for these 
drought-spurred migrations--globally and here at home. As the above map 
shows, much of northern Mexico is projected to become a Dust Bowl too.
    The inexorable conclusion is that feeding the world's 9 billion 
people by mid-century in the face of a rapidly warming climate with 
extreme droughts may well be the greatest challenge the human race has 
ever faced.
    Moreover, these predictions are not worst-case scenarios: They rely 
on business as usual estimates of future carbon pollution. We can hope 
the models are too pessimistic, but some changes, like expansion of the 
subtropics, already appear to be occurring faster than the models 
projected. It is clear we need to pursue the most aggressive carbon-
pollution mitigation policies promptly, and put warming-driven Dust-
Bowlification atop the national agenda.
    Again this is not a new or sudden prediction. In fact, a decade ago 
climate scientists around the world were figuring out the same thing--
we are speeding toward a climate cliff with our foot on the 
accelerator. I summed up some of their research back in six years ago:
        Since the 1970s, the number of ``very dry areas'' on the 
        planet, as defined by the widely used Palmer Drought Severity 
        Index, has more than doubled, to about 30 percent of the global 
        land. As a major study by the National Center for Atmospheric 
        Research concluded, ``These results provide observational 
        evidence for the increasing risk of droughts as anthropogenic 
        [human caused] global warming progresses and produces both 
        increased temperatures and increased drying.''

        Not surprisingly, but rarely reported in context, wildfires 
        have been on the rise worldwide for half a century. Every 
        decade since the 1950s has seen an increase in major wildfires 
        in the United States and around the world.

        Large parts of the country have been getting hotter and drier, 
        and suffering extended droughts. . . .

        Not only do drought and high temperatures increase the number 
        of wildfires, they also lead to a greater range of pests that 
        feast on trees whose defenses have been weakened by heat and 
        lack of water. Trees from the Southwest up to Alaska are dying 
        by the millions.

        A 2005 study led by the University of Arizona, with the Los 
        Alamos National Laboratory and the U.S. Geological Survey, 
        examined a huge 3-million-acre die-off of vegetation in 2002-
        2003 ``in response to drought and associated bark beetle 
        infestations'' in the Four Corners area (Arizona, New Mexico, 
        Colorado, and Utah). This drought was not quite as severe as 
        the one that region experienced in the 1950s, but it was much 
        warmer, hence it fit the global-warming model. The recent 
        drought had ``nearly complete tree mortality across many size 
        and age classes,'' whereas ``most of the patchy mortality in 
        the 1950s was associated with trees [more than] 100 years 
        old.''

        Most of this tree death was caused by bark beetle infestation, 
        and ``such outbreaks are tightly tied to drought-induced water 
        stress.'' Healthy trees defend themselves by drowning the tiny 
        pine beetles in resin. Without water, weakened, parched trees 
        are easy meals for bugs.

        ``We're seeing changes in [mountain pine beetle] activity from 
        Canada to Mexico,'' said Forest Service researcher Jesse Logan 
        in July 2004, ``and the common thing is warming temperatures.'' 
        According to the Department of Forest Resource Management at 
        the University of British Columbia, the beetle infestation has 
        spread to higher and more northern regions thanks in large part 
        to climate change. And milder winters since 1994 have reduced 
        the winter death rate of beetle larvae in Wyoming from 80 
        percent per year to under 10 percent.

        In a February 2006 speech on climate change, Senator Lisa 
        Murkowski of Alaska pointed out that the tremendous recent 
        warming had opened the door to the ``voracious spruce bark 
        beetle,'' which devastated more than 3 million acres in Alaska, 
        ``providing dry fuel for outbreaks of enormous wild fires.'' 
        Half of the wildfires in the record-breaking 2005 season were 
        in Alaska.
    And as the members know, the bark beetle has continued to spread 
throughout the West, devastating trees in states like Montana and 
Colorado. That's because climate change favors invasive species.
    In 2009, in a detail report on the impacts of climate change on 
this country, the U.S. Global Change Research Program said:
        Wildfires in the United States are already increasing due to 
        warming. In the West, there has been a nearly fourfold increase 
        in large wildfires in recent decades, with greater fire 
        frequency, longer fire durations, and longer wildfire seasons. 
        This increase is strongly associated with increased spring and 
        summer temperatures and earlier spring snowmelt, which have 
        caused drying of soils and vegetation.
    Here's the grim projection from a presentation made by the 
President's science adviser Dr. John Holdren in Oslo in 2010:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    We can barely manage the wildfires we have today. How exactly 
would much of the West ``manage'' a 4-fold to 6-fold increase in 
wildfires? And that's just from a 1.8+F increase in temperatures. 
Again, we could see 5 times that this century.
    As Tom Kenworthy, longtime environmental reporter and now Senior 
Fellow at American Progress, reported this month on Climate Progress, 
wildfires have multiple causes:
        It's impossible to link any one particular fire or weather 
        event to climate change. In the case of fires in the West, 
        there are other factors as well: more people living in fire-
        prone areas in and near forests and unnaturally crowded forests 
        brought on in large part by decades of misguided efforts to 
        battle and suppress nearly all fires.

        But federal scientists and officials whose responsibilities 
        include management of the vast national forest system in the 
        West are increasingly saying flat out that there is an 
        undeniable link between wildfires and climate change.

        The Agriculture Department official who oversees the U.S. 
        Forest Service, Under Secretary Harris Sherman, noted recently 
        that 10 states have had record fires in the past decade. ``The 
        climate is changing,'' Sherman told The Washington Post, ``and 
        these fires are a very strong indicator of that.''

        ``There's enough data that show fires are very clearly linked 
        to warming,'' U.S. Geological Society Research Ecologist Craig 
        Allen recently told a symposium sponsored by the Aspen Center 
        for Environmental Studies. ``Fire season's about two months 
        longer than it used to be.''
    The longer season is just the start. The National Interagency Fire 
Center in Boise, Idaho, reported that the wildfires are becoming more 
destructive--the total acreage burned has skyrocketed in recent 
decades:
        During the four decades of the 1960s through the 1990s, the 
        annual acreage burned by wildfire averaged 3 million acres. 
        Between 2000 and 2009 the average year saw 7 million acres 
        burn.

        Between 1960 and 1995 there were just five years where the 
        acreage burned exceeded 5 million. Between 1996 and 2011, 11 of 
        the 16 years exceeded 5 million acres burned, including 8 of 
        the past 10 years.

        As of early July, fires have burned about 2.4 million acres, 
        according to the National Interagency Fire Center. And the 
        outlook for the rest of the summer and early fall is not rosy, 
        the center reports. Much of the West--from northern Arizona and 
        northern New Mexico to southern Montana, across Nevada, and 
        into parts of California--will have above-normal fire potential 
        through the remainder of July. From August to October large 
        swaths of Wyoming, Montana, Idaho, Utah, Nevada, and California 
        will have above-average fire potential due to drought, fuel 
        conditions, and El Nino, which causes sea temperatures to rise.

        Various federal initiatives since the 1990s have sought to 
        address the questions surrounding forest fuel loads and how to 
        better manage them to moderate the wildfire threat, either by 
        reintroducing fire, by thinning crowded forest stands using 
        logging tools, or a combination of both methods. The results 
        are questionable at best.
    A recent Congressional Research Service paper on wildfire 
protection reviewed the science on whether such interventions work and 
concluded:
        The presumption is that lower fuel loads and a lack of fuel 
        ladders [underbrush and small trees that carry fire into the 
        tops of larger trees] will reduce the extent of wildfires, the 
        damages they cause, and the cost of controlling them. Numerous 
        on-the-ground examples support this belief. However, little 
        empirical research has documented this presumption. As noted in 
        one research study, ``scant information exists on fuel 
        treatment efficacy for reducing wildfire severity.''
    Kenworthy discusses the efficacy of fuel treatment--thinning dense 
forests and using prescribed burns to eliminate surface fuels:
        Despite that research ambiguity, fire years such as the current 
        one almost always spur calls for large-scale efforts to thin 
        overgrown forests and return them to a more natural condition, 
        particularly in what is called the ``wildland-urban 
        interface.'' That awkward phrase is sometimes defined as 
        ``where combustible homes meet combustible vegetation.''

        Sherman, speaking to the recent Aspen conference, said that, 
        ``We need to move forward with landscape-scale restoration. Too 
        often we have conservation projects where we're working on a 
        hundred acres here or a hundred acres there. We need to move 
        into an entirely new and expanded scope of work.''

        That demand for larger restoration is partly driven by the 
        extraordinary costs of fighting fires. Between fiscal year 2000 
        and fiscal year 2010, fire suppression appropriations by 
        Congress rose from less than $300 million to nearly $1.4 
        billion, according to a 2011 Congressional Research Service 
        paper on federal funding of wildfire activities. At the same 
        time federal spending on fuel reduction rose from $117 million 
        in fiscal 2000 to $400 million the next year and has largely 
        remained in the $400-million-to-$500-million range since.

        The cost of an ambitious forest restoration effort would be 
        huge. In a 1999 report the U.S. General Accounting Office (now 
        the Government Accountability Office) estimated it would cost 
        $12 billion to treat the 39 million Forest Service acres at the 
        time thought to be at high risk of catastrophic wildfire. Since 
        then the Forest Service has raised its acreage estimate to 51 
        million acres, and the estimate of a $300-per-acre treatment 
        cost has probably become obsolete. Further, the original 
        estimate did not include other federal lands beyond Forest 
        Service areas.
    The Congressional Research Service paper on wildfire protection 
noted, ``If a comprehensive program were undertaken to reduce fuels on 
all high-risk and moderate-risk federal lands, using GAO's treatment 
cost rate of $300 per acre, the total cost would come to $69 billion.''
    The CRS reported noted ``There is a final, significant question. 
Would it work?'' They concluded
        Reducing fuel loads might reduce acreage burned and the 
        severity and damages of the wildfires that occur. Research is 
        needed. . .to examine whether the cost of fuel reduction is 
        justified by the lower fire risk and damage. However, it should 
        also be recognized that. . .as long as there is biomass for 
        burning, especially under severe weather conditions (drought 
        and high wind), catastrophic wildfires will occasionally occur, 
        with the attendant damages to resources, destruction of nearby 
        homes, other economic and social impacts, and potential loss of 
        life.
    Kenworthy concluded his analysis:
        In a warming world we can expect those things will happen more 
        often and with greater intensity, as we are seeing this summer. 
        The bottom line is that climate change is a major cause of 
        these fires, and climate solutions should become part of the 
        effort to tame them.
    All three pieces of legislation today seek to address the wildfire 
and insect issue by accelerating and increasing forest thinning. The 
scientific support of fuels treatment as a wildland fire mitigation 
strategy is spotty at best. As the subcommittee considers legislation, 
I urge you to ensure that federal agencies maintain the flexibility to 
undertake projects based on the best scientific information available. 
As you know, new studies come out daily and can inform best management 
practices. I am concerned that H.R. 5744 sponsored by Congressman Gosar 
and H.R. 6089 sponsored by Congressman Tipton mandate the 
implementation of projects and lock in a certain management approach 
for 10 to 20 years. Congressman Markey's legislation, H.R. 5960 allows 
a more scientifically based approach to addressing the insect issue by 
providing for accelerated consideration of project but on a pilot 
basis.
    The bottom line is that the climate is changing just as the climate 
scientists have predicted for decades. Dr. Overpeck told the AP this 
month,
        ``This is what global warming looks like at the regional or 
        personal level. The extra heat increases the odds of worse heat 
        waves, droughts, storms and wildfire. This is certainly what I 
        and many other climate scientists have been warning about.''
    Now scientists are warning that if we fail to act quickly to 
curtail greenhouse gas emissions we may destroy the breadbasket of the 
world and may render large parts of the United States--including many 
of the districts you represent--all but uninhabitable, possibly for 
centuries. Will we finally make the carbon pollution reductions 
essential to reduce the worst impacts of climate change, or will 
Congress keep ignoring the warnings about the fires yet to come?
                                 ______
                                 
    Mr. Bishop. Commissioner Jankovsky from Garfield County, 
welcome. Five minutes, please.

      STATEMENT OF THE HON. TOM JANKOVSKY, COMMISSIONER, 
                   GARFIELD COUNTY, COLORADO

    Mr. Jankovsky. I am Tom Jankovsky, Garfield County 
Commissioner, Garfield County, Colorado. I have also worked in 
the ski industry for 40 years. I am the general manager of 
Sunlight Mountain Resort, which is a local ski area in Glenwood 
Springs, Colorado. And those 40 years have been in the forest 
of Colorado.
    I have traveled here to speak in support of H.R. 6089. This 
bill addresses the deteriorating health of Colorado forests, 
has the strategy to improve safety and strengthen stewardship 
of the forests, and provides benefits for our local 
communities.
    First of all, the health of our forests is at risk. Forests 
are deteriorating. Colorado forests are extremely dense because 
of what I believe is misguided management practices. Currently 
30 percent of our--or currently our forests are 80 to 100 
percent canopy, which a healthy forest has a 30 percent canopy. 
Also the bark beetle epidemic has deteriorated our evergreen 
forests, and drought conditions have impacted our aspen 
forests.
    The Nation has watched the recent tragedies in Colorado at 
the Wallow Canyon and Hyde Park fires. The dollar amount that I 
saw in the Denver Post yesterday was $450 million in private 
property loss, as well as loss of lives.
    Current Federal regulations fail to recognize the 
importance of our forests regarding water conservation, water 
supply, wildlife habitat, recreation, economic benefit, and 
multiple uses and environmental health. H.R. 6089 improves the 
safety and strengthens stewardships. This bill extends 
stewardship beyond the current Healthy Forest Restoration Act. 
It has a 20-year life. It gives us the ability to expedite and 
improve hazardous fuel reduction. It also gives us the ability 
to manage and restore our forests.
    This bill empowers the Governor of the State and local 
communities to designate and cooperate with Federal land 
managers to develop emergency hazardous fuel-reduction 
projects. It also gives a benefit to our Federal land managers, 
another tool for them to work with our local communities.
    The bill supports an emerging forest restoration industry. 
We are starting to see an industry which provides tools and 
manpower for forest restoration. And through this bill, we are 
seeing an increase from our natural resources for lumber mills, 
log furniture making, firewood sales, biomass energy and wood 
pallets. And so this bill, although it doesn't say that 
directly, does provide some economic impacts as well to our 
communities.
    H.R. 6089 allows for creating funding as well, private-
public partnerships to reduce hazardous fuel mitigation.
    Also I would just like to--Federal land managers know the 
high risk around our areas. I mentioned this earlier. But it 
gives them another tool in working with local communities to 
address those risks.
    One thing that is not in the bill, but I would like to talk 
about, I think it is very important that we continue to educate 
the public on defensible space. We have a lot of communities 
and homeowners, homeowner associations that are up into the 
forests. Right now in Colorado citizens can be reimbursed up to 
50 percent for the costs for improvements of the defensible 
space.
    Local doctrine regarding public land use is extremely 
important for us. Nearly 70 percent of our lands in Garfield 
County, Colorado, are owned by the Federal Government. It 
really helps for us to have the ability to talk to and be 
empowered to work with the Federal Government.
    And indeed, the vitality and the strength of the Western 
United States is closely tied to the health of our public 
lands. And for those reasons Garfield County, Colorado, 
supports H.R. 6089.
    Thank you.
    Mr. Bishop. Thank you. I appreciate that.
    [The prepared statement of Mr. Jankovsky follows:]

Statement of The Honorable Tom Jankovsky, County Commissioner, Garfield 
   County, Colorado, on H.R. 6089, Healthy Forest Management Act 2012

        1.  Good morning, Chairman, and Members of the Committee.
        2.  I am Tom Jankovsky
                <bullet>  County Commissioner, Garfield County, 
                Colorado
                <bullet>  General Manager, Sunlight Mountain Resort
                <bullet>  I have spent 40 years working with the forest 
                industry--15 in operations, 25 in management and 
                administration, planning, and strategy
        3.  Have traveled to speak in person, and support H.R. 6089 for 
        three reasons. The bill:
                <bullet>  Addresses the deteriorating health of 
                Colorado forests
                <bullet>  Improves safety and strengthens stewardship.
                <bullet>  Provides benefits to the local community.
        4.  First, the health of Colorado forests is deteriorating.
                <bullet>  Colorado forests are extremely dense because 
                of misguided management practices. The current 
                management plan is to let our forests grow wild and to 
                do nothing.
                <bullet>  A healthy forest has 30% canopy. Our forests 
                currently have 80-100%.
                <bullet>  These conditions and others create a high 
                risk to communities from fast moving wildfires that 
                threaten life and property.
                <bullet>  The Nation watched the recent tragedies in 
                Colorado at Waldo Canyon, High Park, and elsewhere, the 
                most devastating and costly wildfires in state history. 
                Lives were lost, hundreds of homes burned to the 
                ground.
                <bullet>  Also, the bark beetle epidemic has 
                deteriorated our evergreen forests, and drought 
                conditions have impacted our Aspen forests.
                <bullet>  Current federal regulations fail to recognize 
                the importance of our forests regarding water 
                conservation, water supply, wildlife habitat, 
                recreation, economic benefit, multiple uses, and 
                environmental health.
        5.  Next, HR6089 improves safety and strengthens stewardship
                <bullet>  The Bill extends stewardship beyond that of 
                the current Healthy Forest Restoration Act for an 
                additional 20 years.
                <bullet>  That existing legislation primarily deals 
                with forest management and forest restoration in the 
                wilderness
                <bullet>  In contrast, the Healthy Forest Management 
                Act takes management and restoration beyond the forest 
                and wild land urban interface and into our communities. 
                This Bill will create a healthy forest with less risk 
                to urban areas.
                <bullet>  With passage of the Bill, we will be able to 
                expedite and improve hazardous fuels reduction in high-
                risk areas.
        6.  HR6089 provides benefits to the local community
                <bullet>  The Bill empowers the Governor, state, and 
                local communities to designate and cooperate with 
                federal land managers to develop emergency hazard fuel 
                reduction projects.
                <bullet>  The Bill supports an emerging forest 
                restoration industry, which provides tools and manpower 
                for forest restoration and contributes to economic 
                certainty.
                <bullet>  Passage of the Bill will provide natural 
                resources for lumber mills, furniture, firewood, 
                biomass, and wood pellets, helping all of the related 
                industries.
                <bullet>  The Bill creates jobs and provides other 
                positive economic impacts in our local communities.
                <bullet>  HR6089 allows for creative funding for 
                public-private partnerships for hazardous fuel 
                mitigation and reduction. For example, in Pitkin 
                County, Colorado, in a project in Aspen's Starwood 
                neighborhood, neighbors there paid for the restoration 
                and mitigation of the forest adjacent to them.
        7.  In closing, I offer the following points:
                <bullet>  Federal land managers know the highest risk 
                areas around us--this Bill gives them another tool in 
                working with local communities to address those risks.
                <bullet>  Educating the public on defensible space 
                continues to be a top priority and should not be 
                overlooked. In Colorado, citizens can be reimbursed by 
                the state 50% of costs for improvements to defensible 
                space.
                <bullet>  The local use doctrine regarding public land 
                use is extremely important to us. Nearly 70% of the 
                lands in Garfield County, Colorado, are federally owned 
                or managed. Forest management practices are a crucial 
                part of the picture.
                <bullet>  Indeed, the vitality and strength of the 
                Western United States is closely tied to the health of 
                our public lands.
                <bullet>  Garfield County, Colorado, supports this Bill 
                for the reasons stated.
                <bullet>  Thank you.
                                 ______
                                 
    Mr. Bishop. Mr. Kashdan, from the Association of Forest 
Service Retirees.

       STATEMENT OF HANK KASHDAN, LEGISLATIVE DIRECTOR, 
        NATIONAL ASSOCIATION OF FOREST SERVICE RETIREES

    Mr. Kashdan. Mr. Chairman, on behalf of the National 
Association of Forest Service Retirees, we appreciate being 
here. Our comments are specific to H.R. 6089, the Healthy 
Forest Management Act of 2012, but we do want to acknowledge 
that the attention given to all three bills is important in 
bringing attention to the continued degradation of America's 
forests and rangelands caused by insect infestation, drought 
and other factors. This is a serious threat to America's public 
lands, communities adjacent to those lands and our 
infrastructure.
    As retirees we clearly feel that action is needed, action 
that is rapid, efficient, collaborative, and which pushes the 
envelope in terms of procedures and authorities. We all know 
that increasing budgets is not a fix, and we also accept the 
potential for budgets to be decreasing. So in a legislative 
approach, there has to be a focus on public-private 
partnerships, reduced process and much greater recognition of 
this crisis. We think that H.R. 6089 supports this approach.
    I do want to acknowledge the excellent work of the agency 
so far in addressing this. The Forest Service's approach with 
bark beetle strategy, the Collaborative Forest Landscape 
Restoration Program, and use of the Integrated Resource 
Restoration Budget pilot should go a long way toward increasing 
accomplishment. The Forest Service and BLM's joint work in the 
use of stewardship contracting, the release of the national 
cohesive wildland fire strategy are all important. These are 
steps in the right direction, but we do think more is needed, 
and we think H.R. 6089 will really help moving that process 
forward.
    With the exception of a minor reservation, we strongly 
support this legislation. For the stewardship contracting 
extension to 2017, let me just say thank you. That tool is an 
essential part of future accomplishment and working with 
communities. The contract term extension to 20 years we think 
is helpful in incentivizing the investment of business capital 
and in building long-term community participation in decisions 
about the adjacent watersheds. The Good Neighbor authority 
being made permanent is a critical need. The inclusion of 
categorical exclusions for projects within 500 feet of 
infrastructure is important.
    And we like the Governor's authority to designate high-risk 
areas. Now, we understand there is some reservation on that 
part. I remember distinctly when the Good Neighbor authority 
was implemented back in the late 1990s, there was some concern 
about what I would call shared authority, if you will. Well, 
concerns about that have not come to pass. It is an excellent 
authority. And as we look at the expedited procedures that are 
called for in this bill under the Healthy Forest Restoration 
Act regarding analysis, appeals and judicial review, we think 
that the Governor's high-risk designation making those 
procedures applicable is a good part of this legislation.
    We also very much appreciate the application of those same 
procedures to nonwildland-urban interface lands that are also 
very important to addressing the degradation.
    I mention one reservation. Let me just say that the 
provision calling for project implementation within 60 days of 
a Governor's designation even in the case where the Secretary 
may not have designated an area as high-risk, we are concerned 
that might raise a false expectation that national resources in 
terms of money and budget will be shifted to those projects.
    Across all public lands there is very good work being done 
by the agencies and being done with a very limited funding 
level. So to think that there will be a shift like that is 
probably not realistic, And where it has been attempted in the 
past, it has been met with very little success. So we do think 
that retaining the Federal agency's authorities over the 
program work is important.
    I might also note one technical correction dealing with the 
section 6 prohibition on clear cuts relative to hazardous fuels 
action. Lodgepole pine is a species that requires openings in 
order to effectively regenerate, so we think that might be 
something that should be considered in the final bill.
    So with that, Mr. Chairman, let me conclude my remarks, and 
I look forward to any questions.
    [The prepared statement of Mr. Kashdan follows:]

 Statement of Hank Kashdan, Legislative Director, National Association 
of Forest Service Retirees, on H.R. 6089, Healthy Forest Management Act 
                                of 2012

    Mr. Chairman and members of the Subcommittee, the National 
Association of Forest Service Retirees (NAFSR) appreciates the 
opportunity to appear before the Subcommittee today to comment on H.R. 
6089, the Healthy Forest Management Act of 2012. I am Hank Kashdan, 
Legislative Director for NAFSR. I retired from the Forest Service in 
December, 2010 having served as Associate Chief immediately prior to 
retirement. I was a Forest Service employee for 37 years. The NAFSR 
organization is a national, nonprofit organization of former Forest 
Service employees and associates. Members of the Association possess a 
unique body of knowledge, expertise and experience in the management of 
the National Forests, other public lands, forestry research, state and 
private forestry assistance, agency history, laws and regulations, and 
international forestry. Members of NAFSR are devoted to contributing to 
understanding and resolving natural resource issues through education, 
independent and cooperative analysis, and periodic review and critiques 
of agency policies and programs.
    Although my testimony is specific to H.R. 6089, NAFSR recognizes 
that the Subcommittee is holding this hearing on three bills that focus 
on major forest and rangeland health issues across the nation's public 
lands under the jurisdiction of the United States Forest Service or the 
Bureau of Land Management. This high level attention is much 
appreciated by NAFSR. The recent catastrophic wildfires occurring 
throughout the West, clearly illustrate the need for rapid, efficient, 
and collaborative action to address insect epidemics, drought, 
deteriorating forest health, and the ever increasing risk of 
catastrophic wildfire. These conditions are a direct threat to 
communities, the health of the nation's public lands, and 
infrastructure investments on and near those public lands. The retirees 
in NAFSR stand ready to assist the Subcommittee on this issue at any 
time during its consideration of these bills.
Overview of Actions Taken to Date
    NAFSR applauds the significantly increased attention by the 
agencies in addressing deteriorating forest and rangeland health issues 
on public lands.
    The recently authorized Collaborative Forest Landscape Restoration 
Program is already yielding improved forest health and brightening the 
economic prospects for communities adjacent to public lands. The 
collaborative basis for establishing management activities in these 
areas is a model of how public lands can be managed in the future.
    The Forest Service and Bureau of Land Management's use of 
stewardship contracting authority has finally reached the point of 
``critical mass'' such that it is becoming a tool of choice for land 
managers rather than an experiment in the performance of restoration 
activities on the nation's forests and rangelands. Although the 
retirees feel that stewardship contracting has been implemented over a 
painfully long period of time, we now see widespread acceptance and 
understanding within the agencies of the benefits of this tool. As 
noted later in our testimony, NAFSR believes permanent authority for 
stewardship contracting is an important consideration in meeting the 
challenges identified in H.R. 6089.
    The retirees congratulate the agencies on the issuance of the 
National Cohesive Wildland Fire Management Strategy that will serve as 
a framework for broad interagency strategy actions to address wildland 
fire issues with close involvement of local and tribal governments, 
non-governmental organizations and others.
    The Forest Service is currently pilot testing new budget structure 
efficiencies as authorized in the Fiscal Year 2012 Appropriations Act. 
The pilot, under an Integrated Resource Restoration budget line item, 
applies to three of the four Forest Service Regions in the 
Intermountain West, which contain many areas severely impacted by 
drought and insect infestation. We are hopeful the test of this 
integrated budget structure will increase the efficient use of existing 
funds in completing critical projects.
    The Forest Service's development of a Bark Beetle Strategy is an 
important aspect of prioritizing the critical project needs to address 
a problem that, taken as a whole, cannot simply be addressed with 
higher funding levels that are highly unlikely to occur in the near or 
long term future.
    The retirees note the use of Good Neighbor Authority that was first 
authorized in the late 1990's. This program has been very successful in 
providing resources and focus in working with the states to address 
forest and rangeland health issues. I personally remember some of the 
reservations the Forest Service had with enactment of this authority in 
an Appropriations Bill. Those concerns focused on the perception of 
``shared authority'' to conduct restoration activities on federal, as 
well as adjacent state and private lands. The success of this authority 
resulted in a similar authorization for the Forest Service to use 
hazardous fuels reduction funds (with an expenditure limitation) on 
adjacent non-Forest Service lands. We highlight the initial concerns 
about such shared authority as we note similar perceptions by agencies 
will undoubtedly be at the forefront of concerns about H.R. 6089 as it 
receives further consideration.
    All and all, NAFSR believes good progress is being made through the 
interagency increase in focus, prioritizing, and collaboration. 
Recognizing that the prospect for increased funding, or even sustained 
levels of funding, to land management agencies to address these 
problems is highly unlikely, it is clear that a new perspective with a 
strong bias for action and collaboration is needed. A simple look at 
the impacts of the recent wildfires in the West, expanding drought 
areas, and further spread of insects across the landscape, mandates 
that increasingly bold action be taken through an expansion in the use 
of existing tools and authorities, further collaboration with 
stakeholders, and a streamlining and expediting of procedures for 
environmental analysis and public involvement. This will require 
efforts that stretch the cultural ``comfort zones'' of the public land 
management agencies in order to be successful. It is in that context 
that NAFSR offers the following perspective on H.R. 6089.
NAFSR Perspective on H.R. 6089
    With only one significant reservation, NAFSR is very supportive of 
H.R. 6089. I will address that reservation after first acknowledging 
the Bill's positive aspects.
        <bullet>  The Bill provides for an extension of Stewardship 
        Contracting authority. This is essential. Stewardship 
        contracting is a key element in future successful 
        implementation of actions to address the critical challenges on 
        the landscape. NAFSR would only recommend that strong 
        consideration be given to making the authority permanent as was 
        done in the Senate Agriculture Committee's markup of the Farm 
        Bill.
        <bullet>  The Bill provides for Stewardship Contracts to be 
        executed for up to 20 years. NAFSR concurs with this provision. 
        Such long term contracts in critical landscapes will provide 
        better prospects for local business to obtain financial backing 
        and provide for the long term collaborative structure within 
        local communities that will improve forest and rangeland 
        health.
        <bullet>  The Bill makes the Good Neighbor authority permanent. 
        NAFSR supports this action. This authority has been a good tool 
        in conducting cooperative work on federal and adjacent lands.
        <bullet>  NAFSR appreciates specific mention in the Bill that 
        emergency hazardous fuels reduction projects, whether inside or 
        outside the wildland urban interface, would be performed using 
        analysis, appeals, and judicial review procedures provided for 
        in the Health Forest Restoration Act of 2003.
        <bullet>  The Bill extends environmental analysis, appeals, and 
        judicial review processes contained in the Healthy Forest 
        Restoration Act of 2003 to hazardous fuels reduction project to 
        be performed under this Act. The Bill further authorizes the 
        use of categorical exclusions for projects within 500 feet of 
        houses or infrastructure. NAFSR supports this method of 
        streamlining analysis and appeals procedures in order to move 
        quickly to perform activities that if otherwise delayed by 
        cumbersome procedures, would result in unacceptable 
        deterioration of forest and rangeland health, damage to 
        communities and infrastructure, and possible loss of life.
        <bullet>  The Bill formalizes a significant role for Governors 
        in designating high risk areas. NAFSR understands the federal 
        agencies have concerns about such legislation; however we also 
        recognize that cooperation with Governors is already a standard 
        and highly routine practice by the federal agencies in 
        developing collaborative plans to address management on federal 
        lands. As such, we are supportive of such authority except as 
        stated in our one major reservation which is explained as 
        follows.
    The Bill, in Section 6 (e) (1) states that for projects identified 
by the Governor, ``implementation'' will occur within 60 days. Our 
reservations are as follows:
        <bullet>  A false expectation is potentially created that the 
        agency will shift nationwide resources to implement projects 
        simply as a result of designation by a governor. The current 
        budgetary capacity of the agencies would not support such an 
        expectation. If enacted as currently stated, the provision will 
        likely result in unnecessary friction and conflict between a 
        Governor's office and the federal agencies. NAFSR feels the 
        final implementation of projects should be at the discretion of 
        the Secretary in consultation with the Governor.
        <bullet>  Rather than potentially creating false expectations 
        that nationwide resources might be shifted as a result of a 
        Governor's designation, NAFSR feels that the primary benefits 
        derived from this legislation will be through extension and/or 
        permanent authority in the use of available tools (stewardship 
        contracting, Good Neighbor Authority, etc.) and a streamlining 
        of environmental analysis, appeals, and judicial review. With 
        the legislation authorizing a Governor to designate high risk 
        areas, the streamlined analysis, appeals, and judicial review 
        would become available to the agencies.
Conclusion
    In closing, NAFSR would again like to thank the Subcommittee for 
affording us the opportunity to provide testimony regarding H.R. 6089. 
We again offer our assistance in any way possible to assist the 
Subcommittee in developing legislation that will achieve a significant 
improvement in the health of the nation's forests and grasslands, while 
protecting communities and infrastructure.
    I would be glad to answer any questions the Subcommittee may have 
either now or in the future.
                                 ______
                                 
    Mr. Bishop. I thank all the witnesses for having come here 
and given their testimonies and staying within the 5-minute 
level. I am aware of all the flight plans that people have. We 
are going to get it all done on time.
    Ms. Noem, Representative Noem, I realize that you have the 
first plane out, so I am going to yield my time. I am going to 
ask the panelists if they would limit their questions to H.R. 
5960 and H.R. 6089. And once we have a round of those 
questions, I have two other witnesses that are talking about 
H.R. 5744. I will bring them up, and then we can ask questions 
on that bill by itself.
    So, Representative Noem, if you would like to take my time 
at first, I will yield to you.
    Mrs. Noem. Is this a question time?
    Mr. Bishop. Questions, yes.
    Mrs. Noem. Thank you. Thank you, Mr. Chairman.
    I have plenty of time for this because this is a very 
important issue for us, so I thank you for yielding to me and 
allowing me the opportunity to ask a few questions and to make 
an opening statement.
    My questions would be for Ms. Wagner. You know, remind me 
again how many acres specifically have the bark beetles 
impacted since the epidemic has begun? I think the number in 
your testimony was around 18 million acres.
    Ms. Wagner. I have corrected information for that. Across 
the Nation the impacts of bark beetle on all jurisdictions are 
found on over 43 million acres; on the National Forest System 
alone, over 30 million acres.
    Mrs. Noem. OK. And you also discussed in your testimony 
that 65 million acres are at high risk for wildfires. So that 
is the number that not necessarily all of those acres are 
impacted by pine beetle epidemics, but that is a very high 
number. Even if you took the $18 million number--I was running 
some numbers here while I was sitting--it appears to me that 
what has actually been treated and addressed on Forest Service 
land is less than 2 percent of the lands that you have 
jurisdiction over have actually gone in and been dealt with and 
then treated for Fiscal Year 2011. Is that an accurate 
statement?
    Ms. Wagner. For the bark beetle strategy that we created 
and began to implement in Fiscal Year 2011, we have treated 
over 300,000 acres to increase resiliency and reduce public 
safety issues. Relative to the size of the impact of the pine 
beetle, I agree, that is a small amount of acreage. Overall we 
are trying to upscale our treatments on the landscape, address 
priority areas, and that is where the 3.7 million acres were 
restored in Fiscal Year 2011.
    Mrs. Noem. OK. Well, for me that is a very disappointing 
percentage. We have--obviously, as a lot of the testimony has 
been here today, that we have a critical situation on our 
hands. And when the Federal Government has jurisdiction over 
lands, it is my anticipation that they would be responsible for 
maintaining and taking care of those lands, especially when 
private lives are at risk and in jeopardy.
    This is a very timely and incredibly important issue for 
States across the West, including South Dakota. And I know you 
and Chief Tidwell have had conversations with me in my office 
regarding this and how South Dakota is impacted. This is one of 
the hottest summers on record. Droughts have been declared in 
several different States. Forests across the West are turned 
into tinder boxes, as we have heard testimony today. One fire 
in the Black Hills claimed the lives of four National Guardsmen 
from North Carolina, and so my heart has been going out to 
those families as well in fighting these fires that have been 
going on.
    The outbreak of the beetle has changed our landscape. I 
have some photos here that I am going to pass around to the 
other members on the Committee that they can look at what is 
going on in South Dakota. But what is so interesting is when 
you look at this picture, and I will let everyone on the panel 
look at it as well, is you can see the vast difference between 
what has been treated by the State and what the State has 
stepped up and taken care of and the difference on the U.S. 
Forest Service land and how the pine beetle is out of control 
on that land right next to land that the State has taken the 
opportunity to go in and address.
    So I would like to thank my colleagues for introducing this 
legislation. I would also like to thank everyone for being 
willing to tackle this issue. It underlies the importance of 
this issue that we have people on both sides of the aisle that 
are looking to find a solution; that it is not a Republican, it 
is not a Democrat issue, that it impacts all Americans who care 
about our forests and the livelihoods of thousands of people 
across the Nation.
    So one other question for Ms. Wagner as well. Have you been 
out to Colorado or to the Black Hills to visit and to see this 
with your own eyes yet?
    Ms. Wagner. I have not personally. I know the Chief has 
spent time in the field. Our regional foresters have spent time 
with many Members. I have not made the trip to Colorado or 
North Dakota.
    Mrs. Noem. I would love to personally invite you to come to 
South Dakota and to bring Chief Tidwell with me. He did come to 
my office and visit me, and I appreciated that. But there is an 
urgency on the ground, and I would love to bring you out to 
South Dakota and show you around and host you doing that. If 
they say something about--you know, we certainly have 
cooperation that is potential there, and so I certainly would 
love to have you envision that and see that together to see how 
this could work and how these bills could work on the ground 
for the benefit of people living there.
    So with that, I will yield back.
    Mr. Bishop. Thank you, Representative. Bluewood is very 
pretty, isn't it?
    Let me turn to the Ranking Member Mr. Sablan. 
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Let me start with Ms. Wagner. Almost 15 years ago the 
Forest Service began a process of reviewing the management of 
pristine forests or roadless areas. In 2001, the Forest Service 
Chief Mike Dombeck issued regulations to protect these areas, 
and therefore recognizes one of the most far-reaching 
conservation initiatives taken by the Federal Government since 
the Wilderness Act was passed in 1964. After a decade of 
litigation, 60 million acres of our forests and water that 
provide are protected from harmful. So H.R. 6089 declares an 
entire National Forest System in imminent danger. Does this 
declaration waive the roadless area protection in Colorado and 
every other State?
    Ms. Wagner. The position of the Administration is we 
support the roadless area conservation rule as enacted and 
reviewed by the courts. So there are 58 million acres under 
that management strategy identified across the Nation, and then 
specific roadless area conservation rule promulgated in the 
State of Idaho, and one under way for the State of Colorado.
    In the case of high-priority need for fuels treatment and 
fire risk, the majority of those acres are outside of roadless 
areas adjacent to wildland-urban interface, and so we think we 
can abide by the provisions of the roadless area conservation 
rule and work on forest restoration where it is needed in 
priority landscapes.
    Mr. Sablan. But let me get back to my question.
    Ms. Wagner. Sorry.
    Mr. Sablan. Does the declaration--section 3 of H.R. 6089 
declares the entire National Forest System in imminent threat. 
Does this declaration, section 3, waive the roadless area 
protections in Colorado and every other State, yes or no?
    Ms. Wagner. I believe it would.
    Mr. Sablan. It does. All right. Thank you.
    Mr. Roberson, your testimony points out that two of these 
bills waive important environmental laws and make it difficult 
for the public to engage with Federal land managers. Can you 
give us an idea, make it short, of how many hazardous fuels 
projects the Bureau of Land Management implements every year 
and how many of these projects are appealed?
    Mr. Roberson. We have treated--in the last 10 years, we 
have treated 23 million acres with fuels and--hazardous fuel 
reduction projects, stewardship contracting and Good Neighbor 
authority. And in 2011----
    Mr. Sablan. I can't hear you.
    Mr. Roberson. OK. Over the last 10 years, we have treated 
23 million acres of land. We have restored rangeland health and 
forest health in those acreages using fuel projects--fuel-
reduction projects and other veg treatments. We have also in 
the last year--as an average we have treated 400,000 acres. And 
we have less than 1 percent, half of 1 percent, are actually 
protested and appealed. These are projects that the community 
support that we have worked on with the community, and they 
have not been appealed or protested.
    Mr. Sablan. Thank you.
    Mr. Kashdan, good morning, sir. Let me ask you this: Do you 
think all 193 million acres of the National Forest System lands 
are in imminent threat to health and safety so that roadless 
area protections should be suspended?
    Mr. Kashdan. Well, let me address that this way, and I am 
speaking more on my own behalf, because we haven't taken a 
position as a retiree group. The concern is that roadless lands 
are essentially lands in limbo, and we need to ultimately make 
some determination as to how to properly assign those to some 
type of either management or nonmanagement status. That would 
be as far as I would go on that.
    Mr. Sablan. All right. And so in your testimony on H.R. 
6089, you raise concerns about the requirement for agencies to 
implement projects submitted by Governors within 60 days. Do 
you or why don't you have the same concern for the requirement 
to implement projects by the agency within 60 days? And 
quickly, please. Is that a realistic timeframe?
    Mr. Kashdan. If I am following your question correctly, let 
me just say that I think that that provision, although it tends 
to get a lot of attention and is precedential, 99 percent of 
the benefit derived from this bill is not germane to that 
issue.
    Mr. Bishop. OK, thank you. I appreciate that.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    I would like to give particular thanks to Mr. Jankovsky for 
taking the time to be able to be here out of my home district.
    Tom, can you maybe give us a little idea, as county 
commissioner, how much time do you spend dealing with issues 
relating to land management?
    Mr. Jankovsky. Well, land management in general--I am a new 
county commissioner, I have been in office for 2 years, and I 
thought I had a pretty good idea of what I was going to be 
doing as a county commissioner, but I am spending 50 percent of 
my time or more on Federal issues concerning our county, and 
they are numerous, this is one of them, but----
    Mr. Tipton. Should Federal agencies engage county 
commissioners a little more in terms of----
    Mr. Jankovsky. There is no doubt. I think the benefit to 
this bill is that it creates a working relationship between 
local communities and Federal land managers, and I think that 
is very important, and I have the highest regard for our 
Federal land managers in our area, but I think there could be 
great improvement.
    Mr. Tipton. Great, thank you.
    Mr. Roberson, I would like to ask you, does the Healthy 
Forest Restoration Act of 2003 require public input with 
respect to projects carried out under the terms of the Act?
    Mr. Roberson. Yes, sir.
    Mr. Tipton. They do, OK. Those are authorities that we are 
using here. So you don't need to worry about the public input 
that you were concerned about in your testimony in opposing the 
bill. We provide for that public input.
    So, thank you, sir.
    Mr. Kashdan, I really want to be able to visit with you, if 
I may, just a moment. I appreciate your candor with respect to 
section 6(e)(1) in H.R. 6089, and I recognize some of the 
fiscal constraints faced by the agency. With that said, with 
your extensive experience in Forest Service, do you believe 
that there are efficiencies within the agency that could be 
pursued that would help prioritize the approval of hazardous 
fuel reduction projects and to be able to actually help meet 
those fiscal needs?
    Mr. Kashdan. Yes, sir, I do, and I also think the 
provisions in H.R. 6089 specific to the Healthy Forest 
Restoration Act of 2003 regarding appeals, analysis, and 
judicial review will greatly enhance that. So you combine those 
efficiencies, you apply them to non-wildland-urban interface, 
and you use some of the existing tools with stewardship 
contracting, we are going to go a long way toward improving the 
accomplishment. I think there are examples of how far you can 
go when you are encumbered by very minimal analysis. I think 
burned area emergency rehab is an example of a program that is 
rapidly executed, delivered with good results, and it is done 
with a wide demand on the part of the public regardless of 
where they stand on the environmental spectrum to get work done 
to stabilize areas after a catastrophic wildfire, and it is an 
example of how far dollars can go when you are not encumbered 
by----
    Mr. Tipton. I appreciate that, because if we bring some 
common sense to the process, allocate the resources with common 
sense to be able to address the problem, we will be able to 
achieve an actual win-win. So I appreciate that, sir.
    Ms. Wagner, I had the opportunity to be able to go out into 
Archuleta County in Colorado to be able to tour an area that 
was actually being treated that Congresswoman Noem was talking 
about. We are seeing a healthy forest emerge. We were talking 
about water table increases of 15 percent by getting in to be 
able to actually thin the forest, healthy trees that were then 
being able to survive and to be able to grow. Is it pretty much 
your estimation that when we see the tragedy of these fires 
moving through areas like South Dakota, Colorado, impacting our 
watershed, impacting wildlife habitat, impacting those streams 
and endangered species when that ash hits the rivers, that it 
is a good, sensible approach to be able to bring together tools 
and that local commitment of working with county commissioners, 
working with our local Governors, working with the tribes, the 
people who live there and love it most, to be able to make 
those sensible determinations of where the real risks are at?
    Ms. Wagner. Yes. We are keenly interested in working in 
that kind of environment and doing our part to help sustain our 
Nation's forests.
    Mr. Tipton. Great. Thank you very much for that.
    Mr. Kashdan, I would like to come back to you real quick. 
In your testimony, you mention some of the great successes of 
the good neighbor policy authority that the Forest Service has 
accumulated in collaborative efforts that are going on. Given 
this, do you believe it might also be beneficial to expand this 
applicability to BLM land as well?
    Mr. Kashdan. Definitely. I think the good neighbor 
authority as well as some of the other efficiencies modeled 
similarly, there was some similar authority in Oregon, and even 
some of our hazardous fuels money is authorized to be spent in 
a similar nature. It works, and to apply it to the other 
Federal agencies is a good thing to do.
    Mr. Bishop. Thank you.
    Mr. Kashdan, I apologize for cutting you off twice, but you 
were able to answer in 9 seconds or less, that is very good.
    I am doing another audible here. I want to explain what I 
want to get done. The Ranking Member of the Full Committee is 
here and has remarks on his particular bill. I have two other 
witnesses that need to talk about the Gosar bill that also have 
planes to catch here.
    Can I just ask, Mr. Gosar, do you have any questions 
specific to H.R. 6089? And if not----
    Dr. Gosar. Not that can't be addressed later.
    Mr. Bishop. Mr. Gardner, I am assuming you are here for 
H.R. 6089?
    Mr. Gardner. Yes.
    Mr. Bishop. When I turn to you for questions on that, we 
will finish the questions on H.R. 6089, allow our two witnesses 
that are here specifically for that bill to be excused, bring 
the other two up for H.R. 5744, and then let Mr. Markey also 
give his opening remarks for his bill, if we can do it that 
way?
    Cory, you are up.
    Mr. Gardner. Thank you, Mr. Chairman and members of the 
House Resources Committee for allowing me to join you today and 
to participate in this.
    Thanks in particular to Congressman Tipton for his work on 
this legislation and the work that he is doing to help protect 
Colorado and the Western United States, one of the most 
incredible resources this Nation has to offer, and also I want 
to welcome the witnesses from Colorado, thank you 
commissioners, and Commissioner Gibbs, good to see you, we 
served in the State legislature together, and I thank you for 
your work there and here.
    I am stunned by the callousness of the Department of the 
Interior's objection to the healthy forest bill, H.R. 6089. We 
have a situation once again where Washington is fiddling while 
our States are burning. In your testimony, you state that 
Governors can require BLM to manage Federal lands and resources 
to meet the Governor's objectives without regard to national 
objectives, interests or a fair return to the American people. 
A fair return to the American people? I have over 200 homes 
burned in my district, tens of thousands of acres are burned. 
You want to protect wild and scenic rivers? What about the 
Poudre River that now has ash and debris flow contaminating the 
river, drinking water systems that are overwhelmed? And you are 
going to oppose this legislation because it gives the Governor 
the authority to save his State?
    BLM's ability to manage for resources protected by Federal 
law: Do you believe that bark beetle, beetle-killed areas are 
high risk?
    Mr. Roberson. Yes, Congressman.
    Mr. Gardner. Do you believe we ought to give the States the 
tools they need to protect their citizens and their State?
    Mr. Roberson. We believe that we and the States should work 
together along with the local counties on this problem together 
and work together.
    Mr. Gardner. Do you believe you know better than the 
States?
    Mr. Roberson. No, sir, I wouldn't substitute my judgment 
for that of the States.
    Mr. Gardner. Then why would you oppose a bill that gives 
the State the ability to protect its citizens?
    Mr. Roberson. We are managing national public lands, and we 
are trying to do that to achieve ecological balance across the 
Nation. We believe----
    Mr. Gardner. Ecological balance?
    Mr. Roberson. And to provide for jobs and opportunities as 
well. We believe in the principles that were outlined that 
Congressman Tipton just raised and that Mary Wagner just agreed 
to. We believe that we should work in concert, and we do that 
at the State and local level with the Governors. Our cohesive 
fire strategy will allow us to continue to work on building 
resilient landscapes and working together on fire preparedness 
and firefighting.
    Mr. Gardner. Is 90,000 acres of burned forest a resilient 
landscape?
    Mr. Roberson. Not on that landscape, sir.
    Mr. Gardner. Two hundred sixty homes that have burned, 
resilient?
    Mr. Roberson. We have----
    Mr. Gardner. Is what you are telling me, are your forest 
policies, are they working to prevent this from happening?
    Mr. Roberson. The Bureau of Land Management has 
approximately 1.3 million acres of beetle-killed trees out of 
the 58 million acres that we manage. We are focused on that 
issue. We have a plan for beetle kill infestation in Colorado 
and other areas, and we are working through our local planning 
efforts with county commissioners, State foresters, and other 
land managers to address the issue, including the State 
governments, and our plans are reviewed by the Governors of the 
States when we complete them.
    Mr. Gardner. You mentioned the bill provides that high risk 
areas will be designated for 20 years, and you object to that. 
Are beetle-killed areas going to be around for 20 years?
    Mr. Roberson. Twenty years ago, in my experience, we did 
not anticipate the level of beetle kill that we have now or 
some of the other changes that we have across the environment.
    Mr. Gardner. I will ask you again, are those beetle-kill 
areas going to be around for the next 20 years?
    Mr. Roberson. I can't project, sir.
    Mr. Gardner. You are telling me that----
    Mr. Roberson. I am saying that the----
    Mr. Gardner. You can't guess that a stand of dead trees 
won't be there in 20 years?
    Mr. Roberson. Pardon me, sir. My statement is that 20 years 
as a designated high-risk area is too long, we believe. We 
believe that you can focus on those high-risk areas in----
    Mr. Gardner. How long does it take to recover from a 
catastrophic wildfire?
    Mr. Roberson. Pardon me?
    Mr. Gardner. How long does it take to recover from a 
catastrophic wildfire?
    Mr. Roberson. I have no idea.
    Mr. Gardner. Twenty years or less or more?
    Mr. Roberson. I can get back to you on that.
    Mr. Gardner. I yield back my time.
    Mr. Bishop. Thank you.
    I have just one question on this particular bill. Do others 
have other questions on this bill? Let me just ask mine, and 
then we are going to make the switch, and I think some of the 
other questions also would deal with Representative Gosar's 
bill as well or they can fit in that concept as well.
    Mr. Roberson, I just have one specific to this. In your 
testimony, you said that 60 days to distinguish a high-risk 
area is not enough time. How much time is enough? How much time 
do you need to make that designation?
    Mr. Roberson. We would normally do that through our local, 
working with county commissioners and the State and the State 
foresters, we would work with them to designate high-risk areas 
that still were in place.
    Mr. Bishop. Sixty days?
    Mr. Roberson. I am not sure how long it would take. I think 
the level of the problem that we have, the magnitude of the 
multi-agency landscape that we deal with, I have no estimate, 
sir.
    Mr. Bishop. OK. And I will tell you my frustration, simply 
not just with you, but with almost every agency around here. I 
am a schoolteacher, which means you had 9 months to do it, and 
it was over. If my principal came to me and told me the final 
test is on Tuesday, and I simply said, Look, I can't cover all 
the material by Tuesday, I will get back to you when we are 
ready to actually take the test, you can imagine what would 
happen to me. In my profession, I was trained that you have to 
get it done when the deadline is there.
    Yesterday we had another hearing, same situation. I wanted 
them to say when they actually will get it done. There is no 
deadline that happens to be there. We had another hearing when 
it said it would take an agency 4 years to do a study on a land 
swap. Those are frustrating to those of us who are not 
inculcated into the climate of Washington, D.C. So if 60 days 
is not enough, that presents an illusion of a problem that is 
difficult for me to wrap my mind around, because I am used to 
hitting deadlines, and I had no choice in that matter.
    I appreciate that. With that, let me close this. I want to 
thank--oh, do you have a question?
    I am sorry, Mr. Markey for this particular panel, on H.R. 
6089. OK.
    Mr. Markey. Yes. Thank you, Mr. Chairman, very much.
    Mr. Romm, do you think that climate change or climate 
variability is influencing the frequency and severity of fires 
in the United States?
    Mr. Bishop. Mr. Markey, can I interrupt for just a second 
here?
    Mr. Markey. Sure.
    Mr. Bishop. I think that is a very good and a legitimate 
question. It applies to the other bills as well. If I can do 
just H.R. 6089 so I can get these two witnesses on their way 
and then bring the other witnesses up, I would appreciate that.
    Mr. Markey. I see what you are saying. No, I do not have 
any questions for those two.
    Mr. Bishop. Then, Commissioner Jankovsky, Mr. Kashdan, I 
appreciate your attendance here. I appreciate you flying all 
the way out here.
    You can go back and enjoy yourself at this particular stage 
of the game, and I will invite David Cook from the Arizona 
Cattlemen's Association--I am sorry, the National Cattlemen's 
Beef Association and Doyel Shamley from the natural resource--I 
am doing this without glasses--coordinator from Apache County, 
Arizona, can come and join us at that panel.
    And while they are coming up, Mr. Tipton, I will give you 
the last comment on your bill.
    Then Mr. Markey, let me attend, give you time to introduce 
your piece of legislation. We will have the other two witnesses 
introduce their testimony, and then we will open it up for 
questions again.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I just wanted to make 
sure that the list of organizations, concerned citizens in 
Colorado and throughout the United States that are supporting 
H.R. 6089, to be able to submit their letters of support for 
the record.
    Mr. Bishop. Thank you very much. Without objection, it will 
be so ordered.
    Mr. Bishop. Once again, I apologize for shifting gears on 
everyone here, but I am trying to get everything to move in the 
proper order, and we will--one of you I know has a flight going 
out this afternoon. We will get you there on time. So I 
appreciate that.
    Mr. Markey, we have not had a chance to introduce your 
piece of legislation. Can I give you 5 minutes to address your 
legislation?
    Mr. Markey. I appreciate it.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Thank you, Mr. Chairman, very much.
    And I first want to address Congressman Gosar's earlier 
comment about the ability of people who live in the concrete 
jungle of Massachusetts to be able to understand wildfire and 
forest issues, because that is an ironic comment coming from a 
gentleman who lives in a landlocked desert State voting in this 
Committee just 2 days ago to authorize drilling for oil and gas 
in the ocean off the coastline of Massachusetts.
    So the gentleman should probably square up where he thinks, 
you know, he has expertise to be able to vote because a desert 
State Member obviously should never be able to vote on anything 
to do with the oceans in the country.
    Although, let's be honest, our job is to vote on 
everything, we are here to represent everybody, and so making 
those kind of artificial distinctions is absolutely 
inappropriate. It would rule out most Members from most 
subjects because their State would not be the center of the 
issue.
    We are here because it is the taxpayers of America who fund 
it all, you know, including the response to wildfires and the 
response to what happens after the wildfires are completed. It 
is a national issue, and the taxpayers from Massachusetts help 
out the taxpayers of Arizona and Colorado, and the taxpayers of 
Colorado and Arizona help out the taxpayers of Massachusetts 
when they need it. That is the essence of what this institution 
is all about, e pluribus unum, ``out of many one,'' that is 
what the whole revolution was about, including the Civil War, 
to finally resolve that, that it is not separate, isolated 
States but, rather, all of us working together, and I just wish 
the gentleman appreciated that.
    And I want to thank you, Chairman Bishop, for holding this 
hearing to consider legislation to combat wildfires. I am glad 
that the Full Committee will be holding an investigative 
hearing next Tuesday.
    Today we are considering a bill I cosponsored with Mr. 
Grijalva, Mr. Lujan, Ms. Napolitano, Mr. Costa, and Congressman 
Polis. We have a very serious problem, and I am willing to name 
it. The problem that we have impacting our lands across this 
country is climate change. If you think storms and drought 
conditions and catastrophic wildfires are just random freak 
events, then you are in deep, deep denial.
    When Sigmund Freud studied denial, he suggested that when 
people are forced to face unpleasant facts, they are prone to, 
one, deny the reality of the fact outright; two, minimize the 
seriousness of the issue; or, three, project responsibility of 
the unpleasant situation on someone else.
    This is an apt analogy to how the climate deniers have 
chosen to deal with severe weather events, drought and 
wildfire. For months, the majority has denied that there was a 
problem. Now the majority apparently is willing to accept part 
of the reality that we are approaching dust-bowl-like drought 
conditions and fires are becoming larger and more severe, but 
they still deny the root cause of the push to the extremes is 
actually caused by climate change.
    Instead, they are going to project the responsibility of 
wildfires onto environmental laws, land management agencies, 
litigation, endangered species, and even immigrants.
    If we are serious about reducing catastrophic wildfire, we 
first must admit that there is a link between climate change 
and wildfire. The Under Secretary of Agriculture, Harris 
Sherman, has admitted this link exists. The chief of the Forest 
Service has admitted this link exists. Scientists around the 
world have proven this link exists.
    Earlier this week a massive chunk of ice twice the size of 
the island of Manhattan broke off the Petermann Glacier in 
Greenland, and scientists point to warming ocean temperatures 
as the culprit. I have suggested that we rename it Denier 
Island, where those who question the science behind global 
warming can spend the summer cooling off and escaping the heat 
waves, the drought and the wildfires that have beset the United 
States, and today two of those bills seem to be legislating 
from Denier Island.
    The goal that I have is to introduce legislation here that 
will make it possible to recognize that we have a problem with 
our forests. It also recognizes that we don't have the type of 
scientific certainty to lock in logging and grazing projects 
for 10 or 20 years like the other measures propose. Instead, my 
bill allows the Forest Service and the Bureau of Land 
Management the flexibility to do thinning in areas impacted by 
insects and disease without waiving environmental laws and 
forcing Federal agencies to make decisions on projects in 
unrealistic timeframes.
    My bill also recognizes our constrained fiscal environment 
and gives the Federal agencies additional authorities they 
desire to stretch their Federal dollars further. As we will 
hear from both the Forest Service and Bureau of Land 
Management, stewardship contracting authority is very helpful 
by allowing agencies to barter trees for thinning work.
    I thank you, Mr. Chairman, for the opportunity to make an 
opening statement, and I appreciate the panel that will be here 
to discuss the subject.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Good morning and thank you to all who have joined us today.
    I want to thank Congressman Bishop for holding this hearing today 
to consider legislation to combat wildfires. And after my requests to 
the Republican leadership to hold these hearings, I am also glad that 
the Full Committee will be holding an investigative hearing next 
Tuesday.
    Today we are considering a bill I have sponsored with Ranking 
Member Grijalva, Ranking Member Lujan, Ranking Member Napolitano, 
Congressman Costa and Congressman Polis.
    As we are going to hear today from Joe Romm [Rome] and others, we 
have a very serious problem--and I'm willing to name it. The problem we 
have impacting our lands across this county is climate change. If you 
think storms, drought conditions and catastrophic wildfires are just 
random, freak events, you are in deep, deep denial.
    When Sigmund Freud studied denial, he suggested that when people 
are forced to face unpleasant facts they are prone to 1) deny the 
reality of the fact outright; 2) minimize the seriousness of the issue 
or 3) project responsibility of the unpleasant situation on someone 
else.
    This is an apt analogy to how the Republican Party has chosen to 
deal with severe weather events, drought, and wildfire.
    For months the Majority denied there was a problem. Now, the 
Majority apparently is willing to accept part of the reality--that we 
are approaching dust-bowl-like drought conditions and fires are 
becoming larger and more severe. But, they still deny the root cause of 
the push to the extremes is climate change. Instead, they are going to 
project the responsibility of wildfires onto environmental laws, land 
management agencies, litigation, endangered species, and even 
immigrants.
    If we are serious about reducing catastrophic wildfire, we first 
need to admit that there is a link between climate change and 
wildfires.
    The Undersecretary of Agriculture, Harris Sherman has admitted this 
link exists.
    The Chief of the Forest Service has admitted this link exists
    Scientists around the world have proved this link exists.
    Earlier this week, a massive chunk of ice twice the size of 
Manhattan broke off of the Petermann Glacier in Greenland, and 
scientists point to warming ocean temperatures as the culprit. I have 
suggested that we rename it Denier Island, where those who question the 
science behind global warming can spend the summer cooling off and 
escaping the heat waves, the drought and the wildfires that have best 
the United States.
    And today, two of these bills seem to be legislating from Denier 
Island.
    On Denier Island, environmental laws are causing catastrophic 
wildfires and so they should be waived. In different ways, both H.R. 
5744 and H.R. 6089 waive important land protections.
    On Denier Island, people participating in government are causing 
catastrophic wildfires so they need to be cut out of the process. H.R. 
5744 and H.R. 6089 rob citizens of their ability to influence the 
future of our forests.
    On Denier Island, popular policy protecting pristine and unroaded 
forests forest is nuisance and needs to be overturned. H.R. 6089 takes 
a clever approach to suspending the roadless area protection policy in 
Colorado and elsewhere.
    The legislation I have put forward with my colleagues recognizes we 
have a problem in our forests. It also recognizes that we don't have 
the type of scientific certainty to lock in logging and grazing 
projects for ten or twenty years like the other measures propose.
    Instead, my bill allows the Forest Service and the Bureau of Land 
Management the flexibility to do thinning in areas impacted by insects 
and disease without waiving environmental laws and forcing federal 
agencies to make decisions on projects in unrealistic timeframes.
    My bill also recognizes our constrained fiscal environment and 
gives the federal agencies additional authorities they desire to 
stretch the federal dollars further. As we will hear from both the 
Forest Service and Bureau of Land Management, stewardship contracting 
authority is very helpful by allowing agencies to barter trees for 
thinning work.
    The Good Neighbor Authority in my legislation makes projects that 
cross federal and state lands cheaper by allowing federal agencies and 
state agencies to partner and issue one contract for large areas that 
include both federal and state lands. Finally, with the limited money 
available for clean-up work after fires, the Markey bill gives priority 
consideration to communities whose water source is at risk due to 
wildfires on federal lands.
    As we hear the testimony of our witnesses today, I urge us all to 
acknowledge and accept the seriousness of the issue we are attempting 
to address. This can help us move forward with smart solutions.
    Thank you. I yield back my time.
                                 ______
                                 
    Mr. Bishop. Thank you. All right.
    Mr. Shamley, I understand you have the first flight that 
has to go out?
    Mr. Shamley. I believe so.
    Mr. Bishop. All right. Can I ask you if you can make your 
statement first for the record and then Mr. Cook, and then we 
will open up questions to both Mr. Markey's bill as well as Mr. 
Gosar's bill, so Mr. Shamley, if you would, please.

STATEMENT OF JOHN DOYEL SHAMLEY, NATURAL RESOURCE COORDINATOR, 
                     APACHE COUNTY, ARIZONA

    Mr. Shamley. I am Doyel Shamley from Apache County, 
Arizona. I am the natural resource coordinator for the county 
there and also do work for many other entities, like the State 
legislature, other counties, et cetera. The need for sweeping 
and massive reform and the mechanisms to expedite forest 
management projects to reduce hazardous fuels, increase forest 
health, and economic development cannot be stressed enough. The 
current system in place is heavily laden with out-of-date, 
along with unclear and conflicting mandates upon the land 
management agency, slowing down an already cumbersome system 
even more.
    Many more roadblocks to fuels reduction, stewardship 
activities by counties along with pre- and post-fire activities 
need to be addressed and removed as well, and there is no doubt 
in the minds of Apache County and elected officials around the 
Western regions that something drastic has to happen, because 
unless we have drastic and sweeping changes made to management 
practices, we will lose our great Western timber stands. This 
will affect the very cultural and historic uses of the people, 
the people's ability to derive economic benefits, recreational 
abilities, strategic capabilities along with a loss of massive 
amounts of habitat and wildlife. And H.R. 5744 can go a long 
way in getting there because we are at a point where emergency 
measures are needed now.
    Having this week just attended the strategic planning 
meeting for the National Institute of the Elimination of 
Catastrophic Wildfires as a keynote addresser, it is completely 
evident that multiple peoples and entities with decades of 
experience on the land see the threat to our Nation and 
heritage. The bulk of the participants were prior land 
management agency people who have come together alongside 
multiple Ph.D. scientists, research professors, and college 
deans that were present to address these issues. One thing that 
was notable during this event was the multiple instances in 
which presentations and conversations turned to the issue of 
catastrophic wildfires on our forests and what to do with the 
forests throughout the country and mainly especially in the 
West. This is due to the overwhelming evidence that our current 
state of affairs will lead to nothing but irreparable damage.
    Another topic that needs to be highlighted and addressed 
that goes hand in hand with catastrophic wildfire prevention is 
the necessity of the roadway networks in there, they cannot be 
neglected. Those roadway networks have proven time and time 
again after the Wallow Fire--and remember we just went through 
that last summer, 838 square miles destroyed, and those roadway 
networks are a critical part of that wildfire prevention. Those 
have to be integral with our future plans, including with this 
bill of Mr. Gosar.
    Sweeping changes are necessary to the stewardship of our 
lands, and the model of county stewardship by Apache County, 
Arizona, needs to be replicated throughout the United States. 
H.R. 5744 would allow county stewardship and others to more 
easily move forward with wildfire prevention and protection to 
health, safety, and welfare in all those areas under our 
jurisdiction.
    Post-fire activities are almost next to none, if you want 
to know the truth. Being on the ground, zero, if you will. 
Post-fire recovery programs were often so shortsighted, 
mismanaged or misguided as to be useless to the very people and 
resources they were meant to be helping. Multiple programs came 
down, and many of us have to ask after going through the 
conundrum of bureaucracy and red tape and seeing no outcome, 
agency after agency--dollar upon dollar was waved in front of 
the victims of these fires with no outcome whatsoever--where 
did the money go, many of us have to ask? Millions of dollars 
and absolutely unusable by anybody affected.
    Unless the very fabric and core of the management practices 
and conservation of our natural resources in this country are 
reviewed with the best available science, one of the greatest 
losses in our history will occur, and these times do call for 
immediate actions unfortunately, and these bills and questions 
can begin that attack upon these problems.
    We need to remember, too, that the catastrophic wildfires 
are just a symptom of a disease, and that is to a great extent 
mismanagement by Federal land management agencies of our lands 
held in trust for the public. And with that, I would just like 
to remind everybody a little historical note that we need to 
get both back in control, the government and fire, and George 
Washington alluded to that when he stated, the machinations of 
government, how they were like fire, and it was a dangerous 
servant and a fearful master.
    [The prepared statement of Mr. Shamley follows:]

 Statement of John Doyel Shamley, Natural Resource Coordinator, Apache 
 County, Arizona, and CEO, Veritas Research Consulting, on H.R. 5744, 
                        H.R. 5960 and H.R. 6089

    The need for sweeping and massive reform in the mechanisms to 
expedite forest management projects to reduce hazardous fuels, increase 
forest health and economic development cannot be stressed enough. The 
current system in place is heavily laden with out-of-date along with 
unclear and conflicting mandates upon the land management agencies, 
slowing down an already cumbersome system even more. Many more 
roadblocks to fuels reduction, stewardship activities by Counties along 
with pre and post fire activities need to be addressed and removed as 
well. There is no doubt in the minds of residents and elected officials 
throughout Apache County and the Western States in general that a 
catastrophic loss of a natural resource is occurring. Unless drastic 
and sweeping changes are made to the management practices of federally 
managed lands, we will lose our great western timber stands. Effecting 
the very cultural and historic uses of the people, ability to derive 
economic benefit, recreational abilities, strategic capabilities and 
national defense along with massive amounts of habitat and wildlife. 
H.R. 5744 can greatly aid in this endeavor and is of utmost importance 
considering our current situation.
    The road networks throughout each forest are not only an economic 
and social asset to each County and State they fall within, but an 
absolutely necessary item in the abatement of, and dealing with, 
wildfire incidents. These road networks need to be retained in their 
entirety, fully intact as they are on the ground and must not be 
encumbered by any legal or physical blockages, removed from mapping 
inventories or in any way hindered in their ability to be used.
    Sweeping changes are necessary in the Stewardship of our lands, and 
the model of County Stewardship by Apache County, Arizona needs to be 
replicated throughout the country. If Stewardship is to be successful, 
it must be in the hands of the County Governments who often are the 
most experienced in the care of our lands, the cultural and historic 
uses and the most logical and feasible local governing body. Only 
through concise coordination with County Government as a lead entity on 
the treatment and conservation of our resources will the National 
Forest System be able to survive.
    Post-fire activities, rehabilitation, restoration and emergency 
measures are greatly hindered and in many cases so encumbered as to be 
a continual cause of great losses of economy, habitat and livelihoods. 
Many of the post-fire recovery programs are so short-sided, mismanaged 
or misguided as to be useless to the very people and resources they are 
meant to be helping.
    Unless the very fabric and core of the management practices and 
conservation of our natural resources in this country are concisely 
reviewed using the best available science, one of the greatest losses 
to our country will continue to progress to the point of being lost 
forever. And in fact, the entire system of lands, timber stands, 
resources, human environments and culture that people across this 
nation look to as one of the greatest assets in our country is 
threatened with permanent and unrecoverable damage.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony.
    Mr. Cook.

 STATEMENT OF DAVID COOK, ARIZONA CATTLE GROWERS ASSOCIATION, 
  PUBLIC LANDS COUNCIL, NATIONAL CATTLEMEN'S BEEF ASSOCIATION

    Mr. Cook. Chairman Bishop and members of the Subcommittee, 
thank you for inviting me to testify today on H.R. 5744. My 
name is David Cook, and I am a rancher from Gila County, 
Arizona, where my wife and I, along with our son and daughter, 
run a cow-calf operation on public and private lands.
    I am vice chairman of Federal Lands Committee for the 
National Cattlemen's Beef Association, and today I am also 
representing the Public Lands Council and the Arizona Cattle 
Growers Association. Livestock grazing represents the earliest 
use of Western lands as our Nation expanded westward. Today 
those lands and resources found on them continue to be 
essential for livestock, wildlife habitat, open space, and 
rural economies of the West.
    However, a hands-off management approach by the Federal 
agencies has led to severe damage of the resource. By all but 
shutting down logging and continuously reducing grazing on 
public lands, multiple-use industries are suffering. This 
mismanagement is causing a build-up of fuels that leads to 
catastrophic wildfire. When catastrophic wildfire breaks out, 
there are no winners; not the wildlife, not the rural 
communities or the taxpayers.
    That is why we are here today, to discuss real, immediate 
relief to the dangerous situations on and near our public 
forested lands. Last year in Arizona alone, we had 1 million 
acres burned up, impacting 100 ranching families and displacing 
about 18,000 head of cattle. As of this week, over 1.5 million 
acres have burned this year in the West alone. The overall cost 
of wildfires range from 3 to 10 times fire suppression costs, 
not counting property loss, personal injuries, and death.
    For ranchers, the cost includes displaced cattle, lost 
forage, loss of infrastructure, and death of livestock.
    What is the cause of this destruction? We should start by 
looking at NEPA. Agencies face a tremendous workload of hourly 
burdensome NEPA analysis and other regulations. They plan, 
study, get sued, plan and study for months and even years on 
end, creating backlogs and pile-up. Extreme anti-logging and 
anti-grazing environmental groups wait in the wings to file 
suit on procedural points, like missed deadlines, oftentimes 
collecting attorney's fees.
    In doing so, they add to agency workloads and further 
worsen the backlog. The result is tremendous economic 
uncertainty. The Forest Service estimates a current NEPA 
backlog of 2,600 grazing allotments. I have personally been 
involved in an 8-year process to renew a simple 55-head permit. 
How is this remotely acceptable?
    We should also take a look at another environmental law 
that has added greatly to the problem, the Endangered Species 
Act. Wildfire poses a huge threat to many wildlife species, yet 
ESA is often used to limit activity, such as timber harvesting 
and grazing, the very activities that should be used to reduce 
fuel loads and diminish the threat to wildlife. The spotted owl 
has all but wiped out the timber industry in the West and 
drastically reduced grazing. By the way, over half of the 
Mexican spotted owl nesting sites were destroyed in the Wallow 
Fire alone. How long do we have to watch everything from 
wildlife habitats, subdivisions, to natural resource wealth go 
up in smoke on the nightly news before our country wakes up and 
calls for a stop to the mismanagement of these public lands?
    The Catastrophic Wildfire Prevention Act goes to the heart 
of the problem. Regulations that have led to overgrowth of 
fuels, it will expedite grazing and thinning projects and 
encourage free enterprise solutions on Federal lands that will 
reduce the threat of catastrophic wildfire, ultimately reducing 
threats to communities, the landscape, and endangered species. 
It puts special focus on two priority areas: The wildland-urban 
interface and the endangered species habitat. If the agencies 
miss the deadline, it automatically deems those projects 
compliant under NEPA. Wildfire does not wait for endless 
deliberation in high-risk situations. Neither should we. Still, 
the bill allows for a 30-day public review and comment period. 
No longer would radical environmental groups be able to hold 
off until the last minute to bring a project to its knees.
    Finally, this bill requires the use of existing ESA 
emergency provisions which allow for informal consultation. 
This bill is just common sense. It will put people to work and 
help countless communities while improving the health and 
safety of our forests. Again, thank you for the opportunity to 
testify today, and I look forward to any of your questions.
    [The prepared statement of Mr. Cook follows:]

  Statement of David Cook, Public Land Rancher and NCBA Federal Lands 
Vice-Chair, National Cattlemen's Beef Association, Public Lands Council 
   & Arizona Cattle Growers Association, on Bills to Reduce Risk of 
   Catastrophic Wildfire, Improve Forest Health; ``The Catastrophic 
                   Wildfire Prevention Act of 2012''

    Dear Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    The National Cattlemen's Beef Association (NCBA), Public Lands 
Council (PLC) and Arizona Cattle Growers Association (ACGA) appreciate 
the opportunity to voice to the Subcommittee on National Parks, Forests 
and Public Lands our strong support for H.R. 5744, the Catastrophic 
Wildfire Prevention Act of 2012. H.R. 5744 was introduced by 
Congressman Gosar (AZ) to address the forest health, public safety, and 
wildlife habitat threats presented by the risk of wildfire, including 
catastrophic wildfire, on National Forest System lands and public lands 
managed by the Bureau of Land Management (BLM). The legislation would 
require the Secretary of Agriculture and the Secretary of the Interior 
to expedite forest management projects relating to hazardous fuels 
reduction, forest health, and economic development. Timber thinning and 
livestock grazing projects aimed at reducing hazardous fuel loads on 
our Nation's forests would be expedited, particularly in forests 
surrounding communities.
Dire Situation Facing the Nation's Forests
    Fires are a natural occurrence in forest ecosystems in North 
America and, when occurring in healthy forests, should be considered 
beneficial. Fire acts to remove excess debris including dead and dying 
trees and herbaceous material, providing sunlight and nutrients for 
subsequent growing seasons. Removing young trees where sufficient 
canopy cover exists helps maintain a balance within the forest system. 
However, while naturally occurring fire is good for healthy forests, 
catastrophic wildfire--a result of excessive forage and trees--causes 
great harm to forest ecosystems. Roughly four decades of severe 
mismanagement of our National Forests has resulted in vast areas of 
public lands that have either recently experienced or are at risk of 
experiencing catastrophic wildfire. According to the Evergreen 
Foundation, forest density has increased 40 percent in the U.S. over 
the last 50 years.(http://evergreenmagazine.com/pages/Forest_Facts-
v2.html). Also on the rise, largely as a result of this overgrowth, is 
insect infestation. According to the U.S. Forest Service, thinning 
trees would help put a stop to the growing pine bark beetle epidemic, 
which currently affects over four million acres across South Dakota, 
Wyoming and Colorado alone (http://www.fs.fed.us/rmrs/bark-beetle/faq/
). Under current management, however, the infestation is leading to 
dead trees--and even more risk of catastrophic fire.
    According the USDA Forest Service Rocky Mountain Research Station 
in Missoula, Montana there are vast areas of federal land managed by 
the federal government which are not meeting ``condition class I'' 
standards. ``Condition class I'' classification means fuel loads are 
within their historical range. According to the research station's data 
released in February 2001 (which is the most recent data), only 31% or 
about 52 million acres of forested land managed by the federal 
government are classified as ``condition class I,'' leaving more than 
two thirds of the forests with fuel loads exceeding historical levels, 
which puts those lands and the surrounding areas at risk of wildfire 
(potentially catastrophic). Specifically, lands designated as 
``condition class II,'' or lands characterized by vegetation that is 
moderately altered from historic levels, equate to about 66 million 
acres. Lands classified as ``condition class III,'' or lands 
characterized by vegetation that is significantly altered from historic 
levels, consists of about 50 million acres (http://www.firelab.org/
ScienceApps_Files/downloads/coarsescale/data_summary_tables.pdf--Rocky 
Mountain Research Station report).
    What are the effects? According to the National Institute for the 
Elimination of Catastrophic Wildfire, overstocked tree stands and dense 
canopies have contributed to ``such disastrous fires as the 2002 Hayman 
Fire in Colorado, the 2008 fires in Trinity and Siskiyou counties of 
California, and the 2011 New Mexico and Arizona fires; more than one 
million acres of valuable national forest resources have been destroyed 
by these wildfires alone.'' (http://www.stopwildfire.org/). In Texas in 
2011, roughly 4 million acres, nearly 3,000 homes and over 2,700 other 
structures were destroyed by wildfire.
    This year, this situation does not look much better. As of last 
month, over 25,000 fires had burned well over a million acres just this 
year (http://www.amforest.org/images/pdfs/AFRC_Newsletter_6-22-12.pdf). 
According to the National Interagency Fire Center, ``Worsening drought 
conditions in the West are leading to below normal live and dead fuel 
moistures and above normal Energy Release Components (ERCs) from the 
southern California mountains east through New Mexico and Colorado, and 
north through Montana and the Dakotas. Expanding drought in the Midwest 
could lead to low fuel moistures in the Ohio and Mississippi Valleys. 
Additionally, many of these areas have increased fine fuel loading from 
lingering dead, standing fuels and below normal snowpack, creating a 
heavy and continuous fuel bed'' http://www.predictiveservices.nifc.gov/
outlooks/monthly_seasonal_outlook.pdf.
    One need only take a look at individual states to know the 
seriousness of the situation.
    Colorado, for example, has seen over 85,000 acres and many 
structures burn, with more expected as the summer progresses. According 
to the American Forest Resource Council (AFRC), the state has vast 
acreages of lodgepole pine dying off due to insect infestation, but 
virtually no action has been taken to protect or thin the forests. 
Colorado has also lost most of its sawmilling infrastructure due to 
litigation, appeals and the inability of the Forest Service to offer 
timber sales. The southwestern United States, says AFRC, is facing the 
same fate. New Mexico has already seen nearly 350,000 acres burned. 
Fires are also taking a heavy toll in Montana, Nevada, California and 
Oregon. Southeastern Oregon's ``Long Draw'' fire, the biggest Oregon 
burn since 1865, spans over a half-million acres and has officially 
claimed 200 livestock; 400 more cattle are missing. Ranchers in this 
area and across the west will be in dire need of pasture. Some of them 
will likely go bankrupt and out of business.
What's the Cost?
    The fiscal costs of wildfire extend far beyond just suppression. 
However, suppression expenditures (aviation, engines, firefighting 
crews, agency personnel, etc.) are nonetheless formidable, adding up to 
over $1 billion annually. And even though the agencies are dedicating 
more and more resources to wildfire suppression (the U.S. Forest 
Service spends nearly half its budget fighting fire), the number of 
burned acres continues to rise (http://www.idahoforests.org/img/pdf/
FUSEE.pdf).
    Fire suppression costs do not account for local and state 
governments' expenditures, or for the loss of private property, timber 
and forage loss, damage to utility lines, evacuation aid, and many, 
many more costs. The National Institute for the Elimination of 
Catastrophic Wildfire estimates that ``overall damage costs of 
wildfires range from three to 10 times fire suppression costs, not 
counting associated property losses and personal injuries and deaths'' 
(http://www.stopwildfire.org/). For ranchers, the costs include dealing 
with displaced cattle; lost pasture that takes years to recover; 
repairing fences, waterlines, and other infrastructure; and death loss 
of livestock to fire. In Arizona in 2011, the Arizona Cattle Growers 
Association reported that major fires impacted at least 100 ranching 
families and displaced approximately 10,000 head of cows and 8,000 head 
of calves.
Why does this situation exist?
    It has become all too clear from the millions of charred acres 
across the west, that the planning process currently in use by the 
federal agencies is woefully broken. Planning, studying, consulting, 
litigating, appealing then planning and studying more for months and 
even years on end is not working and must be changed. How long do we 
have to watch subdivisions go up in smoke on the nightly news before 
our country wakes up and stops the dangerous mismanagement of public 
lands?
    There are many reasons why the federal government finds itself in a 
situation where over two-thirds of the land it manages is at risk of 
catastrophic wildfire due to fuel loads in excess of historical norms. 
The various reasons for the burgeoning fuel loads have one common 
theme: overregulation and, as a result, environmental litigation that 
creates a self-perpetuating cycle. According to the BLM, livestock 
grazing has been reduced on BLM lands by as much as 50 percent since 
1971, while the timber industry has been nearly destroyed over the last 
30 years--all almost entirely due to federal laws and regulations and 
predatory environmental groups.
    For far too long we have allowed outside interests and bureaucratic 
paralysis to dictate the management of our Nation's forests. Our 
federal government needs to reduce the current bureaucratic planning 
process and litigious playing field that our forests have been subject 
to for most of the last 30 to 40 years. Radical environmental groups 
masquerading as government watchdogs or protectors of the wildlife and 
forests drive their anti-livestock, anti-logging agenda through endless 
lawsuits and appeals--often times collecting attorney's fees in the 
process.
    One of the major impediments to efficient management of National 
Forest System Lands is the National Environmental Policy Act (NEPA), an 
act intended to require agencies to analyze alternatives when making 
major decisions. Unfortunately, the law has been abused to the point 
that NEPA has become an endless process, creating a state of gridlock. 
The excessive regulations resulting from NEPA have led to massive 
paperwork backlogs. On grazing Forest Service decisions alone, the 
agency estimates that there are currently approximately 2,600 grazing 
allotments that (as interpreted by the courts) ``need'' NEPA analysis. 
Such backlogs inevitably lead to litigation from extremist 
environmental groups, who wait in the wings to sue on process-based 
matters such as missed deadlines. Their lawsuits then suck up more 
resources, creating the aforementioned self-perpetuating cycle--and 
keeping agency personnel from doing the job we hire them to do: work 
with ranchers and other on-the-ground managers to care for the land. 
Instead, our members' livelihoods are being jeopardized, as are the 
land, the environment and wildlife. Such ``management'' is 
unacceptable.
    In addition to NEPA, the Endangered Species Act (ESA) has been 
abused to drive the anti-livestock and anti- multiple-use agendas of 
special interest groups. The irony is that wildfire poses a great 
threat to many wildlife species, yet the ESA is often used to limit 
activities such as timber thinning and livestock grazing that reduce 
fuel loads and diminish the instances of wildfire. Critical habitat 
designations for the spotted owl have all but whipped out the timber 
industry in the northwest. Mexican Spotted Owl and Goshawk critical 
habitat designations have impacted ponderosa pine/conifer forests all 
over the West, and have resulted in substantial reductions in livestock 
grazing over the years (of note: over half of the Mexican Spotted Owl 
nesting sites were destroyed in the Wallow Fire). Heaven help the sage 
grouse, should the U.S. Fish and Wildlife Service decide to list it as 
a ``protected'' species: the listing has the potential to limit or 
remove the most important tool to reducing the threat of wildfire on 
the sage brush sea--grazing. How can we continue to allow species 
``protection'' to be the source of such destruction?
    A number of other laws and regulations limit the management of our 
nation's forests to little more than preserves devoid of sustainable 
resource management through multiple-use activities.
Grassroots effort to bring commonsense solutions forward
    In 2011, in an effort to respond to the problems and threats faced 
by the livestock industry and communities across the west and in 
Arizona particularly, the Arizona Cattle Grower's Association drafted 
the Save Arizona's Forest Environment (SAFE) plan. This grassroots 
effort led directly to ACGA and the national livestock associations 
working together to pass policy and, ultimately, work with Congress to 
develop legislation to provide solutions.
    More than twenty-five entities, listed below, endorsed ACGA's 
original SAFE plan, including Arizona's state Senate and House. The 
plan's goal was--and is--to reduce fuel loads and take other 
appropriate actions so that the risk of catastrophic wild fire is 
reduced in Arizona's National Forests by providing for long-term, self-
funding mechanisms and infrastructure to eliminate the dangerous 
accumulation of overgrown trees and forests. More specifically, the 
plan seeks to achieve forest health, protect adjacent communities from 
catastrophic fire, achieve other forest management goals, and maintain 
Arizona's Forest lands in an ecologically sustainable condition. The 
ACGA proposes to use proven silvicultural practices, prescribed fire 
and proper forage management to achieve these goals. The Catastrophic 
Wildfire Prevention Act of 2012 shares the core principles of the SAFE 
plan.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




   Catastrophic Wildfire Prevention Act of 2012
    In an effort to provide efficiencies to the regulatory process for 
reducing fuel loads on federal lands, Congressman Gosar introduced the 
Catastrophic Wildfire Prevention Act of 2012. The proposed legislation 
will expedite projects (timber thinning and livestock grazing), 
encouraging free enterprise solutions on federal lands to reduce the 
threat of catastrophic wildfire, ultimately reducing threats to 
communities, the landscape, and endangered species.
    The bill proposes to first and foremost address areas with homes in 
the wildland/urban interface (where federal lands are adjacent to 
communities.) This element is important, as an estimated 44 million 
homes in the U.S. are currently located in fire-prone wildland/urban 
interface areas, and the Forest Service predicts a 40% increase in new 
homes in similar areas by 2030 (http://www.idahoforests.org/img/pdf/
FUSEE.pdf). It also focuses on the aforementioned ``At-Risk Forests,'' 
which include all federal land classified as condition II and III by 
the Rocky Mountain Research Station report titled ``Development of 
Coarse-Scale Spatial Data for Wildland Fire and Fuel Management.''
    In these at-risk areas and in areas where endangered species are 
found, the bill expedites projects that focus on surface, ladder, and 
canopy fuels reduction activities and that enhance threatened and 
endangered species habitat. Informal consultation under the Endangered 
Species Act would be completed under the emergency provisions of the 
Act. Prior to the listing of any species under the Endangered Species 
Act research will be conducted to measure the impact a listing will 
have on fuel loads. Recovery plans and critical habitat designations 
will have catastrophic fire risk assessment analysis included.
    Exceptions to utilization standards would be made for livestock 
grazing for fuels-reduction projects in the at-risk areas. Timber 
harvesting and thinning would also be authorized projects. Resource 
management plans, land use plans and forest plans would not have to be 
amended while implementing authorized projects. The Secretaries would 
complete an environmental assessment for timber harvest and grazing 
projects within 30 days after notice in the federal register. Failure 
to meet this deadline would deem projects compliant with all 
requirements under NEPA. Grazing projects would be approved for a 
minimum of 10 years and timber projects for a minimum of 20 years. 
Adequate public review (30 days) would be allowed. In order to prevent 
litigation, the only members of the public allowed to comment on the 
final decision would be those who commented on the draft.
Conclusion
    The National Forests are capable of providing the many values and 
benefits that people expect from our forests, but they need proper 
management in order to provide these values. The livestock industry 
supports prescribed fire, commercial timber harvest, noncommercial 
treatments and enhanced forage harvests on federally-managed forests. 
Further, we believe that commercial utilization payments could play a 
large role in bringing back private investment to help finance the many 
and extensive treatment needs of the forests.
    It will be through the empowerment of private investment, 
individuals and communities that we set the guidepost for future forest 
planning. We need to direct and see through the initiative to return 
people to work in the woods, protect habitats and communities and 
return to the days of 5,000 to 10,000 acre fires in our forests--not 
500,000 acre catastrophes.
    We urge the committee to advance the Catastrophic Wildfire 
Prevention Act of 2012 without delay, to enact commonsense solutions to 
reduce the threat of wildfire on public lands. H.R. 5744 will provide 
tools the agencies need to effectively manage the Nation's forests.
    Again, we thank you for the opportunity to provide these comments 
to the Subcommittee. If you have any questions concerning these 
comments or need further information, you may contact Dustin Van Liew 
at the Public Lands Council and National Cattlemen's Beef Association 
as our point of contact.
                                 ______
                                 
    Mr. Bishop. Thank you very much, and I appreciate how both 
of you hit the mark right there. That is very kind. You were 
watching it very well.
    We now are opening it up to questions now of Mr. Markey's 
bill, Mr. Gosar's bill. I will yield my time to Mr. Gosar 
because I know you are probably on the same airline that Mr. 
Shamley is going on. We will talk to you about how you should 
be using Delta later on.
    Mr. Gosar, allow me to yield my time to you.
    Dr. Gosar. I appreciate it.
    Ms. Wagner, Mr. Roberson, so timetables are failing us.
    I mean, I have just witnessed, just for a contract to get 
private industry for large swaths for the 4FRI initiative 
taking 6 months, and we knew it was coming. I mean, this is 
inappropriate. In fact, I am very aware that the chief had to 
fly in to Albuquerque to even oversee these types of contracts. 
I mean, this isn't rocket science, and I know we have to get it 
right.
    So you disagree with the timetables here. What would you 
like to see as far as timetables, 6 years, 5 years? I mean, it 
is inappropriate what we are doing right now, so give me a 
timetable very quickly.
    Ms. Wagner. What I would like to say is I appreciate the 
leadership of local elected officials. In many cases, they are 
the heart of some of the most successful work that we are doing 
out on national forests. States are playing a very similar 
role. We agree there is more work to be done. We would like to 
work with you to find all of the right tools to be most 
expeditious and efficient----
    Dr. Gosar. So I am limited on my time, so I really want to 
recapture this. Give me a timetable. Give me what you look at 
as a timetable. We said 60 days. Give me a timetable.
    Ms. Wagner. Sixty days for the Governors to identify high 
risk areas?
    Dr. Gosar. Yes. Tell me what is wrong with this.
    Ms. Wagner. There is nothing wrong with it. I believe that 
it would be advantageous to look at the State action plans and 
assess where they identify priorities.
    Dr. Gosar. And in good stewardship, you should already be 
doing that, should you not?
    Ms. Wagner. Absolutely, yes.
    Dr. Gosar. Thank you.
    Mr. Roberson, you actually said again you weren't in favor 
of this timetable. I want to hear your specifics very quickly.
    Mr. Roberson. I am in agreement with Associate Chief 
Wagner. I believe that we need to look at our local plans. We 
are looking at our local plans, our cohesive fire strategy 
bills on those plans in the States, and I believe together we 
identify those high risk areas and go out and work on them.
    Dr. Gosar. So what is wrong with 60 days? So my problem is, 
I don't see a problem with 60 days because let me explain to 
you. I see a lack of trust by the Federal Government with 
counties and States. I absolutely see that, and that has got to 
stop. Trust is a series of promises kept, and I don't see the 
Federal Government keeping their promises one iota. There are 
limited finances we can use here, and when we are starting to 
look at these widespread swaths to take care of, it is going to 
have to reinvigorate the private sector so that you are 
returning money on investment.
    Mr. Cook, I mean, give me your experience, I mean, we just 
saw this Wallow Fire, it was a disaster; I mean, an absolute 
disaster because this forest isn't returning anytime soon, is 
it?
    Mr. Cook. Not only is it not returning anytime soon, it has 
affected the permittees and the families. So, of the large $56 
million, I would give the total to of the loss in revenue and 
economic growth and rural communities.
    Dr. Gosar. And you have a kinship and a stewardship with 
the forest and the environment, don't you, because, I mean, you 
have to watch this very carefully, right?
    Mr. Cook. You know, communities and public land ranchers, 
we are one with the land, we want the land to be in the best 
shape it possibly can, we are the stewards of the land, and 
many times the agencies hand tie us to what we can do. I am 
reading a biological assessment now on a grazing allotment 
where the number one threat to the spotted owl is catastrophic 
wildfire, according to the recovery plan, and the biologist 
doesn't even mention that, but they want to reduce grazing, and 
it does not address the fuel load whatsoever.
    Dr. Gosar. Wow, amazing. Embracing private enterprise 
actually creating money and royalties actually goes to, I 
think, it is our education system, is it not?
    Mr. Cook. I agree. In fact, what I was just speaking about 
back here was that I saw the PILT information in the Secure 
Rural Schools Act, I know it has been funded for one more year, 
but you know, in the West, in rural areas, we want to be put to 
work. We want industry. We want jobs for our communities. We 
don't want government handouts. And we want to put loggers back 
in the forest. We want to put cattle back on the land. And we 
want to manage those things within our State the way we want to 
do so.
    Dr. Gosar. Mr. Shamley, I know you just got back from a 
conference on the West Coast, and you have some amazing 
information, do you not, that you want to share with us?
    Mr. Shamley. Yes. One of the key things I think to note is 
there is a growing movement amongst academia, former employees 
of the agencies, and I am in full agreement of it, one of the 
only long-term fixes is disposal of the forest back to the 
States of the public lands because there is no feasible way to 
manage the forest as the system is now, and we are going to 
keep losing millions, keep destroying massive amounts of 
habitat, as we saw in the Wallow Fire, and we are hamstrung and 
unable currently to do anything about it. Our county 
stewardship program is bold. It is working, and we are actually 
the ones protecting the spotted owl packs. I don't see any of 
the litigants there cutting alongside of us.
    Dr. Gosar. You are actually blazing a trail that is just 
pretty much common sense, is it not?
    Mr. Shamley. Yes, it is, and we created a lot of jobs for a 
lot of people already.
    Dr. Gosar. Thank you.
    I yield back.
    Mr. Bishop. I appreciate that.
    Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    One of my experiences recently, is I flew to the Island of 
Hispaniola down south near Florida. Flying onto the island, you 
see half of the island is lush green and the other half is 
barren, Dominican Republic and Haiti, and there must be 
something wrong there.
    And Mr. Cook, I am not going to argue with you, sir, 
because you know your business better than I do, but 
apparently, you know, it is like NEPA and the spotted owl are 
the reasons for all our problems here, and so, you know--but we 
ought to also look, there are places in the world where we can 
see the consequences of lack of regulations or lack of control 
over natural resources. And I also don't understand the science 
as well as Ph.D.s and scientists, but on issues of climate 
change, anyone who wants to see evidence of climate change, I 
invite you to the islands where I am from, and you will see 
coconut trees inside the water, you will see house stilts in 
the water, you know, because of the rising sea, and at this 
time, I yield the remainder of my time to Mr. Markey.
    Mr. Markey. I thank the gentleman very much.
    You know, in 2012, we are beginning to emerge from the 
great recession, but a new drought for a new era is threatening 
a majority of our country. The Dust Bowl was surely due to an 
actual parched state, but it was also man made as years of poor 
land management and farming on marginal land had sapped the 
strength from our soil, leaving it to turn to dust as the rain 
dried and the winds whipped.
    This flash drought of 2012 is also man made, but not 
because we failed to learn the lessons of the land. We did. It 
is man made because we have failed to heed the warnings from 
nature. The drought of 2012 is yet another data point in the 
ever-growing canon of climate catastrophes.
    Mr. Romm, the frequency, the intensity of these fires in 
the West, how much of it do you think we can attribute now to 
this rapidly changing climate here in the United States and on 
the planet?
    Dr. Romm. Well, you know, I think that is the question of 
the day, and I had an article in Nature, which I would like to 
get into the record on the next dust bowl. I think drought is 
the most pressing problem caused by climate change.
    Let me frame it this way: I think we know global warming 
makes extreme weather more likely and many kinds of extreme 
weather more destructive, and the analogy people have used is a 
baseball player on steroids, you know, you don't know that any 
individual home run was caused by the steroids, but if you see 
70 home runs in one season, you are breaking records you never 
broke before, then you know that, you know, and this is what is 
going on with the atmosphere, it is juiced on warming.
    Scientists knew that there were three reasons that global 
warming was going to make wildfires worse. This has been long 
known. Obviously, whenever it is hotter, it is drier, the 
Palmer Drought Severity Index is based on soil moisture, so you 
know soil moisture is driven by how much evaporates, how much 
comes down, and how much evaporates. So when it is hotter, you 
get more evaporation, so global warming makes droughts worse, 
and it makes droughts longer.
    The second thing that was known is you are going to get 
earlier snow melt. As the seasons--as spring--you know, we had 
no winter. Winter was kind of like spring this year, spring was 
like summer, and summer is like hellishness, and that is global 
warming. So when you have your spring become summer, the snow 
melt goes early. Colorado had staggering loss of ice, and it is 
actually interesting, I lived in both your district, Mr. 
Markey, at one point, and I lived in your district, Mr. Tipton. 
I worked for Amory Lovins at Rocky Mountain Institute in Old 
Snowmass, and so I know what, you know, the place looked like 
20 years ago, and I know what it looks like now. And when you 
get the earlier snow melt, many of these Western regions, 
including, you know, Colorado where I lived, doesn't get a lot 
of precipitation in the summertime. It requires the stream flow 
from the reservoir of snow, snow and ice, that is the 
reservoir, and so the second impact that global warming causes 
drought and wildfire is you lose the snow melt earlier.
    Third is that global warming actually changes the climate, 
that is why it is called climate change. It shifts the 
subtropical dry belts, and unfortunately, when you expand the 
subtropical dry belt, that hits the Southwest. We are going to 
see less precipitation, and that is the double whammy that 
States like Colorado are going to be hit by. More soil moisture 
evaporation.
    And then, finally, the bark beetle, you know the bark 
beetle, which we talked about----
    Mr. Markey. My time the gentleman yielded to me, and I am 
very appreciative of, but our time has expired. So we will come 
back again.
    Dr. Romm. We will come back to the bark beetle.
    Mr. Bishop. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    I think to get this focus back on the topic of the hearing, 
a simple question, is the bark beetle an imminent threat? Maybe 
we can just--yes or no I think covers it.
    Ms. Wagner, can we start with you?
    Ms. Wagner. There is concern for the impacts the bark 
beetle have.
    Mr. Tipton. Is it an imminent threat?
    Ms. Wagner. I would agree.
    Mr. Tipton. Yes.
    Sir?
    Mr. Roberson. Yes, sir, on the 1.3 million acres of public 
land.
    Mr. Tipton. Yes, great. Thanks. Dan?
    Mr. Gibbs. Congressman, yes. I brought a few so folks can 
see how small it is and how it----
    Mr. Tipton. Keep them captive. Great. Thank you, Dan.
    Sir?
    Dr. Romm. The bark beetle is an invasive species. It is not 
a yes or no question. It is a long-term threat. It is an 
invasive species that has become invaded because the climate 
changed, and the climate is going to keep changing, so it is 
going to keep invading. So it is an imminent threat, and it is 
a threat 20 years from now, and it will be worse in 40.
    Mr. Tipton. Thank you, sir. Mr. Cook?
    Mr. Cook. Absolutely, sir.
    Mr. Tipton. Mr. Shamley?
    Mr. Shamley. Yes, absolutely.
    Mr. Tipton. You know, a Senator from our State, Colorado, 
had requisitioned a study, came at the request to the U.S. 
Forest Service and said that the primary reasons that we are 
seeing the bark beetle infestation is because of the Forest 
Service actions regarding approving of timber harvesting, 
active management, lack of active management, drought, lack of 
allocation of resources to timber management, limited access to 
areas due to the inability to be able to provide access routes, 
Federal land designation, which precludes forest treatment as 
the primary contributing factors to the rampant bark beetle 
outbreak.
    So, Ms. Wagner, I guess I would like to ask the question, 
since this was a report that came out of the Forest Service, 
which I think helped identify the problem, do you believe that 
an expedited approval authority can help us actually do that, 
given the information we received out of the Forest Service in 
Southwest Colorado, that by actually getting in and thinning 
these devastated areas, we increase the water table and we 
increase the health of trees?
    Ms. Wagner. We would like to do more in bark beetle 
restoration.
    Mr. Tipton. Thank you so much.
    With that, Mr. Chairman, I would like to yield the balance 
of my time to my colleague from Arizona, Mr. Gosar.
    Dr. Gosar. So, Ms. Wagner, what we have really is a 
pandemic. It is not just about the bark beetle; it is about 
cankers and blights as well because what we do is, it is like 
somebody here who has got the measles and we are all stuck 
around here so they are much more contagious to everything else 
around here. We have different species that have different 
requirements, like the ponderosa pine. We want to see 10 to 25 
trees per acre instead of the 600 trees. So we have a problem 
here, and we have to address it, and by allowing them to stand, 
we are just aggressively creating the pandemic, are we not?
    Ms. Wagner. Yes, we have serious concerns about insects and 
disease and their prevalence because it is droughty; it is hot.
    Dr. Gosar. So the little jar that the gentleman showed us, 
it is just a focal point for the disease if you don't get rid 
of it, because what you are doing is if there are areas that 
they continued to create the infestation, true?
    Ms. Wagner. Yes, conditions are ripe for that.
    Dr. Gosar. So the longer it stands, the bigger the problem?
    What do you think about that, Mr. Cook?
    Mr. Cook. Well, I ranch in the ponderosa pine area up to 
7,000 feet in elevation, and I see what you are talking about, 
and what I don't understand is when you have people talk about 
a drought, you have all of these trees competing for that same 
drop of water, so the forest needs to be thinned. I don't know 
why we all can't agree with that and move forward, and I think 
we would have a much healthier forest if we would just do so.
    Dr. Gosar. Mr. Shamley, would you agree with that?
    Mr. Shamley. Yes, I would, because I can take anybody here 
that wants to go see tours of our once great forest and show 
you whole entire hillsides, and the Forest Service personnel 
are the ones who indicated that due to it being too thick of a 
tree stands and the lack of activities in there, they became 
weakened because they were competing for water. At that point 
is when the beetle moved in.
    Dr. Gosar. Well, I want to take us back to the Rodeo-
Chediski fire there. And what we saw is mitigation by the 
tribes, which was very interesting because do they have the 
same kind of problem on the tribal lands as we do on the public 
lands?
    Mr. Shamley. Not at all.
    Dr. Gosar. Why not?
    Mr. Shamley. Because they are treating the lands. They are 
being proper stewards, and they are thinking about 
conservation, not preservation.
    Dr. Gosar. I have to stop you there. So they are thinking 
about conservation and they are thinning the forest?
    Mr. Shamley. Yes. And creating----
    Dr. Gosar. This is an oxymoron. I really can't get this.
    Mr. Shamley. Our fire, sir, as you know as well as anybody, 
came to a halt when it hit the Apache Reservation where they do 
do treatments.
    Dr. Gosar. So let me ask you one last question. A dynamic 
forest is all old growth trees, or is it young growth, medium 
growth, and old growth trees?
    Mr. Shamley. It is a full mixture, sir.
    Dr. Gosar. Thank you very much, I appreciate it.
    Mr. Bishop. Once again, I appreciate this.
    Before I turn to Mr. Markey, I assume you have some more 
questions, before I do that, Mr. Shamley, I don't know if Mr. 
Cook is on the same flight, Representative Gosar, I know you 
have a flight. Do not think it is going to be offensive if you 
leave to go to the airport when you need to go to the airport.
    Mr. Shamley. OK, cool.
    Mr. Bishop. We are happy to have you here as long as you 
can stay, but when the witching hour hits, please feel free.
    Mr. Shamley. OK.
    Mr. Bishop. Mr. Markey, did you have any other questions?
    Mr. Markey. Yes, I do, thank you.
    Mr. Bishop. Please.
    Mr. Markey. I am just going to come back to you, Mr. Romm. 
I think you are just trying to be reflective of what is 
happening in explaining the bark beetle and why it is now 
reproducing not once a year but twice a year, why the change in 
temperatures are causing that to happen, why it is expanding 
its footprint, hitting larger and larger areas because of 
climate change, because of the changing temperatures, and you 
are just trying to explain that scientifically as a reality 
that has led to the metastasization of the problem in the same 
way that New England, our winters are now 4 degrees warmer than 
they were in the 1970s, so the Massachusetts and Vermont maple 
trees, they are going further and further north, heading toward 
Canada, and that is just the change in climate, the change in 
temperatures. I mean, we barely had a winter last year.
    All you are doing is just pointing out the facts that the 
maple trees are going further and further north and the bark 
beetles are reproducing twice a year and able to cause more and 
more damage, and the climate is at the heart of it. It is a big 
change that is occurring.
    And so I don't, you know, I don't know why, you know, we 
just can't agree on that because it is not just the West, it is 
New England, it is a common problem that we all have to deal 
with and the consequences, you know. First of all, you can put 
a band-aid on it here and there, and you try to put together 
policies that deal with the band-aid, but you have to step back 
and look at the larger kind of climate cancer that is out there 
and say, what can we do to reduce the longer-term impacts that 
are going to be profound?
    And I think, Mr. Romm, that is what you are bringing to 
this discussion, and we thank you for that.
    Commissioner Gibbs, as a wildland firefighter, can you tell 
us how effective air tankers are in addressing wildfire 
situations like we saw recently in Colorado Springs?
    Mr. Gibbs. Congressman, I do think that the utilization of 
air tankers is important. I think it is most effective when you 
put resources on the ground for defensible space around 
communities, first of all, but if there is a large scale, you 
know, utilizing single engine air tankers or the big heavies 
are a positive. The big heavies, of course, can carry more 
slurry, but, you know, the single engine air tankers definitely 
have more versatility, they are easier to get around. Quite 
often, the big heavies cannot fly, of course, when it gets 
windy, and the single engine air tankers definitely tend to be 
more versatile, you can get more up in the air as well.
    Mr. Markey. Thank you, sir.
    You know, whether it is a flash flood or a flash drought or 
flash of lightning igniting wildfires, climate change is 
increasing the risk to all parts of the country. And what 
happens in the Midwest does affect Massachusetts, it does 
affect Arizona because there is an extreme weather food tax, 
there is higher prices for food coming to every American 
because of this drought. I mean, at $7 a bushel for corn, we 
are looking at real consequences.
    Can you talk about that, the economic impact, Mr. Romm, on 
every American?
    Dr. Romm. Sure. Well, I think--and certainly every American 
is very concerned about the, you know, explosion of the 
wildfires, but I think, and I have said, I mean I have read 
much of the literature, I have written a great many articles 
on, you know, I believe that it is through food prices that 
most people are going to experience climate change because, you 
know, people can adapt. We can go in when it is hot to an air 
conditioned room, but a farm is just out there exposed to the 
weather, and there is no question, food prices have been stuck 
at levels that we haven't seen in 20 years, and, you know, 
Oxfam projects that food prices are going to double or triple.
    Mr. Markey. Can I go to Mr. Cook then quickly? Are you 
concerned about the impact that the drought has on corn and 
other grain prices in terms of the impact that it is going to 
have on your business?
    Mr. Cook. Oh, absolutely. The cost association with corn 
prices directly affects our beef cattle prices, and they move 
together, and that opens up a whole other discussion. But of 
course, any agriculture producer in the West or Midwest is 
always concerned with drought.
    Mr. Markey. Do you think climate change is playing a role 
here in this expansive drought?
    Mr. Cook. My thoughts are a little bit different than 
probably yours, Congressman, with all due respect. Our timeline 
now, what you are speaking of since the 1970s to today is about 
a pebble on the size of a sand on a beach somewhere. I mean----
    Mr. Markey. Mr. Romm, is it a pebble on the sand on a 
beach?
    Dr. Romm. No, not at all. I don't think there is any 
question that the, you know, climate change is making the 
droughts worse. I think it is very important, and I don't know 
if there is going to be another round of questions, but people 
have to understand. There is a difference between just warming 
the average temperature and changing the climate, and there 
have been two or three major studies in the last several months 
that say when you lose the Arctic ice, you weaken the jet 
stream, and when you weaken the jet stream, weather patterns 
get stuck. And, you know, there have been two or three peer-
reviewed studies, so if you are asking why are heat waves 
lasting longer, why are highs sticking around longer, why are 
droughts longer, it's climate change driven by carbon 
pollution.
    Mr. Bishop. I am sorry to interrupt you.
    Mr. Markey. No, I appreciate it.
    Mr. Bishop. It is unfair because you had one second left 
when you were asked the question.
    Mr. Markey. No, I appreciate it, I appreciate it. Thank 
you.
    Mr. Bishop. Let me just ask one quick question on my own if 
I could of Ms. Wagner. I appreciate you being here, appreciate 
your service when you are up in the Northwest on the ground, 
and you learned your trade up there. A reference was made to 
baseball, which obviously piqued my interest, that home runs 
were a cause of steroids. Home runs are also caused of corked 
bats. So let me ask you about an alternative method here, Ms. 
Wagner.
    One of the witnesses has said that there is almost little, 
there is little empirical research to document the fact that 
lower fuel loads and reduction in ladder fuel reduces fire 
severity and causes suppression. Ms. Wagner, could you just 
describe some of the research that your agency has done with 
respect to the effects of fuel reduction on wildfire behavior?
    Ms. Wagner. Two specific research publications I can cite 
from the Angora fire in California and from the Wallow Fire in 
the Southwest. We have had our research scientists look at pre- 
and post-fire impacts and fuels treatments, we have seen a fire 
as recently as this summer on the Bridger-Teton National 
Forest, the Fontenelle, and through visual pictures as well as 
science, you can see the difference that a stand that is 
thinner that has had ladder fuels removed and how fire behaves 
when it encounters that environment. I would be happy to 
provide some of those research publications to the Committee.
    Mr. Bishop. Thank you, I appreciate that. Mr. Roberson, let 
me just ask one specific question from your testimony about 
H.R. 5960. It said in your written testimony that it adds 
mountain pine beetle infestation as areas eligible for applied 
silviculture assessments under the Healthy Forest Restoration 
Act in section 404. Section 404 does authorize the Secretary to 
conduct applied silviculture assessments on Federal lands that 
the Secretary determines is at risk of infestation by or is 
infested with forest-damaging insects. Can you simply define 
forest-damaging insects.
    Mr. Roberson. I believe that the term defines itself, sir. 
I would say that the mountain pine beetle would qualify then.
    Mr. Bishop. Actually you are correct, it does define itself 
in the statute that is already there. 402 does define forest-
damaging insects, which does include the mountain pine beetle, 
so I guess the question I would have to ask is how is this new 
authority that would be given to you, if it is already in 
statute?
    Mr. Roberson. We believe--some of the authorities were 
specifically for the Forest Service, and this may have been one 
of those. I can get back to you on that, though.
    Mr. Bishop. Yes, I think your testimony needs to be a 
little bit clarified in that particular area.
    Mr. Roberson. I can get back to you with an answer, sir.
    Mr. Bishop. Thank you. Let's see if there is another round 
of questions.
    Mr. Gosar, do you have any other questions you would like 
to ask? I will recognize you.
    Dr. Gosar. Ms. Wagner, when we have these heavy canopied 
forest fires, they are intense, are they not?
    Ms. Wagner. Yes.
    Dr. Gosar. So, in many cases, they actually sterilize the 
soil, do they not?
    Ms. Wagner. Post-fire we do an assessment, and we are able 
to determine the intensity of the fire, and in some cases, yes, 
we are seeing impacts to soil.
    Dr. Gosar. So is it easier to mitigate that, or is it 
tougher when you sterilize soil?
    Ms. Wagner. No, it is tough to recover from.
    Dr. Gosar. Our topsoil out in the West is much thinner than 
it is probably back East right now, are they not?
    Ms. Wagner. There are soil types that are definitely of 
concern when they are impacted by fire.
    Dr. Gosar. OK. So let me ask you a question. So, you know, 
we also have these inabilities for roadless rules that impact 
our harvesting process. I mean, they are a core part of how we 
are going into the forest. Tell me what part of a road 
mitigation is tougher to do than sterilized soil.
    Ms. Wagner. I am sorry, I am not following your question.
    Dr. Gosar. So when we do a road, an interim road to go to 
log, how is that mitigation worse than sterilized soil? If the 
answer is not----
    Ms. Wagner. I think we have the ability to design roads and 
place roads so they are low impact.
    Dr. Gosar. I would agree definitively.
    Mr. Shamley, tell me some of these other things that you 
have been doing that drew so much attention out in your local 
or your most recent speech.
    Mr. Shamley. Well, one of the big things, of course, was 
the multiple counties and the scientists actually there were 
reveled to hear about the county stewardship. You know, we had 
to use all the forests that the county possesses to protect 
health, safety, and welfare of the residents and pass drastic 
resolutions and bring the fight all the way to Washington, 
which we did in January, to move on to the forests that look at 
either, get something done or we are going to fix it.
    Now at that point, after Tidwell ditched the meeting, our 
locals, though, and they are the only ones I can give due 
credit to, not the agencies as a whole, local fire and fuel 
teams and our local supervisor, they are the ones who worked 
with us and said, yes, you are right, that area needs to be 
treated, and, yes, you are right the west side of Greer, which 
we are targeting, was completely left off any target plans by 
the U.S. Forest Service for treatment. Now, this town already 
tried to half burn down in the Wallow Fire or not try, it did 
half burn down. The other half that we are treating to protect 
the residents and mainly our watersheds and the only actions 
that are protecting the Mexican spotted owl pack, there was no 
plans by the agency. They completely left it off any plans or 
maps.
    Dr. Gosar. Mr. Cook, I know there is an example of this 
integral aspect that we are talking about, that we kind of 
really mimic this that actually shows that you can mitigate and 
take care of the forest and you can also have increased 
grazing, you can also have a number of different proprieties 
that you are increasing endangered species. I think it is a 
ranch in Utah, and it may be in Mr. Matheson's, if I am not 
mistaken, the ranch that shows everything being built. But 
there is a proper balance, is there not, that actually shows 
this working?
    Mr. Cook. Absolutely. And in speaking for myself, you know, 
we monitor the spotted owls on our own ranch, we pay for the 
monitoring ourselves because the agency fails to do so. They 
will go into consultation with the Fish and Wildlife Service 
and have a biological opinion that says they will monitor the 
species. We find that doesn't happen. So in fear of litigation 
and losing our permits, we actually hire the biologist who does 
the monitoring for the agency ourselves. What we have come to 
find out is the owls, in my opinion, and what I am seeing in 
the research is that the owls do not breed and do not reproduce 
on the years that cattle are not present in that thick wooded 
forest. So we have a lot of data, a lot of science that shows 
the grazing impacts, when done in the proper methods does 
nothing but benefit the endangered species.
    Dr. Gosar. So I guess I am going to go back to the 
organism, I am a science guy, I am very astute about botany as 
well, sir. So when you have an unhealthy situation, it 
endangers everything, you know, you don't have enough light 
going to the canopy bottom, you don't have a diversification of 
different species, and therefore what it actually does is it 
hurts the spotted owl, it hurts the whole different plethora of 
species within that environment, does it not?
    Mr. Cook. It absolutely does, and that is the discussion we 
have been having with the Forest Service and the Fish and 
Wildlife Service today is cattle grazing creates transition 
zones, and around these transition zones in these overgrown 
steep forests and conifer, the cattle creek transition zones 
around the wildlife drinkers and the salt blocks and stuff, and 
we find that is what benefits the species, actually, the cattle 
being there.
    Dr. Gosar. Thank you.
    Mr. Bishop. Thank you very much. I assume you were talking 
about Deseret?
    Dr. Gosar. Yes.
    Mr. Bishop. That is my district, I claim that. Thank you.
    Mr. Sablan, do you have any other questions?
    Mr. Markey, do you have other questions?
    Mr. Markey. Yes, I do, please.
    Can you bring this up here?
    You know, and this discussion about steroids, I just love 
it.
    And I just happen to have a chart; it is now 4 years old, 
but it still works for the purpose of this discussion. And so, 
I had my staff go back about 4 years ago and track the number 
of players in the Major Leagues who had more than 40 home runs 
per year. In over a period from 1920, Babe Ruth's first over-
40-home-run period, all the way up to 2009, the average was 3.3 
players per year averaged more than 40 home runs. Mickey 
Mantle, Willie Mays, you go through every--Ted Williams, you go 
through every phase.
    Then all of a sudden, in about 1995, it started to spike up 
to 8, 9, 10, 11, 12, 13 players hitting more than 40 home runs. 
And it stayed very high until Major League Baseball, after 
congressional hearings, finally decided they were going to test 
for steroids, artificial substances put into the bodies of 
people. No longer a better diet and corked bats and smaller 
ballparks and bigger players, but let us just check for the 
steroids. And guess what? It went right back down to 3.3 
players per year who were averaging more than 40 home runs per 
year.
    And by the way, this chart looks exactly like the spike in 
the amount of CO<INF>2</INF> in the atmosphere and the rising 
temperatures on the planet since the dawn of the industrial 
age, when human beings started to inject additional carbon 
dioxide into the atmosphere. And it will take a number of 
congressional hearings ultimately before we will finally come 
to realize that it is not sunspots, and it is not these other 
ingredients that the climate deniers want to attribute this 
dramatic rise to, in the same way that Major League Baseball 
did all the way from the Commissioner down to the lowliest 
ballplayer who all had a stake in this phony system that was 
put together, but rather just the reflection of the reality 
that once we get the artificial additional chemicals out of our 
system, then the climate will start to calm down, the wildfires 
will start to calm down, the droughts will start to calm down. 
But until we get the steroids out of the climate, until we 
admit that we are playing a role in this, then all of the other 
issues are just Band-Aids trying to deal with the harm that is 
being done both to the players, you know, and to the game, the 
whole planet, on an ongoing basis.
    Mr. Romm, what do you think about this? It is an eerie 
correlation; is it not?
    Mr. Romm. Yes. And it has moved beyond correlation to 
causation. And you can move beyond correlation to causation 
when you have an underlying theory. We know that carbon dioxide 
from burning fossil fuels traps heat. We know--they call them 
greenhouse gases for a reason. They didn't make up the term 
``greenhouse gases'' because the gases don't act like a 
greenhouse. They do. And if there were no greenhouse gases in 
the atmosphere, the planet would be 60 degrees Fahrenheit 
colder, and there would be no civilization as we know it.
    I would just like to make a point. I have learned a great 
deal at this hearing. I am not an expert on short-term forest 
management. I am kind of an expert on the medium and long term. 
There is no question that trees compete for water, and there is 
no question that drought is a big problem for trees, and it 
also exacerbates the bark beetle problem because trees kill 
bark beetles by releasing sap. But I have now heard this theory 
that the solution to the drought problem is that we thin 
forests so that trees don't compete so much.
    The problem is we are on a track where your districts are 
going to see levels of soil moisture in the coming decades that 
are worse than the Dust Bowl, which was a minus 3 on the Palmer 
Drought Severity Index, which means that you are going to thin, 
there is going to be more drought and wildfire, and another 
Congressman from your district in 20 years will come and say, 
we have to thin some more. And then 20 years after that, we 
will thin until there is nothing left.
    The thinning to deal with drought is not a sustainable 
solution; it is the end of all trees in all of your districts. 
And as someone who as skied in your district and lived in your 
district and hiked in your district, I must say I love your 
district.
    Mr. Markey. Mr. Romm, I thank you.
    In the same way that we knew that utility infielders and 
substitute outfielders who went from 13 home runs to 50 home 
runs--somehow we knew they weren't Mickey Mantle and Willie 
Mays, and something must be wrong, and that the extra 
weightlifting that they were doing wasn't making them Mickey 
Mantle and Willie Mays. I think most people know there is 
something wrong, and we are contributing to it. And as soon as 
we admit it, I think--and I mean the beef industry and every 
other industry--I think we will get to the heart of the 
solutions we have to put in place.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    Let me just ask one last question, and I hope I think this 
will be the end of it. You have planes to catch.
    Bobby Richardson was probably the best second baseman in 
the history of the world. I loved him. Casey Stengel once said, 
he doesn't smoke, he doesn't drink, he doesn't stay out at 
night, and he still can't hit 250.
    Mr. Markey. Although he was roommates with Mickey Mantle 
for 15 years.
    Mr. Bishop. That was Billy Martin. No, I am sorry, that was 
Bob Cerv and Roger Maris.
    It was the perfect non sequitur that not smoking, not 
drinking, not carousing can help you live longer, but it 
doesn't help you hit a curve ball. So I appreciate that.
    Unless there are other questions from any Members, I want 
to thank our witnesses for being here. There may be additional 
questions from Members that will be sent to you. If you do, I 
would ask you to respond in a very timely manner with that.
    Mr. Bishop. I thank you. I hope you make your flights. I 
appreciate the chance to visit with you. I do appreciate all 
the testimony that was given here today.
    Thank you very much, and this Committee will stand 
adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

       Statement of The Honorable Mike Coffman, a Representative 
                 in Congress from the State of Colorado

    Thank you, Mr. Chairman, for holding this important hearing on 
these proposals for reforming forest management policies.
    Over the past several months it has become beyond clear that we 
need a change in the way we manage our national forest lands.
    In Colorado, the Waldo Canyon and High Park fires destroyed over 
100,000 acres and 600 structures. The reported insured losses total 
$450 million. In addition, Colorado had to authorize $25 million in 
emergency relief to combat the fires.
    The stakes are too high for us to continue with current 
insufficient forest management plan. Acting with expediency to remedy 
the problem could prevent millions of dollars of costly damage to our 
communities.
    I have met with County Commissioners, Forestry Officials and 
conservation experts who have pleaded for strong, comprehensive 
solutions to combat the emergency situation of wildfires in their 
areas.
    Over the last few decades we have seen a stark rise in the number 
of wildfires in Colorado. During the 1980s there was an average of 
roughly 1200 wildfires per year, but during 2000-2009 there was an 
average of 2400 wildfires per year.
    An accumulation of regulations and environmental litigation have 
resulted in limited means available to forest officials to treat and 
prevent densely packed forests.
    Unfortunately, one of these few available measures is prescribed 
burning.
    Recently in my district, the North Fork fire took the lives of 
three Coloradans. This fire was caused by a prescribed burn that was 
used to treat unhealthy forest land.
    It is illogical to prevent fire with fire when there are 
alternative, less dangerous methods available to trim dense, dry and 
dangerous forests.
    I give credit to the Healthy Forest Restoration Act (HFRA) of 2003 
for starting the process of creating a more active forest management 
strategy and providing us with a framework to build on.
    However, HFRA was just the first step as our Western communities 
need us to give them more forest management tools and flexibility in 
order to mitigate the risk of out of control wildfires.
    We need a fresh approach and to build upon the positive aspects of 
HFRA.
    H.R. 6089, the Healthy Forest Management Act, is this fresh 
approach we need. This legislation will give more authority for state 
and local officials to manage federal forest lands and establish 
effective hazardous fuel reduction projects.
    This legislation will allow officials to move away from prescribed 
burns and allow our Governors and County Commissioners the necessary 
tools to protect their communities from devastating wildfires.
    This flexible local strategy will allow communities to trim densely 
packed forests, and clear the economically viable beetle infested wood, 
which will result in long-term health of our forests.
    Colorado county commissioners, forest conservation groups and 
lawmakers agree that a return to proactive forest management strategy 
will help curtail the risks of devastating wild fires.
    For this reason, I am thrilled to join my colleagues from Colorado 
in supporting the Health Forests Management Act and I ask for this 
Committee to support it as well.
    Thank you, I yield back.

                                 <all>

</pre></body></html>
